<html>
<title> - MARKOWSKY, MILLER, BABAUTA, AND JARVIS NOMINATIONS</title>
<body><pre>[Senate Hearing 111-98]
[From the U.S. Government Publishing Office]




                                                         S. Hrg. 111-98

                    MARKOWSKY, MILLER, BABAUTA, AND 
                           JARVIS NOMINATIONS

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                                   TO

  CONSIDER THE NOMINATIONS OF JAMES J. MARKOWSKY, TO BE AN ASSISTANT 
 SECRETARY OF ENERGY (FOSSIL ENERGY), WARREN F. MILLER, JR., TO BE AN 
  ASSISTANT SECRETARY OF ENERGY (NUCLEAR ENERGY) AND DIRECTOR OF THE 
  OFFICE OF CIVILIAN RADIOACTIVE WASTE, ANTHONY M. BABAUTA, TO BE AN 
 ASSISTANT SECRETARY OF THE INTERIOR (INSULAR AREAS), AND JONATHAN B. 
        JARVIS, TO BE THE DIRECTOR OF THE NATIONAL PARK SERVICE

                               __________

                             JULY 28, 2009


                       Printed for the use of the
               Committee on Energy and Natural Resources




                  U.S. GOVERNMENT PRINTING OFFICE
52-593                    WASHINGTON : 2009
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001












               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                  JEFF BINGAMAN, New Mexico, Chairman

BYRON L. DORGAN, North Dakota        LISA MURKOWSKI, Alaska
RON WYDEN, Oregon                    RICHARD BURR, North Carolina
TIM JOHNSON, South Dakota            JOHN BARRASSO, Wyoming
MARY L. LANDRIEU, Louisiana          SAM BROWNBACK, Kansas
MARIA CANTWELL, Washington           JAMES E. RISCH, Idaho
ROBERT MENENDEZ, New Jersey          JOHN McCAIN, Arizona
BLANCHE L. LINCOLN, Arkansas         ROBERT F. BENNETT, Utah
BERNARD SANDERS, Vermont             JIM BUNNING, Kentucky
EVAN BAYH, Indiana                   JEFF SESSIONS, Alabama
DEBBIE STABENOW, Michigan            BOB CORKER, Tennessee
MARK UDALL, Colorado
JEANNE SHAHEEN, New Hampshire

                    Robert M. Simon, Staff Director
                      Sam E. Fowler, Chief Counsel
               McKie Campbell, Republican Staff Director
               Karen K. Billups, Republican Chief Counsel















                            C O N T E N T S

                              ----------                              

                               STATEMENTS

                                                                   Page

Babauta, Anthony M., Nominee to be Assistant Secretary of the 
  Interior for Insular Affairs...................................    12
Bordallo, Hon. Madeleine Z., Delegate From Guam, U.S House of 
  Representatives................................................     4
Bingaman, Hon. Jeff, U.S. Senator From New Mexico................     1
Cantwell, Hon. Maria, U.S. Senator From Washington...............     2
Hon. Lisa Murkowski, U.S. Senator From Alaska....................     2
Jarvis, Jonathan B., Nominee to be Director of the National Park 
  Service........................................................    15
Markowsky, James J., Nominee to be Assistant Secretary of Energy 
  for Fossil Fuels...............................................     6
Miller, Warren F., Jr., Nominee to be Assistant Secretary of 
  Energy for Nuclear Energy and Director of the Office of 
  Civilian Radioactive Waste Management..........................     9

                               APPENDIXES
                               Appendix I

Responses to additional questions................................    31

                              Appendix II

Additional material submitted for the record.....................    55

 
                    MARKOWSKY, MILLER, BABAUTA, AND 
                           JARVIS NOMINATIONS

                              ----------                              


                         TUESDAY, JULY 28, 2009

                                       U.S. Senate,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:03 a.m. in 
room SD-366, Dirksen Senate Office Building, Hon. Jeff 
Bingaman, chairman, presiding.

OPENING STATEMENT OF HON. JEFF BINGAMAN, U.S. SENATOR FROM NEW 
                             MEXICO

    The Chairman. Let me welcome everyone to the hearing. We 
have two things we're going to try to do this morning. If we 
are able to get a quorum of 12 Senators, we hope to report 
three pending nominations to the full Senate. Those are the 
nominations of: Wilma Lewis, to be the Assistant Secretary of 
Interior for Lands and Minerals Management; Richard G. Lewis, 
to be the Administrator of the Energy Information 
Administration; and Robert V. Abbey, to be the Director of 
Bureau of Land Management. So we will put that on hold until we 
get more Senators present.
    The other purpose is to have a hearing to consider four 
additional nominees. These are: James J. Markowsky, who is to 
be the Assistant Secretary of Energy for Fossil Fuels; Warren 
F. Miller, to be an Assistant Secretary of Energy for Nuclear 
Energy and to be the Director of the Office of Civilian 
Radioactive Waste Management; Anthony Babauta, to be an 
Assistant Secretary of Interior for Insular Affairs; and 
Jonathan B. Jarvis to be the Director of the National Park 
Service.
    Let me just go through a couple of points here. Let me note 
that the committee is aware of an allegation that was made 
against Mr. Jarvis related to the operation of an oyster farm 
in the Point Reyes National Seashore. The Department of 
Interior's Office of Inspector General has completed an inquiry 
into that allegation and has reported that it has found no 
evidence to support the allegation.
    Without objection, I would put the Office of Inspector 
General's memorandum on that office's investigative findings in 
our record of today's hearing.
    Let me defer to Senator Murkowski for any statement she 
has.

        STATEMENT OF HON. LISA MURKOWSKI, U.S. SENATOR 
                          FROM ALASKA

    Senator Murkowski. Thank you, Mr. Chairman. Hopefully, we 
will have enough members here to move through the three 
nominees as part of the business meeting.
    I want to thank you for holding this hearing this morning 
for these nominees. I want to thank them for their willingness 
to serve. We're going to hear from two nominees for the 
Department of Energy that will be responsible for the two 
sources of energy that together provided 91 percent of our 
Nation's electricity last year, fossil fuels and nuclear.
    As much as we all hope for the creation and expansion of 
other economic sources of energy, we must continue to invest in 
technologies that will allow the growth of these, our largest 
sources of domestically produced energy. I am pleased that the 
President has chosen to nominate two very qualified persons for 
these key positions, also pleased to see that the 
administration has decided to reinstate the position of 
Assistant Secretary of the Interior for Insular Affairs. This 
is an area I believe that is way too often overlooked or 
certainly forgotten in the functions of the Department. It 
needs representation at the Assistant Secretary level. I'm 
pleased that Delegate Bordallo is here this morning. I'm sure 
she will reaffirm that. I'm also glad to see that the President 
has selected a nominee that has a strong background and 
expertise in this area.
    Certainly last but not least, the Director of the Park 
Service. This position has more impact on my State than any 
other State, as 65 percent of the lands controlled by the 
National Park Service are located within the State of Alaska. 
I'm pleased to note that Mr. Jarvis has spent a portion of his 
career in Alaska. I'm optimistic that he'll have a full 
understanding of the very unique opportunities and challenges 
the Park Service faces in my State. I look forward to 
discussing these issues as the nomination process continues.
    Thank you, Mr. Chairman.
    The Chairman. Thank you very much.
    Unfortunately, I have the absent myself in order to attend 
a meeting on health care which is going on at this point. I'm 
going to ask Senator Udall to take over as chair of the 
remainder of the hearing, and he will call on--let me go ahead 
and call on Senator Cantwell to do her introduction of Mr. 
Jarvis and then Delegate Bordallo to introduce Mr. Babauta.

        STATEMENT OF HON. MARIA CANTWELL, U.S. SENATOR 
                        FROM WASHINGTON

    Senator Cantwell. Thank you. Chairman Bingaman, Ranking 
Member Murkowski, Subcommittee Chairman Udall, and members of 
the committee: I'm honored to be here this morning to introduce 
President Obama's nomination to serve as the Director of the 
National Park Service, John Jarvis. It is a position that our 
late committee Chairman Senator Clinton Anderson of New Mexico 
once called ``the greatest job in America.''
    I believe there are few souls as talented, enterprising, 
and experienced as John Jarvis to take the reins and move our 
park system into the next century. Mr. Chairman, our national 
park systems depict what we are about as a Nation. They embody 
our values and our heritage. Our national park system is the 
envy of the world. At the same time, our park system faces a 
range of challenges from the impacts of climate change to 
billions in deferred maintenance to the imperative of creating 
partnerships to the mandate to welcome people of all 
ethnicities, backgrounds, and classes to the wonders of our 
natural places.
    It is for all these reasons that John Jarvis is so 
eminently qualified. As a trained biologist, Mr. Jarvis moved 
up through the ranks of the Park Service from his first days as 
a park ranger on the National Mall during the 1976 
Bicentennial. Mr. Jarvis's career includes a stint as the chief 
of natural and cultural resources at the North Cascades 
National Park in Washington State and as superintendent at 
Craters of the Moon National Monument in Idaho, Mount Rainier 
in my State, and at Wrangell-St. Elias National Park in Alaska.
    Mr. Jarvis distinguished himself with the top ranks of 
superintendents nationwide by constant innovation, open dialog 
with various communities, and delivering results. One of those 
projects, the largest project in the Pacific West, the Elwha 
River Restoration Project, was a robust and complex plan to 
remove two hydroelectric dams and restore 70 miles of river to 
salmon runs with the Olympic National Park. Long delayed and 
over budget, Mr. Jarvis brought this project back into the 
national park system, assigned an entire new team, updated the 
cost, briefed Congressional appropriators, and sought and 
gained support of the National Park Service leadership, and got 
the project back on track.
    Mr. Jarvis has been a tremendous Ambassador for our parks 
gateway programs, building relationships that are so essential 
to the park system. For example, at Craters of the Moon 
National Monument in Idaho Mr. Jarvis reached out extensively 
to rural communities on the Snake River plan and he helped 
reconnect the park to the community leaders who had been 
disenfranchised by the monument's establishment.
    In his 7 years as the regional director of the Pacific West 
Region, the largest in the park system, Mr. Jarvis 
distinguished himself as a leader within the National Park 
Service. He was able to set a vision and guide the region as a 
whole while consistently managing the complex issues around the 
58 units of the Park Pacific West Region. These include 
everything from forest fires, typhoons, volcano eruptions, 
floods, 54 million visitors, and certainly other unfortunate 
fatalities that sometimes come with fighting wildland fire 
recreation.
    In 2004, he orchestrated a series of regional workshops on 
climate change, engaging top scientists in the field, and as 
the Pacific West Region he ordered that his 56 parks be carbon-
neutral by 2016, when the agency celebrates its centennial. For 
the second year running, the region purchased enough 
photovoltaic systems to offset the region offices for travel 
and parks and produced 700,000 kilowatts of green power, enough 
to operate the 18 small park systems for a year.
    Mr. Jarvis has developed a longstanding trust relationship 
with Native Americans. He recently facilitated the first 
comprehensive agreement between eight tribes affiliated with 
the Olympic National Park.
    Mr. Chairman, our Nation is fortunate to have such a 
qualified nominee to lead the Park Service as Mr. John Jarvis. 
His experience and vision are perfectly aligned with the charge 
that we have moving forward, to take our park system into this 
next century.
    Senator Udall [presiding]. Thank you, Senator Cantwell.
    Next, I'm pleased to be able to acknowledge and call on 
Delegate Bordallo. Nice to see you. I can't think of a more 
effective advocate for Guam, and I know that I have made a 
commitment to you to travel to Guam and we will make that 
happen.
    Delegate Bordallo.

 STATEMENT OF HON. MADELEINE Z. BORDALLO, DELEGATE FROM GUAM, 
                  U.S HOUSE OF REPRESENTATIVES

    Ms. Bordallo. Good morning and hafa adai. Mr. Chairman 
Udall, it is good to see you again, and I am remembering your 
promise to visit our Territory.
    Senator Murkowski and distinguished Senators of the 
committee: It is indeed a privilege to appear before you today 
on behalf of our community on Guam and to share with you a few 
words of support for Tony Babauta, a native son of Guam who has 
been nominated by President Obama as an Assistant Secretary of 
the Interior for Insular Affairs.
    Today is a very proud day for our community. I am joined 
here at this confirmation hearing by many from Guam. I want to 
recognize in particular Senator Tina Muna-Barnes and Senator 
Frank Blas, Jr. I request, Mr. Chairman, that the resolution of 
support from the 30th Guam Legislature be included in the 
record.*
---------------------------------------------------------------------------
    * Document has been retained in committee files.
---------------------------------------------------------------------------
    Senator Udall. Without objection.
    Ms. Bordallo. I commend President Obama for elevating this 
position to an Assistant Secretary. Tony is the most capable 
person to fill this elevated position. Tony grew up on Guam and 
the mainland. He is the son of Antonio and Mary Babauta of 
Agat. His father served many years in the United States Navy 
and is now retired. Tony also carries with him to proud 
traditions of the Chamorro culture.
    I have known Tony for more than 20 years. Our association 
first began when he worked for me when I served as a senator in 
the 20th Guam Legislature. Tony has many years of service on 
the professional staff of the Guam Legislature, and during his 
service at the Guam Legislature Tony earned the respect of 
senators in both parties.
    He subsequently went on to work here in the Nation's 
capital as a legislative assistant to my predecessor, 
Congressman Robert Underwood. Ten years ago Tony was appointed 
to serve on the professional staff of the House Committee on 
Natural Resources by then-Ranking Member George Miller. 
Chairman Nick Rahall increased Tony's responsibilities and in 
the 110th Congress he was appointed as staff director for the 
Subcommittee on Insular Affairs. During this time, Mr. Chairman 
and members of the committee, he has assisted in legislative 
matters pertaining to the insular areas.
    Tony has a wealth of experience and the knowledge of policy 
to help the Obama Administration with their work in the 
territories and the freely associated states. Tony has shown us 
he is more than capable in fulfilling the interests of the 
country in handling these issues for the administration, and I 
know that he will work well with Secretary Salazar.
    So on behalf of the people of Guam, I urge you to favorably 
report the nomination of Tony Babauta to full Senate with the 
recommendation that he has been confirmed without hesitation.
    Last, Mr. Chairman and members of the committee, today here 
with him are his lovely wife Barb and their daughter Gabriella.
    As we say on Guam, si yu'us maase, meaning thank you for 
having me appear here today.
    Senator Udall. Thank you, Delegate Bordallo.
    If the nominees would come forward, we'll proceed to an 
opportunity to hear from each of you.
    The rules of the committee, which apply to all nominees, 
require that you be sworn in connection with your testimony. So 
if you would each stand and raise your right hand, I'll 
administer the oath.
    Do you solemnly swear that the testimony you are about to 
give to the Senate Committee on Energy and Natural Resources 
shall be truth, the whole truth, and nothing but the truth?
    Mr. Markowsky. I do.
    Mr. Miller. I do.
    Mr. Babauta. I do.
    Mr. Jarvis. I do.
    Senator Udall. Thank you. You may be seated.
    Before we begin with the statements, I want to ask three 
questions for each of you. You can respond together. The first 
question is: Will you be available to appear before this 
committee and other congressional committees to represent 
departmental positions and respond to issues of concern to the 
Congress?
    Mr. Markowsky. I will.
    Mr. Miller. I will.
    Mr. Babauta. I will.
    Mr. Jarvis. I will.
    Senator Udall. Are you aware of any personal holdings, 
investments, or interests that could constitute a conflict of 
interest or create the appearance of such a conflict should you 
be confirmed and assume the office to which you've been 
nominated by the President?
    We'll go starting here to my left with Mr. Markowsky and 
move across, because I know this is a little longer statement.
    Mr. Markowsky. All my personal assets have been reviewed by 
both myself and the appropriate ethics counselors within the 
Federal Government and I have taken appropriate action to avoid 
any conflict of interest.
    Senator Udall. Mr. Miller.
    Mr. Miller. All my personal assets have been reviewed both 
by myself and by appropriate ethics counselors within the 
Federal Government and I have taken appropriate action to avoid 
any conflict of interest.
    Senator Udall. Mr. Babauta.
    Mr. Babauta. My investments, personal holdings, and other 
interests have been reviewed by both myself and the appropriate 
ethics counselors within the Federal Government. I have taken 
appropriate action to avoid any conflicts of interest and there 
are no conflicts of interest or appearances thereof to my 
knowledge.
    Senator Udall. Thank you.
    Mr. Jarvis.
    Mr. Jarvis. My investments, personal holdings, and other 
interests have been reviewed by both myself and the appropriate 
ethics counselors within the Federal Government. I have taken 
appropriate action to avoid any conflict of interest. There are 
no conflicts of interest or appearances thereof to my 
knowledge.
    Senator Udall. Finally, are you involved or do you have any 
assets held in a blind trust? I'll move across.
    Mr. Markowsky. No.
    Mr. Miller. No.
    Mr. Babauta. No.
    Mr. Jarvis. No.
    Senator Udall. Thank you.
    Now we'll turn to the opening statements of each one of 
you. As you begin, please feel free to introduce any family 
members that are here and then, Mr. Markowsky, you could move 
to your opening statement.

   STATEMENT OF JAMES J. MARKOWSKY, NOMINEE TO BE ASSISTANT 
              SECRETARY OF ENERGY FOR FOSSIL FUELS

    Mr. Markowsky. Chairman Udall and Ranking Member Murkowski 
and distinguished members of the committee: It is a great honor 
and privilege to appear before you today as President Obama's 
nominee for Assistant Secretary of Fossil Energy. I thank 
Senator Chu and President Obama for their support and 
confidence in recommending and nominating me. I also thank the 
committee for considering my nomination.
    I would like to introduce my wife of 35 years and my 
daughter Lynn Berry, who are here with me today.
    In 1948 my parents, who fled the Ukraine 4 years earlier, 
emigrated from occupied Germany to the United States. They 
would have never dreamed that their son would one day be 
nominated by the President of the United States to serve this 
great country. I am proud to be a naturalized citizen of the 
United States of America and humbled by the honor of being here 
today.
    If confirmed, I have the rare opportunity and special 
responsibility to oversee vital components of our Nation's 
energy mix at a time in our Nation's history. I believe my 
technical background and experience have helped equip me to 
tackle the challenges facing fossil energy today, particularly 
the challenges facing coal. Our own country and indeed much of 
the world will continue to rely on coal as a primary energy 
source for many years. Our challenge is to ensure that this 
reliance is both economic and environmentally sustainable. 
Therefore we must push aggressively with a full commitment of 
resources to develop, demonstrate, and deploy those advanced 
combustion and emission control technologies and capture 
technologies that will sustain our environment and support our 
economy.
    After receiving my Ph.D. in mechanical engineering from 
Cornell in 1971, I joined American Electric Power Service 
Corporation. For the next 29 years, I was fully involved in all 
aspects of conventional and advanced coal-fired power 
generation.
    Starting in the mid-1970s, I was named program manager for 
AEP's pressurized fluidized bed combustion program, which 
resulted in the construction and successful operation of a 70 
megawatt PFBC demonstration plant. This facility was partially 
funded by the Department of Energy and Ohio State's Coal 
Development Office.
    As senior vice president and chief engineer at AEP in the 
early 1990s, I directed engineering organizations which were 
directly involved in the engineering and design for the 
conversion of the 800 megawatt Zimmer nuclear power plant to a 
1300 megawatt coal-fired facility.
    From 1993 until my retirement in 2000, I served as 
executive vice president. My responsibilities included 
providing overall administrative, operational, and technical 
direction for key areas within the AEP System's coal-fired and 
hydropowered generation systems. These areas included fuel 
procurement and transportation, coal mining, facility planning, 
licensing, and environmental compliance, and the engineering, 
design, construction, maintenance and the integrated operation 
of the fossil and hydro fleet. The power generation group was 
comprised of approximately 5,000 employees and was responsible 
for 21,000 megawatts of coal-fired generation and 800 megawatts 
of hydroelectric power generation.
    Since 2000, I have participated in advancing two startup 
companies, one involved in developing a computer-based 
procurement platform for large electrical power components and 
the other a biodiesel company. From 2004 to 2005, I was the 
president of Research and Development Solutions, LLC. RDC LLC 
is a joint venture between EG&G, Parsons, and Science 
Applications International Corporation that provides research 
and development support services to DOE's National Energy 
Technology Laboratory in Morgantown, West Virginia, and 
Pittsburgh, Pennsylvania.
    More recently, I have been involved in the National 
Research Council's Committee on America's Energy Future, where 
I chaired the electrical transmission and distribution 
subgroup.
    My entire career has been in the energy area, engineering, 
designing, and building facilities and-or evaluating the 
technical, environmental, and economic feasibility of fossil 
energy facilities. If I am confirmed, I look forward to 
bringing these experiences with me to the Department of Energy 
to apply a lifetime of knowledge and achievement to addressing 
the ultimate challenge of my career, to make fossil fuels and 
especially our Nation's abundant coal resources as 
environmentally sustainable as they are economically 
competitive.
    Mr. Chairman, members of this committee, I thank you for 
this hearing and I pledge to you, if confirmed as Assistant 
Secretary for Fossil Energy, I will work closely with you and 
others in Congress to use this rare opportunity I will have to 
contribute to a healthier, more competitive, and more secure 
America. I thank you and I look forward to answering your 
questions.
    [The prepared statement of Mr. Markowsky follows:]
   Prepared Statement of James J. Markowsky, Nominee to be Assistant 
                  Secretary of Energy for Fossil Fuels
    Chairman Bingaman, Ranking Member Murkowski, and distinguished 
members of the Committee, it is a great honor and a privilege to appear 
before you today as President Obama's nominee for Assistant Secretary 
for Fossil Energy.
    I thank Secretary Chu and President Obama for their support and 
confidence in recommending and nominating me. I also thank the 
Committee for considering my nomination. I would like to introduce my 
wife of 35 years, Carolyn, and my daughter, Lynn Berry, who are here 
with me today.
    In 1948, my parents, who had fled the Ukraine four years earlier, 
emigrated from occupied Germany to the United States. They would never 
have dreamed that their son would one day be nominated by the President 
of the United States to serve this great country. I am proud to be a 
naturalized citizen of the United States of America and humbled by the 
honor of being here today.
    If confirmed, I will have the rare opportunity and the special 
responsibility to oversee vital components of our nation's energy mix 
at a critical time in our nation's history. I believe my technical 
background and experience have helped equip me to tackle the challenges 
facing fossil energy today, and particularly the challenges facing 
coal. Our own country and, indeed, much of the world will continue to 
rely on coal as a primary energy source for many years. Our challenge 
is to ensure that this reliance is both economically and 
environmentally sustainable. Therefore, we must push aggressively and 
with a full commitment of resources to develop, demonstrate, and deploy 
those advanced combustion and emission control and capture technologies 
that will sustain our environment and support our economy.
    After receiving my PhD in mechanical engineering from Cornell 
University in 1971, I joined American Electric Power Service 
Corporation (AEP). For the next 29 years I was fully involved in all 
aspects of both conventional and advanced coal-fired electric power 
generation.
    Starting in the mid 1970s, I was named Program Manager for AEP's 
Pressurized Fluidized Bed Combustion (PFBC) program which resulted in 
the construction and successful operation of a 70MWe PFBC Demonstration 
Plant. This facility was partially funded by the Department of Energy 
and Ohio State's Coal Development Office.
    As Senior Vice President and Chief Engineer at AEP in the early 
1990s, I directed engineering organizations which were directly 
involved in the engineering and design for conversion of the 800 MWe 
Zimmer Nuclear Plant to a 1300 MWe coal-fired facility.
    From 1993 until my retirement in 2000, I served as Executive Vice 
President. My responsibilities included providing overall 
administrative, operational, and technical direction for key areas 
within the AEP System's coal and hydro power generation facilities; 
these areas included fuel procurement and transportation; coal mining; 
facility planning, licensing, and environmental compliance; and 
engineering, design, construction, maintenance, and integrated 
operation of the fossil and hydro fleet. The power generation group was 
comprised of approximately 5,000 employees and was responsible for 
21,000 MWe of coal-fired electric power generation and 800 MWe of hydro 
electric power generation.
    Since 2000, I have participated in advancing two start-up 
companies, one involved with developing a computer-based procurement 
platform for large electrical power components and the other a 
biodiesel company. From 2004 to 2005, I was the President of Research 
and Development Solutions(RDS), LLC. RDS, LLC is a joint venture 
between EG&G Technical Services, Parsons, and Science Applications 
International Corporation that provides research and development 
support services to DOE's National Energy Technology Laboratory in 
Morgantown, West Virginia and Pittsburgh, Pennsylvania.
    More recently, I have been involved in the National Research 
Council's Committee on America's Energy Future, where I chaired the 
electrical transmission and distribution subgroup.
    My entire career has been in the energy area, engineering, 
designing, and building facilities and/or evaluating the technical, 
environmental, and economic feasibility of fossil energy facilities. If 
I am confirmed, I look forward to bringing these experiences with me to 
the Department of Energy, to apply a lifetime of knowledge and 
achievement to address the ultimate challenge of my career: to make 
fossil fuels, and especially our nation's abundant coal resources, as 
environmentally sustainable as they are economically competitive.
    Mr. Chairman, members of this committee, I thank you for this 
hearing and I pledge to you, if confirmed as Assistant Secretary for 
Fossil Energy, I will work closely with you and others in the Congress 
to use this rare opportunity I will have to contribute to a healthier, 
more competitive, more energy secure America. Thank you, and I look 
forward to answering your questions.

    Senator Udall. Thank you, Dr. Markowsky.
    Mr. Miller.

STATEMENT OF WARREN F. MILLER, JR., NOMINEE TO BE AN ASSISTANT 
  SECRETARY OF ENERGY FOR NUCLEAR ENERGY AND DIRECTOR OF THE 
        OFFICE OF CIVILIAN RADIOACTIVE WASTE MANAGEMENT

    Mr. Miller. Thank you, Mr. Chairman. Joining me today is my 
brother of 64 years, Deacon Arthur Miller, and his wife, my 
sister-in-law of 37 years, Sandra Miller. They both work full-
time for the Catholic Archdiocese of Hartford.
    Chairman Udall, Ranking Member Murkowski, and distinguished 
members of the committee: It is an honor and a privilege to 
appear before you today as President Obama's nominee for 
Assistant Secretary for Nuclear Energy and Director of the 
Office of Civilian Radioactive Waste Management.
    I first wish to thank President Obama for asking me to join 
his administration in these capacities and Secretary Chu for 
his confidence in my appointment.
    If confirmed, I look forward to working with this committee 
and the Department of Energy leadership team that the Secretary 
has assembled to advance the President's plans to secure our 
energy future and reduce our greenhouse gas emissions. I'm 
especially looking forward to working directly and closely with 
Under Secretary Johnson in achieving these goals.
    I also want to note that I'm a resident of the great State 
of New Mexico. It is a point of home State pride for me to 
testify before the committee that Senator Bingaman chairs.
    My personal journey to this nomination and to this hearing 
room today is a culmination of a lifetime of dedication to 
public service. I come from a humble background on the South 
Side of Chicago, where my parents instilled in me strong faith 
and demanded excellence in character and effort. Although they 
are no longer with us, I feel their spirits in this room, 
filled with love and support. That love and support of my 
parents, as well as my brothers, sisters, and extended family, 
sustained me as I left Chicago to attend the United States 
Military Academy at West Point.
    Upon graduation, I served in the United States Army for 5 
years in various positions of service, including a tour in 
Vietnam during the war. After returning from Vietnam, I left 
the military in 1969 and attended Northwestern University, 
where I earned a Ph.D. in nuclear engineering.
    The sense of duty instilled in me by my parents at West 
Point and during my military service was important in my 
decision to dedicate my career to work at Los Alamos National 
Laboratory, one of this country's great research institutions 
dedicated to serving the Nation. At Los Alamos I worked as a 
research engineer and held various management posts, including 
deputy laboratory director for science in technology. Since 
retiring from Los Alamos, I've served on the faculty at Texas 
A&M University.
    I believe this mix of professional experience has prepared 
me well to take on the nuclear energy and waste management 
portfolios at the Department. I am eager to return to public 
service, for the opportunity to help address some of the great 
challenges of our times.
    More specifically, I am motivated by the strong belief that 
nuclear power must play a significant role in our energy mix 
going forward. I know that Secretary Chu shares this belief and 
I am confident that I will have his strong support should I be 
confirmed.
    Simply put, nuclear energy is today and must continue to be 
an important part of our clean energy strategy. Today we have 
104 commercial nuclear power plants operating in the United 
States economically and safely, providing about 20 percent of 
our Nation's electricity and over 70 percent of our low carbon 
electricity.
    A new generation of reactors is now poised to be deployed, 
with the Nuclear Regulatory Commission considering 26 license 
applications. I believe these applications represent the 
leading edge of a wave of new nuclear power plants that will be 
deployed in the coming decades to address electricity needs as 
well as process heat for industrial applications.
    As we prepare to restart the nuclear industry in the United 
States, I think it is critical to take an integrated approach 
that considers the entire nuclear fuel cycle. It is for that 
reason I am excited about the opportunity to serve as both the 
Assistant Secretary for Nuclear Energy as well as the Director 
of the Office of Civilian Radioactive Waste Management.
    Again, if confirmed I will work to forge an integrated 
approach to nuclear power. Much of my attention will be 
directed to helping deploy a new fleet of reactors quickly, 
economically, and safely, generating much-needed carbon-free 
electricity. At the same time, I will be working to help the 
Secretary develop new approaches and strategies for managing 
spent nuclear fuel and high-level waste.
    I understand that Secretary Chu remains committed to 
meeting the Department's obligations for managing and 
ultimately disposing of spent nuclear fuel and high-level 
radioactive wastes. He has announced that he will convene a 
blue ribbon panel of experts to evaluate alternative approaches 
for meeting these obligations. The panel will provide the 
opportunity for a meaningful discussion on how best to address 
this challenging issue and will provide recommendations that 
will form the basis for working with Congress to revise the 
statutory framework for managing and disposing of spent nuclear 
fuel and high-level radioactive waste.
    If confirmed, one of my highest priorities will be to 
tackle this critical set of issues in a way that is integrated 
with the Department's programs to support and promote new 
nuclear power.
    I am also aware of the many other important programs for 
which I will be responsible if confirmed. These range from 
conducting research, development, and deployment programs for 
novel new reactor designs to providing plutonium 238 heat 
sources to NASA for space missions. I stand ready to move these 
programs forward.
    In summary, I am honored to appear before you today as a 
nominee. I am eager to take on the vital challenges of moving 
nuclear power forward in the United States.
    I will be happy to take your questions. Thank you.
    [The prepared statement of Mr. Miller follows:]
Prepared Statement of Warren F. Miller, Jr., Nominee to be an Assistant 
 Secretary of Energy for Nuclear Energy and Director of the Office of 
                 Civilian Radioactive Waste Management
    Chairman Bingaman, Ranking Member Murkowski, and distinguished 
Members of the Committee, it is an honor and a privilege to appear 
before you today as President Obama's nominee for Assistant Secretary 
for Nuclear Energy and Director of the Office of Civilian Radioactive 
Waste Management.
    I first wish to thank President Obama for asking me to join his 
Administration in these capacities and Secretary Chu for his confidence 
in my appointment. If confirmed, I look forward to working with this 
committee and the Department of Energy leadership team that the 
Secretary has assembled to advance the President's plans to secure our 
energy future and reduce our greenhouse gas emissions. I am especially 
looking forward to working closely with Under Secretary Johnson in 
achieving these goals.
    I also want to note that I am currently a resident of the great 
state of New Mexico. It is a point of home-state pride for me to 
testify before Chairman Bingaman today.
    My personal journey to this nomination and to this hearing room 
today is the culmination of a lifetime of dedication to public service.
    I come from a humble background on the South Side of Chicago, where 
my parents instilled in me a strong faith and demanded excellence in 
character and effort. Although they are no longer with us, I feel their 
spirits in this room, filled with love and support.
    That love and support of my parents, as well as my brothers, 
sisters and extended family, sustained me as I left Chicago to attend 
the United States Military Academy at West Point. Upon graduation I 
served in the United States Army for five years in various positions of 
service, including a tour in Viet Nam during the war.
    After returning from Viet Nam, I left the military in 1969 and 
attended Northwestern University, where I earned a PhD in Nuclear 
Engineering.
    The sense of duty instilled in me by my parents, at West Point, and 
during my military service was important in my decision to dedicate my 
career to work at Los Alamos National Laboratory, one of the nation's 
great research institutions dedicated to serving the country. At Los 
Alamos, I worked as a research engineer and held various management 
posts, including Deputy Laboratory Director for Science and Technology. 
Since retiring from Los Alamos, I have served on the faculty at Texas 
A&M University.
    I believe that this mix of professional experiences has prepared me 
well to take on the nuclear energy and waste management portfolios at 
the Department. I am eager to return to public service for the 
opportunity to help address some of the great challenges of our times. 
More specifically, I am motivated by the strong belief that nuclear 
power must play a significant role in our energy mix going forward. I 
know that Secretary Chu shares this belief, and I am confident that I 
will have his strong support should I be confirmed.
    Simply put, nuclear energy is today--and must continue to be--an 
important part of our clean energy strategy. Today we have 104 
commercial nuclear power plants operating in the United States 
economically and safely, providing about 20% of our nation's 
electricity and 70% of our low-carbon electricity. A new generation of 
reactors is now poised to be deployed, with the Nuclear Regulatory 
Commission considering 26 license applications. I believe these 
applications represent the leading edge of a wave of new nuclear power 
plants that will be deployed in the coming decades to address 
electricity needs as well as process heat for industrial applications.
    As we prepare to restart the nuclear industry in the United States, 
I think it is critical to take an integrated approach that considers 
the entire nuclear fuel cycle. It is for that reason that I am excited 
about the opportunity to serve as both the Assistant Secretary for 
Nuclear Energy and as the Director of the Office of Civilian 
Radioactive Waste Management.
    If confirmed, I will work to forge an integrated approach to 
nuclear power. Much of my attention will be directed to helping deploy 
a new fleet of reactors quickly, economically and safely, generating 
much-needed carbon-free electricity. At the same time, I will be 
working to help the Secretary develop new approaches and strategies for 
managing spent nuclear fuel and high level waste.
    I understand that Secretary Chu remains committed to meeting the 
Department's obligations for managing and ultimately disposing of spent 
nuclear fuel and high-level radioactive waste. He has announced that he 
will convene a ``blue ribbon'' panel of experts to evaluate alternative 
approaches for meeting these obligations. The panel will provide the 
opportunity for a meaningful discussion on how best to address this 
challenging issue and will provide recommendations that will form the 
basis for working with Congress to revise the statutory framework for 
managing and disposing of spent nuclear fuel and high-level radioactive 
waste. If confirmed, one of my highest priorities will be to tackle 
this critical set of issues in a way that is integrated with the 
Department's programs to support and promote new nuclear power.
    I am also aware of the many other important programs for which I 
will be responsible, if confirmed. These range from conducting 
research, development and deployment programs for novel, new reactor 
designs, to providing Pu 238 heat sources to NASA for space missions. I 
stand ready to move these programs forward.
    In summary, I am honored to appear before you today as a nominee. I 
am eager to take on the vital challenges of moving nuclear power in the 
United States forward.

    Senator Udall. Thank you, Dr. Miller.
    Before I turn to Mr. Babauta, I wanted to acknowledge that 
we've been joined by the Congresswoman from the United States 
Virgin Islands, Ms. Christensen.
    Mr. Babauta, you were introduced by the woman who 
represents the most western point of the United States and the 
woman who represents the most eastern point of the United 
States has joined us in Delegate Christensen. I served with her 
in the House, as I did Delegate Bordallo. They're both very, 
very effective advocates for these important areas of the 
United States.

  STATEMENT OF ANTHONY M. BABAUTA, NOMINEE TO BE AN ASSISTANT 
         SECRETARY OF THE INTERIOR FOR INSULAR AFFAIRS

    Mr. Babauta. Thank you very much, Mr. Chairman, Senator 
Murkowski, and members of the committee. It is truly an honor 
and a privilege to be here today as President Obama's nominee 
for Assistant Secretary of the Interior for Insular Areas. The 
reestablishment of this position by the President and Interior 
Secretary Salazar after more than 15 years of absence has 
signaled recommitment and recognition of our fellow Americans 
outside the lower 48, Alaska, and Hawaii.
    I come before this committee much obliged, humbled, and 
most keenly aware of the unique responsibility that this 
position entails. Before going any further, I would like to 
thank my family with me this morning, especially my wife 
Barbara and my daughter Gabriella, close friends, colleagues, 
and Members of Congress, all of whom in various indelible ways 
have made my being here possible.
    Since the birth of my daughter Gabriella, who is now 6 and 
was born with some physical disabilities, I have been 
instilling in her one message, which I would like to make part 
of the record: Sweetheart, sweetheart, you can do and be 
anything you want if you study earnestly, work hard, and stay 
focused. I believe 1 day she will better appreciate such 
guidance, as well as this historic moment for our family and 
for all island communities.
    My entry into public service is no mere coincidence. I am a 
Guam native, a Chamorro, born on the island, and a son of Agat. 
My father's United States military service necessitated our 
family relocating from Guam at an early age to live in various 
parts of the country. My mother, having given up her own 
professional Federal career to raise me and my two sisters, 
volunteered her time to schools and organizations in each 
community we resided. Dad's military service and mom's 
voluntarism bestowed upon me at a very early age a desire, a 
firm determination, to serve this country and my community.
    We moved back to Guam as I entered high school and upon 
graduating from Father Duenas Memorial I left home to attend 
college at Gonzaga University in Spokane, Washington. While 
attending college I became involved in the island's local 
government by working for its legislature. Some of my early 
mentors were Belle Arriola, former Governor Ricky Bordallo and 
his wife and current Guam Delegate Madeleine Bordallo, as were 
numerous others dedicated to serving and representing Guam.
    11 years ago, I left the island once more to work on 
Capitol Hill. I began as a legislative assistant for another 
mentor of mine, Robert Underwood. A year later I was asked to 
join the Democratic staff of the House Resources Committee, 
which is where, under Ranking Member George Miller and current 
Chairman Nick Rahall, I developed a deeper understanding of 
insular issues and the legislative process, first as a 
professional staffer and eventually as the staff director of 
the Subcommittee on Insular Affairs.
    During my tenure I worked directly on legislation renewing 
the Compacts of Free Association with the Marshall Islands and 
Micronesia, creating a nonvoting delegate for the Northern 
Mariana Islands, authorizing the Guam War Claims Review 
Commission, providing a self-determination process to Puerto 
Rico, and empowering the Virgin Islands government control over 
its local tax structure.
    I believe that my upbringing, career experiences, and 
genuine commitment to the insular areas afford me the requisite 
credentials to serve as Assistant Secretary. To the table I 
bring a forward-thinking approach, cognizant of the often 
practical, cultural, social, and economic challenges our 
insular areas and their leaders face. In addition, I have 
earned respect among colleagues I have worked with on the Hill 
and with island leaders throughout the Pacific and the 
Caribbean. I believe all are aware that I am collaborative, 
firm, thoughtful, and realistic in my approach to issues.
    If confirmed, my vision is one that will be hands-on, one 
where priorities will be established early and our ability to 
confront multi-dimensional challenges is enhanced and 
cultivated daily.
    If confirmed as Assistant Secretary, my commitment is to 
work toward improving the quality of life in the insular areas 
by providing the necessary leadership and insisting on 
measurable results. I believe in forging a new beginning for 
the islands, moving forward and rejecting the one-size-fits-all 
approach. I believe we must embrace an approach that contains 
real measures for policy success.
    For more than a century under the American flag, the United 
States insular areas have grappled with issues from working to 
protect their indigenous cultures and languages to tackling 
Federal policies that impact and oftentimes hinder their 
economic, social, and political development. Coupled with this 
unique relationship between the United States and her 
territories lies an endemic duty to ensure and effectuate 
policies that are mindful foremost of insular needs and the 
challenges that encumber such developments.
    Throughout our country's periods of peace and war, United 
States territories along with our relationships with other 
affiliated Pacific Islands have been integral to both the 
security and growth of our democracy. We have a responsibility 
to foster sustainable development, providing a path for energy 
independence, improving infrastructure, responding to economic 
challenges, and promoting self-government.
    I am confident that with the right leadership in place at 
the Department of the Interior, our commitment to cooperation 
and genuine concern for the islands and the peoples' welfares 
will be fortified. The tasks before us are certainly vast, but 
never impossible. If we come together and solidify our 
commitment and maximize our effectiveness, we will and we can 
move forward to improve the life on our islands.
    If confirmed, I look forward to working with this committee 
to address all these challenges. Thank you very much, Mr. 
Chairman.
    [The prepared statement of Mr. Babauta follows:]
 Prepared Statement of Anthony M. Babauta, Nominee to be an Assistant 
             Secretary of the Interior for Insular Affairs
    Thank you, Mr. Chairman, Senator Murkowski, and Members of the 
Committee. It is truly an honor and a privilege to be here today as 
President Obama and Secretary Salazar's nominee for Assistant Secretary 
of the Interior for Insular Areas at the Department of the Interior. 
The re-establishment of this position by the President and Secretary 
Salazar, after more than fifteen years of absence, has signaled re-
commitment and recognition of our fellow Americans outside the lower 
forty-eight, Alaska, and Hawaii. I come before this Committee much 
obliged, humbled and most keenly aware of the unique responsibility 
that this position entails.
    Before going any further, I would like to thank my family, 
especially my wife Barbara, close friends, colleagues and Members of 
Congress--all of whom, in various indelible ways, have made my being 
here possible. Since the birth of my daughter, Gabriella, who is now 
six and was born with some physical disabilities, I have been 
instilling in her one message which I would like to make a part of the 
record--Sweetheart you can do and be anything you want if you study 
earnestly, work hard, and stay focused. I believe one day she will 
better appreciate such guidance as well as this historic moment for our 
family and for all island communities.
    My entry into public service is no mere coincidence or 
happenstance. I am a Guam native, a Chamorro--born on the island and a 
son of Agat. My father's U.S. military service necessitated our family 
relocating from Guam at an early age to live in various parts of the 
country. My mother, having given up her own professional federal career 
to raise me and my two sisters, volunteered her time to schools and 
organizations in each community we resided. Dad's military service and 
Mom's volunteerism bestowed upon me, at a very early age-a desire and a 
firm determination to serve this country and my community.
    We moved back to Guam as I entered high school and upon graduating 
from Father Duenas Memorial I left home to attended college at Gonzaga 
University. While attending college I became involved in the island's 
local government by working for its legislature. Some of my early 
mentors were Belle Arriola, former Governor Ricky Bordallo and his wife 
and current Guam Delegate Madeleine Bordallo--as were numerous others 
dedicated to serving and representing Guam.
    Eleven years ago, I left the island once more to work on Capitol 
Hill. I began as a legislative assistant for another mentor of mine, 
Robert Underwood. After a year and some with Mr. Underwood, I was asked 
to join the Democratic staff of the House Resources Committee--which is 
where, under Ranking Member George Miller, and current Chairman Nick 
Rahall, I developed a deeper understanding of insular issues and the 
legislative process first as professional staff and eventually as the 
staff director of the Subcommittee on Insular Affairs, Oceans, and 
Wildlife. During my tenure, I worked directly on legislation renewing 
the Compact of Free Association with the Marshall Islands and 
Micronesia, creating a non-voting delegate seat for the Northern 
Mariana Islands, authorizing the Guam War Claims Review Commission, 
providing a self-determination process to Puerto Rico, and empowering 
the VI government control over its local tax structure.
    I believe that my upbringing, career experiences and genuine 
commitment to the insular areas afford me the requisite credentials to 
serve as Assistant Secretary. To the table, I bring a forward-thinking 
approach, cognizant of the often practical, cultural, social, and 
economic challenges our insular areas and their leaders face. In 
addition, I have earned respect among colleagues I have worked with on 
the Hill and with island leaders throughout the Pacific and the 
Caribbean. I believe all are aware I am collaborative, firm, 
thoughtful, and realistic in my approach to issues. If confirmed, my 
vision is one that will be hands-on, one where priorities will be 
established early and our ability to confront multi-dimensional 
challenges is enhanced and cultivated daily.
    If confirmed as Assistant Secretary, my commitment is to work 
toward improving the quality of life in the insular areas by providing 
the necessary leadership and insisting on measurable results. I believe 
in forging a new beginning for the islands. I believe that if we intend 
to move forward, we must reject the one-size-fits-all approach. I 
believe we must embrace an approach that contains real measures for 
policy success.
    For more than a century under the American flag, the U.S. insular 
areas have grappled with issues from working to protect their 
indigenous cultures and languages, to tackling federal policies that 
impact and oftentimes hinder their economic, social and political 
development. Coupled with this unique relationship between the United 
States and her territories lies an endemic duty to ensure and 
effectuate federal policies that are mindful, foremost, of insular 
needs and the challenges that encumber such developments.
    Throughout our country's periods of peace and war, U.S. 
territories, along with our relationships with other affiliated Pacific 
Islands, have been integral to both the security and growth of our 
democracy. We have a responsibility to foster sustainable development; 
providing a path for energy independence, improving infrastructure, 
responding to economic challenges, and promoting self government.
    I am confident that with the right leadership in place at the 
Department of the Interior, our commitment to cooperation and genuine 
concern for the islands and the peoples' welfare will be fortified. The 
tasks before us are certainly vast but never impossible. If we come 
together, solidify our commitment and maximize our effectiveness, we 
will and can move forward to improve life on our islands. If confirmed, 
I look forward to working with this Committee to address these 
challenges.

    Senator Udall. Thank you, Mr. Babauta.
    Mr. Jarvis.

STATEMENT OF JONATHAN B. JARVIS, NOMINEE TO BE DIRECTOR OF THE 
                     NATIONAL PARK SERVICE

    Mr. Jarvis. Thank you. Good morning. I am accompanied this 
morning by my wife Paula, who has moved nine times in the 
national parks and raised our kids in the national park system, 
and my brother Destry.
    Thank you, Mr. Chairman, Senator Murkowski, members of the 
committee. I am truly honored that President Obama and 
Secretary Salazar have demonstrated their confidence in me by 
nominating me to lead the National Park Service. If confirmed, 
I pledge to you to work closely with the Secretary, Members of 
Congress, our many partners, and with the public in particular 
in the stewardship and enjoyment of our national parks.
    My father was in the Civilian Conservation Corps during the 
Depression and connected deeply with the forests and streams of 
this Nation, and he instilled that passion in me and my 
brother. We were raised in the Shenandoah Valley backed up 
against national forest land, where we hunted, fished, and 
roamed.
    I graduated from college in 1975 with a degree in biology 
and immediately took a trip across this country, camping in 
many of our national parks. In 1976 I was hired to staff the 
Bicentennial Information Center here in Washington, helping 
millions who came to celebrate their Nation's birthday. I spent 
the following winter with President Jefferson in his memorial, 
where I absorbed excerpts on the wall from the Declaration of 
Independence: ``We hold these truths to be self-evident: that 
all men are created equal; that they are endowed by their 
creator with certain inalienable rights. Among these are life, 
liberty, and the pursuit of happiness.''
    From then until now, the moment that I sit before this 
committee, I have devoted a career to the national park system, 
which I believe embodies these principles.
    The cultural parks of our country are places where civic 
engagements have shaped who we are as a people, Selma to 
Montgomery, Brown versus Board of Education, Manzanar, the 
Statue of Liberty, Flight 93. These are parks where we learn 
not only of the people who left their marks on our future, but 
through this intimate contact we learn how to take the next 
generation to a higher and better place.
    The natural parks of this country, in addition to their 
intrinsic beauty, stand as testimony to this Nation's 
willingness to impose self-restraint. For example, President 
Abraham Lincoln set aside Yosemite during our Civil War.
    The national park system is a collective expression of who 
we are as a people. They're an aggregate of what we Americans 
value most about ourselves. They deliver messages to future 
generations about the foundation experiences that have made 
America a symbol for the rest of the world. Of course, our 
great parks are places we pursue happiness as a respite from a 
fast-paced world.
    In my first 26 years with the national park system, I was 
an interpretive ranger, a protection ranger, a biologist, and a 
superintendent in 7 parks in 7 States. For the last 7 years, I 
have served as the regional director for 58 units of the 
national park system in Washington, Oregon, Idaho, California, 
Nevada, Hawaii, Guam, Saipan, and American Samoa. If confirmed, 
I will be the first director to have served in bush Alaska.
    In each place, I have always worked hard to become a 
contributing member of the community and encouraged my staff to 
do the same. As regional director, I set high standards for the 
parks to achieve environmental and financial sustainability. We 
instituted programs to connect urban youth of Los Angeles to 
the parks. We learned that we can attract the public to parks 
for their health benefits. We facilitated good science and 
began to interpret the changes we could link to climate change. 
We worked with gateway communities so that they could achieve 
both preservation and economic goals.
    Throughout my lifelong connection to national parks, a 
constant source of inspiration has been the extraordinary 
employees of the National Park Service as well. They've formed 
my second family among the many paths of my career. I am proud 
to be one of them.
    Wallace Stegner said: ``National parks are the best idea we 
ever had. Absolutely American, absolutely democratic, they 
reflect us at our best rather than our worst.'' Never in its 
200 years has this Nation needed the national park system more. 
It stands as a collective memory of where we have been, what 
sacrifices we have made to get here, and who we mean to be. By 
investing in the preservation, interpretation, restoration of 
these symbolic places, we offer hope and optimism to each 
generation of Americans.
    If confirmed, my pledge to you and to the American people 
is that I will bring all my energies to be the very best 
steward of America's best places and America's best idea. Thank 
you.
    [The prepared statement of Mr. Jarvis follows:]
Prepared Statement of Jonathan B. Jarvis, Nominee to be Director of the 
                         National Park Service
    Thank you, Mr. Chairman, Senator Murkowski, and Members of this 
Committee. I am truly honored that President Obama and Secretary 
Salazar have demonstrated their confidence in me by nominating me to 
lead the National Park Service (NPS). If confirmed, I pledge to work 
closely with the Secretary, with Members of Congress, with our many 
partners, and with the public, in the stewardship and enjoyment of our 
national parks.
    My father was in the Civilian Conservation Corps during the 
depression and he, like so many other young men of the time, connected 
deeply with the forests and streams of this great nation and instilled 
that passion in me and my brother as kids. We were raised in the 
Shenandoah Valley of Virginia, backed up against national forest land 
where we hunted, fished and roamed. I knew from that time I wanted to 
pursue a career related to the protection and enjoyment of the 
outdoors. I graduated from the College of William and Mary in 1975 with 
a degree in Biology and immediately took a road trip across the 
country, camping in many of our great national parks, like Yellowstone, 
Glacier, and Olympic. From that trip forward, I was hooked on the 
National parks.
    In 1976, I was hired by the NPS to staff the Bicentennial 
Information Center here in Washington, helping to host the millions who 
came to celebrate their nation's birthday. I spent the following winter 
with President Jefferson in his Memorial. Often alone there for hours, 
with the wind howling across the Tidal Basin, I absorbed his writings 
inscribed on the wall including excerpts from the Declaration of 
Independence:
    We hold these truths to be self-evident that all men are created 
equal, that they are endowed by their Creator with certain unalienable 
Rights, that among these are Life, Liberty, and the pursuit of 
Happiness,
    From that time to this moment that I sit before this Committee, I 
have devoted a career to the National Park System which I believe 
embodies these principles:
    The cultural parks of our country are the places where civic 
engagements, often confrontational, occasionally bloody, have shaped 
who we are as a people: Selma to Montgomery, Brown versus Board of 
Education, Manzanar Japanese Internment Camp, the Statue of Liberty, 
and Flight 93. These are parks where we learn not only of the people 
who left their marks on our future, but through this intimate contact, 
we learn how to take the next generation to a higher and better place.
    The natural parks of our country, in addition to their intrinsic 
beauty, stand as testimony to this nation's willingness to impose self 
restraint. For example, President Abraham Lincoln set aside Yosemite 
during our civil war because perhaps he knew our country would need 
such places for healing.
    The 391 units of the National Park System are a collective 
expression of who we are as a people, where our values were forged in 
the hottest fires. They are an aggregate of what we Americans value 
most about ourselves. They also deliver messages to future generations 
about the foundation experiences that have made America a symbol for 
the rest of the world. And of course our great parks are places we 
pursue happiness, as a respite from a fast paced and congested world. 
In my thirty-three years with the NPS, I have met thousands of visitors 
on the trail. They smile, they offer greetings, and most are not 
looking at their Blackberries.
    I have served as a field park ranger in the most classic sense: 
delivering interpretive talks, working the information desk, conducting 
search and rescues, riding horse patrol, and ski patrol. I have fought 
fires, trapped bears, forded glacial rivers, rappelled off cliffs, made 
arrests, and helped thousands of visitors have a great experience in 
their parks. In my first 26 years of service in the NPS, I was an 
interpretive ranger, a protection ranger, a biologist and 
Superintendent in seven parks in seven states. For the last seven, I 
have served as the Regional Director for 54 national park units in 
Washington, Oregon, Idaho, California, Nevada, Hawaii, and the Pacific 
Islands of Guam, Saipan and American Samoa. My wife and I have moved 
nine times and lived in rural west Texas, the Snake River Plain of 
Idaho and if confirmed, I will be the first Director to have ever 
served in bush Alaska. In each place, I have always worked hard to 
become a contributing member of the local community and have encouraged 
my staff to do the same. Gateway communities and parks have an 
important relationship that needs to be grown through mutual respect 
and cooperation, particularly when tourism is an essential part of the 
economy.
    I do not need to tell you of the challenges before us: the economy, 
climate change, connecting urban kids to nature, the concerns over 
obesity, and a concern about a loss of cultural literacy. I believe 
that the National Park Service has a role and a responsibility in each 
of these. As Regional Director in the Pacific West, I set high 
standards for the parks to achieve environmental and financial 
sustainability. We instituted programs to reach out and connect to the 
urban youth of the Los Angeles basin and the central valley of 
California. We studied and learned that we can attract the public to 
the parks for their health benefits and have pioneered cooperative 
efforts with partners in the health and fitness community. We 
facilitated good science and began to interpret the changes we could 
link to climate change. And we worked through our community assistance 
programs to help gateway communities to achieve both preservation and 
economic goals. In each case, the extraordinary employees of the 
National Park System responded to these goals with energy and 
enthusiasm.
    Throughout my life long connection to national parks, a constant 
source of inspiration has always been the extraordinary employees of 
the National Park Service. They formed my second family along many 
paths of my career. It is with all of them in mind that I find the 
personal confidence to take on the daunting task of leading the agency 
in these very challenging and complex times. The employees of the 
National Park Service do great work every day across the nation, 
whether preserving places, cultures, flora, fauna and vast natural 
ecosystems or giving flight to the imaginations of millions of park 
visitors exploring a given park. At times the men and women of the 
National Park Service are asked to do difficult, dangerous and nearly 
impossible work. I am proud to be one of them.
    Wallace Stegner said: National parks are the best idea we ever had. 
Absolutely American, absolutely democratic, they reflect us at our best 
rather than our worst.''
    Never in its 200 years has this nation needed the National Park 
System more. It stands as a collective memory of where we have been, 
what sacrifices we have made to get here and who we mean to be. By 
investing in the preservation, interpretation and restoration of these 
symbolic places, we offer hope and optimism to the each generation of 
Americans. If confirmed, my pledge to you and to the American people is 
that I will bring all my energies to be the very best steward of 
America's best places and America's best idea. Thank you.

    Senator Udall. Thank you, Mr. Jarvis.
    Thanks to the panel for your substantive and informative 
testimony.
    Let me turn immediately to Senator Shaheen. I know she has 
a conflict, and then I'll turn to Senator Murkowski for 
questions and comments.
    Senator Shaheen.
    Senator Shaheen. Thank you very much, Mr. Chairman. Thank 
you to you and the ranking member for giving me this 
opportunity to go first.
    I want to congratulate all of our nominees this morning. 
But I really asked if I could have the opportunity to speak 
because I'm very concerned about an issue affecting the 
National Park Service, and it's important enough for me to 
request the opportunity to raise it directly with you, Mr. 
Jarvis. My guess is you probably have a suspicion about what 
I'm going to ask.
    I'm very concerned about the right-sizing implementation 
plan that came out in the fall of 2008 because of its impact on 
the New England Region. The plan would reduce the Boston 
office, actually close the Boston office. It would eliminate 40 
percent of the positions in the New England Region for the 
rivers, trails, and conservation assistance program and would 
downsize the staff from 107 to 45, this at the same time that 
we passed an American Recovery and Reinvestment Act which has 
allocated over $100 million to National Park Service programs 
managed by the New England Region in this fiscal year 2009, and 
a recently passed Parks Omnibus Bill which authorizes two new 
national trails, a new national wild and scenic river, a new 
wild and scenic river study, a new heritage area in 
Massachusetts and New Hampshire, and several new park studies 
and boundary adjustments, which are all proposed at this time 
to be done by that staff in Boston.
    While New Hampshire has only one small national park, we 
rely heavily on the New England Region's rivers, trails, and 
conservation efforts and we benefit tremendously, as does all 
of the New England Region, from the efforts that are done out 
of that Northeast office.
    So I would like to know, Mr. Jarvis, what your perspective 
is on this issue and whether you're thinking about looking at 
the recommendation that came out in 2008 and would be open to 
reconsidering that recommendation.
    Mr. Jarvis. Thank you, Senator. In the implementation of 
all of these either new areas or our investment from the 
Recovery Act, we are sort of maxed out in terms of our capacity 
to provide delivery on all of these new responsibilities. 
Having said that, at the same time we are always looking for 
opportunities to become more efficient in the way our 
operations and our facilities, or opportunities to share 
resources or combine facilities.
    I am, let's say, a little bit familiar of what has gone on 
in the Northeast Region. As an analogy to that system, we took 
a look in the Pacific West, where we have offices in Seattle, 
in Oakland, and in Honolulu, and did a review and determined 
that all three offices were viable and needed because of the 
inherent differences of these geographic areas. We did find 
some efficiencies.
    So really my commitment to you is to take a very close look 
at what is being proposed in the Northeast Region and work with 
your office to find a solution.
    Senator Shaheen. Thank you very much. I appreciate that. I 
think you will find that we in the Northeast have also very 
different challenges than much of the rest of the country. So I 
appreciate that commitment. Thank you.
    Thank you, Mr. Chairman and Ranking Member Murkowski.
    Senator Udall. Thank you, Senator Shaheen.
    Let me turn to the ranking member, Senator Murkowski.
    Senator Murkowski. Thank you, Mr. Chairman.
    Gentlemen, I appreciate your willingness to serve, 
appreciate your statements here today.
    Mr. Jarvis, let me start with you. This relates to 
legislation that Congress recently passed relating to 
exercising Second Amendment rights within our national parks. 
There are some comments, perhaps coming from inside the 
Department and National Park Service, that seem to reflect some 
apprehension, some reluctance perhaps to enforce this law. So 
if confirmed, what will you do to ensure that gun owners feel 
welcome within the national parks and how will you be working 
with the park rangers to make sure that there's adequate 
training to handle some of these changes coming up?
    Mr. Jarvis. As you know, the law has a delayed 
implementation to February 2010. Frankly, that gives us an 
opportunity to train our rangers in the field, all of our 
employees, so that they are ready and prepared and open to the 
implementation of this new law in February.
    The last thing we want is to create confusion amongst the 
public and the users who are bringing their weapons to the 
parks. So in part is to make sure that every one of our rangers 
understands the application of State law in each case, that any 
facilities in our parks where weapons might be prohibited, such 
as government buildings where there are employees working, we 
make sure that they are consistently signed, that public 
information is provided as well.
    So in this interim period, it's actually good for us and we 
are getting the policies in place, the signing and training so 
all of our parks are ready.
    Senator Murkowski. I appreciate that, and I certainly do 
encourage that level of awareness, education, and training to 
follow through with the law that the Congress has passed.
    Dr. Miller, let me ask you. You mentioned the blue ribbon 
commission that we anticipate. Earlier this summer, I had sent 
to Secretary Chu a letter that outlined my concerns and 
actually my disappointment over the administration's position 
on Yucca Mountain. I also urged the Secretary to ensure that 
any blue ribbon commission maintains a level of independence 
and certainly has the expertise that will be necessary to 
inspire confidence in their policy recommendations.
    Can you very briefly inform me as to what level of 
engagement you might anticipate having with the blue ribbon 
commission if you are confirmed, and if it is formed, and have 
you had any conversations with Secretary Chu about the 
composition of this commission?
    Mr. Miller. Thank you. Thank you very much, Senator. First 
let me say that the blue ribbon commission I know is very high 
on Secretary Chu's agenda and priority list. I personally have 
not discussed the details of either the charter nor the 
membership with Secretary Chu, but I just know from the few 
things I've learned that independence and expertise are 
critical and I think he believes the same thing, the same way 
you believe on that.
    As far as if I'm confirmed in these two positions my 
interface with the blue ribbon commission, I first hope upon 
confirmation I'll delve right into the details of its formation 
and standing it up. But after it is, after it's in place, it's 
my understanding that it will have a staff, but I know that 
staff will need a lot of technical backup. They'll ask lots of 
questions. I would expect that our staff, Federal staff as well 
as our laboratories, will be supportive of that blue ribbon 
commission.
    Senator Murkowski. Thank you. I appreciate that.
    Mr. Babauta, one of the more pressing issues that are 
facing the territory is the economic impact that the extension 
of the United States immigration and minimum wage laws has had 
on the Northern Marianas and American Samoa. I see a Delegate 
here behind you. While these issues fall outside of Department 
of Interior's jurisdiction, the Department does have the 
responsibility for coordinating the overall Federal policy when 
it comes to the island.
    With the reestablishment of this position as Assistant 
Secretary for Insular Affairs, which I think is a very good 
thing, a good direction, what steps do you intend to take to 
ensure that issues of importance to the islands, such as these 
relating to immigration, to minimum wage will get the attention 
of the White House on these matters, which are very important?
    Mr. Babauta. Thank you very much, Senator Murkowski. Just 
let me take a moment to not only thank you for your interest in 
these issues, but also that of your father, who was a real 
leader on issues that involved the insular areas.
    With respect to the Federal immigration laws that will be 
applied to the Northern Marianas and also the minimum wage 
laws, U.S. minimum wage laws that are being applied to both 
American Samoa and the CNMI, if confirmed as Assistant 
Secretary, I think the very fact that you do have an Assistant 
Secretary at the Department of the Interior that is able to 
engage with other Federal agencies at a high level to help and 
collaborate the implementation of immigration laws in the CNMI 
is an important factor.
    The passage of the legislation was not intended to harm in 
any way the economic growth of the Northern Marianas. It was 
actually anticipated that the consistency of immigration law in 
the Northern Marianas would be a greater factor in the economic 
growth of the area.
    I also feel that with the work of the inter-agency group on 
insular affairs or insular areas, which was first created by 
President Clinton and continued under President Bush, but under 
President Bush without the involvement of the White House, the 
direct involvement of the White House, we are continuing to 
work with them to change the executive order, which is 
currently under consideration, to have a more active role by 
the White House in our governmental affairs, as it was 
originally crafted by President Clinton.
    Senator Murkowski. Thank you.
    Mr. Chairman, my time has expired. I do have many more 
questions, including a very important one for Dr. Markowsky on 
funding for the Arctic Energy Office. I have a meeting at 11, 
so I'm going to have to submit my questions for the record and 
will look forward to the responses from each of you.
    But thank you for your participation here in the hearing 
this morning.
    Senator Udall. Thank you, Senator Murkowski.
    Senator Bennett.
    Senator Bennett. Thank you very much, Mr. Chairman.
    Mr. Jarvis, I too have a meeting at 11:00, so I will be 
quick. But I want to get these questions into the record. I 
appreciate your willingness to enter public service. As you 
perhaps have learned from your own experience with your father 
as you've described it, the pay isn't always good and the hours 
are long, but we appreciate your willingness to do this.
    Now, we've seen an increasing role of the Park Service in 
matters that fall outside of Park Service boundaries and Park 
Service legal authority. Specifically, we've just seen in Utah 
within the past few months the cancellation of oil and gas 
leases on BLM land by the Secretary, and one of the reasons he 
cited was lack of consultation with the Park Service.
    Now, we have learned subsequently with the review done by 
David Hayes that there was in fact consultation with the Park 
Service. But we've also learned by virtue of focusing on this 
issue that consultation with the Park Service is in fact not 
required by law. The precedent that has been set could mean 
that the Park Service has veto power over what is done on lands 
outside the parks, particularly with respect to energy 
development, and that's very troubling to me.
    So I raise this with you and would like to get your views 
on the Park Service's role and responsibility with respect to 
matters that are outside of park boundaries. Of course, this 
comes to the issue of buffer zones. Creating buffer zones is a 
de facto way of enlarging national parks.
    The ability to enlarge national parks under the law lies 
with the Congress. But if they are saying, well, we need to 
protect the park with a buffer zone, and then somebody says we 
need to protect the buffer zone with a buffer zone, you see 
where this is going and it's a creeping power grab. You are 
going to be in the center of this controversy and I think you 
ought to have an opportunity on the record prior to your 
confirmation to talk about it. So I'm giving you that 
opportunity, whether you want it or not.
    Mr. Jarvis. I take it gladly, Senator. Thank you.
    In my 33 years of experience working in national parks 
across the country in bush Alaska, in the arid West of Idaho, 
and more recently with parks in Nevada and Oregon and other 
places, I'm not a believer in buffer zones. Put that on the 
record. But I am a believer of engagement with communities and 
land managers around us, and I have done that actively through 
my career.
    We are inextricably linked in national park units to what 
goes on around us. We have no veto power over it, nor would I 
seek that. But I do believe that there is a relationship that 
must be built over time, a trust relationship between the 
values that are held within units of the national park system 
and the responsibilities and values of our adjacent land 
managers. There must be developed a mutual respect.
    Over the years my approach has always been to get to know 
my neighbor long before I needed to, to sit down with the 
rancher and drink coffee and tell stories before, and in many 
cases long before, any type of conflict would ever come up. The 
same with my adjacent land managers, whether they be BLM, the 
U.S. Forest Service, the U.S. Fish and Wildlife Service, State 
lands, private lands, any of those.
    Because we bring great things to the table in many cases. 
We can help with the economy. We can help protect migratory 
species and all of those. I hope, if confirmed as Director, I 
bring this to my role as Director of the National Park Service 
to do the same with all of my neighbors in the other land 
management agencies, really to prevent in many ways the kind of 
open conflict that has been created so many times between 
conflicting ideas about how these lands should be managed.
    Senator Bennett. Thank you. Obviously, that is a thoughtful 
and appropriate response, and I hope you can prevail within the 
boundaries of the Interior Department to see to it that 
communication, yes; coordination, yes; but veto power and 
creeping de facto boundaries, no. Is that a correct summary of 
what I heard you say?
    Mr. Jarvis. That is a correct summary, Senator.
    Senator Bennett. Thank you very much. I appreciate that.
    Thank you, Mr. Chairman.
    Senator Udall. Thank you, Senator Bennett.
    Senator Barrasso.
    Senator Barrasso. Thank you, Mr. Chairman.
    Let me congratulate all of you, as well as your families. 
Thank you for your willingness to serve.
    Mr. Jarvis, I had a couple of questions. I wanted to thank 
you for coming to my office last week to visit. I have some 
concerns right now about what's going on in the National Park 
Service. I'm concerned that this administration is promoting an 
ideological agenda for the parks, one that will result in 
reduced public access and increasing maintenance backlogs.
    You are aware now that the Department of Interior decided 
just last week, after our meeting they decided, just last week 
to put a new lower limit on the number of snowmobiles allowed 
into Yellowstone National Park. The people of Wyoming are not 
happy at all about this decision by the administration because 
we view year-round access to our crown jewels, the crown jewels 
of our State and of the country, as critical.
    There was an editorial in Monday's Casper Star Tribune 
that, Mr. Chairman, I'd like to introduce as part of the 
record.*
---------------------------------------------------------------------------
    * Document has been retained in committee files.
---------------------------------------------------------------------------
    Senator Udall. Without objection.
    Senator Barrasso. It said: ``It isn't for lack of demand 
that fewer snowmobiles are entering Yellowstone National 
Park.'' I won't read the whole thing, just some excerpts. 
``Inconsistent Federal policies, endless litigation, 
conflicting court rulings are primarily to blame for the 
decline of recreationists.'' ``On Thursday,'' it says, ``the 
Interior Department announced a new limit of 318 snowmobiles 
for the next two winters. The new limit was even below the 
National Park Service's 2007 proposal of 540.'' It goes on that 
``It's important to note that part of the Park Service's 
mission is to make sure that people have access to Yellowstone 
throughout the year. At one time as many as 1400 snowmobiles 
were allowed. There were complaints, though, about air and 
noise pollution, but new technology has made the machines 
cleaner to operate, while the proposed limit and the number of 
actual snowmobiles has been shrinking.''
    In your opening statement you talked about the national 
parks, both the cultural parks and the natural parks, and you 
said in the natural parks we want to pursue happiness and work 
with gateway communities, you said, to achieve economic goals. 
But the editorial goes on, it says: ``Yellowstone gateway 
communities suffer the business consequences as potential 
visitors cancel their reservations and go elsewhere, hurting 
hotels and businesses that rent snowmobiles. No one can 
effectively plan for a season when proposals keep changing and 
court rulings are in conflict.''
    So I'll make sure you get a copy of the entire editorial.
    So I just have concerns about what I view as an ideological 
approach by the administration, which to me is ignoring the law 
that created the park and promotes an ideologic agenda.
    So I go to the law that was written in 1872, before the 
Park Service even began in 1916, but the law in 1872 when 
Yellowstone National Park was created, and the law says--and it 
is right here in this beautiful book that came out last year, 
actually in 2007, ``The Future of America's National Parks.'' 
It goes through a time line of the national parks. It starts 
1872, ``Yellowstone is created when Congress sets aside 2.2 
million acres of wilderness to be forever 'a public park or 
pleasuring ground for the benefit and enjoyment of the 
people.''' ``For the benefit and enjoyment of the people.'' 
That is the highlight of this book, ``The Future of our 
National Parks.''
    So the question now when I look at what the administration 
is doing is, do you support the 1872 statute creating our first 
national park as for the benefit and enjoyment of the people?
    Mr. Jarvis. Thank you, Senator. The simple answer is 
absolutely yes. Throughout, again, my career, if I needed my 
batteries recharged I would go out into the national parks and 
talk to the public, in some cases just watch the public, see 
families enjoying themselves, see visitors from around the 
world, just being there and experiencing these places.
    It has always been part of my mission to deliver these 
extraordinary experiences in these extraordinary places to all 
Americans. As a matter of fact, one of my top goals as Director 
if confirmed will be to--is relevancy, is to connect all 
Americans to their national parks through the variety of ways, 
through partners and gateway communities and the like.
    So absolutely I am committed, and there is no ideology here 
other than the national parks are one of the greatest ideas we 
have and that they are to be shared with all the people.
    Senator Barrasso. So to get the batteries recharged, as you 
said, you go out into the parks. To me that means you actually 
have to have access to the parks. What the administration has 
done this past week and what they have published to me is going 
to cut significantly public access to the parks, to Yellowstone 
Park, for snowmobilers in the winter. That is a place where 
people go to visit, enjoy the grandeur, come to our State and 
to the various communities, and then into the park.
    But this is actually going to reject the opportunity for 
people to go and do the sorts of things that you say are so 
important to you.
    Mr. Jarvis. Senator, maybe fortunately, because of my 
career I've never had any responsibilities for Yellowstone. But 
now, if confirmed, I inherit this issue. Clearly, and as 
articulated in that editorial, the community has been whipsawn 
by competing court decisions and uncertainty in the communities 
and in the businesses in the park about the future, whether, 
how many, and where, and all of those kinds of things 
associated with access.
    One of my goals as Director if confirmed will be to work 
very closely with all of the stakeholders on this issue, 
particularly the gateway communities, in achieving what I 
characterize as a sustainable decision, something that can 
withstand the court challenges, provide assurances to the 
future about access to Yellowstone in the winter.
    Senator Barrasso. Mr. Chairman, my time has expired, but 
I'll stay around for a second line of additional questioning.
    Senator Udall. Thank you, Senator Barrasso.
    Before I recognize Senator Wyden, I wanted to also for the 
record acknowledge that the first Delegate from the CNMI was 
here, Delegate Sablon. I know, Mr. Babauta, you had a role in 
crafting that legislation and that's a success story we should 
all be proud of. The CNMI now have representation here in the 
U.S. Congress.
    I know, Dr. Miller, you mentioned your connection to New 
Mexico. I'm a proud Coloradan, so I also wanted to acknowledge 
that Assistant Secretary and Chief of Staff for Interior Tom 
Strickland has joined us, as well as the Deputy Assistant 
Secretary Will Shafroth. I know there are a lot of other 
hardworking executive branch representatives here, but I want 
to acknowledge these two special and hardworking Coloradans for 
taking the time to join us.
    Senator Wyden.
    Senator Wyden. Thank you, Mr. Chairman, and thank you for 
all your advocacy for our parks.
    Mr. Jarvis, as we talked yesterday, I want to make clear 
that the people of my State, Oregonians, believe that there is 
no place anywhere like Crater Lake. The quiet, the silence, is 
treasured by the people of our State. Suffice it to say 
Oregonians are just up in arms about the prospect now of an 
application from a Bend company to fly helicopter tours over 
Crater Lake National Park.
    We're not just talking about a handful. We're talking about 
hundreds and hundreds of them a year. Now, to give you an idea 
of how strongly folks in my home State feel about this, 
Oregonians chose Crater Lake to put on the Oregon quarter for 
all the country to see because we have worked so hard to 
protect the wonder of this natural experience.
    I just want you to know that Oregonians are not going to 
allow our State's identity to be so thoroughly diminished for 
so little potential gain. I in particular wanted to come this 
morning to make sure that you understood the importance of 
Crater Lake to Oregonians and to get your views on the record. 
So as we talked yesterday, and I indicated to you yesterday 
that I'd be asking you this question, what is your position 
this morning on the issue of helicopter flights over Crater 
Lake?
    Mr. Jarvis. Thank you, Senator.
    As you know and as we talked yesterday, I served as the 
park biologist at Crater Lake National Park. Both of my kids 
were born when we lived there. The first winter that we spent 
there, we had 22 feet of snow on the ground at our house. 
Crater Lake is a special place.
    We also during that period were doing research associated 
with the sound at Crater Lake National Park and determined that 
it was soundbooth quality in terms of the quiet at Crater Lake, 
which is part of that extraordinary experience that visitors 
have when they come and see this, this world-class 2,000-foot 
deep lake.
    The current air tour management planning program allows for 
an operator, an air tour operator, to make application to begin 
air tours over a national park unit. The two responsible 
agencies for making the final determination are the FAA and the 
National Park Service. The FAA has legislative responsibilities 
for air safety and the National Park Service has legislative 
responsibilities for a determination of impacts. So that would 
fall to me.
    I have staff and a team that would look at this very 
closely. I believe that we would make a determination--I can't 
predict the final outcome on this, but I do believe that it 
would be our responsibilities to assure that the visitor 
experience and that ultimate quiet that you find at Crater Lake 
is preserved.
    Senator Wyden. That's sort of a recitation of current law. 
Now, if you're going to say you want to maintain the visitor 
experience, you'll tell me this morning something that 
addresses your at least orientation to the idea of helicopter 
overflights. One of the other reasons I'm so concerned about 
these overflights is the track record of these in other places, 
like the Grand Canyon, has not been a particularly good one.
    So what else can you offer up to me this morning other than 
a recitation of the current law? Because I'm very up on the 
current law. I'm up on what the Park Service role is. I'm up on 
what the role of the Federal Aviation Administration is. But 
when I'm about to vote for somebody to be confirmed at the Park 
Service, the people that I represent in Oregon, they want to 
know something more than your position on current law.
    So what else can I do to assure them that my vote for 
somebody as the head of the Park Service is going to be a vote 
to make sure that an icon of our State, one of our State's 
treasures, is going to be protected.
    Mr. Jarvis. Senator, Crater Lake National Park has a 
special place in my experience and my memories. Because there 
is a legal process to get to the outcome, the determination, of 
to allow an interim operator to fly flights, I cannot make you 
an absolute commitment, as to what the outcome of that is, 
because it's a public process.
    But I can make you this commitment: that the resources of 
Crater Lake National Park that are dear to Oregonians as well 
as the American public, and one of those key resources in my 
mind is that extraordinary experience of standing on the rim 
looking down at that lake unobstructed in the dead of quiet, 
the only sound you hear is the rustle in the pines and the 
mountain hemlocks and the Clark's nutcrackers, will be 
preserved.
    Senator Wyden. You're making some headway.
    [Laughter.]
    Senator Wyden. Look, I understand there is a legal process. 
We just want you to be a guardian of Oregon's fragile beauty. 
Can I put you down as a guardian?
    Mr. Jarvis. I am a guardian.
    Senator Wyden. Very good.
    One last question if I might, Mr. Chairman. I'm over my 
time. Is that acceptable?
    Senator Udall. Yes.
    Senator Wyden. We had a hearing last week, Mr. Jarvis, on 
S. 1270, my legislation to expand the Oregon Caves National 
Monument. This has been an area where there's been longstanding 
Park Service support. It goes back to the 1930s. In fact, the 
original land withdrawn for the monument in 1907 envisioned a 
larger monument than we have now.
    At the hearing that we had last week, the Park Service 
wasn't able to endorse my legislation even though it's 
consistent with the agency's own general management plan for 
the Oregon Caves monument. The management plan recommends an 
expanded boundary and the agency affirmed at the hearing that 
it's still valid and still the agency's position.
    So what we're trying to do is figure out what to do about 
the agency's inconsistent position. We've got a piece of 
legislation that's in line with where the agency has been and 
yet last week as we went through various ways to try to get the 
agency on record, it seemed to me that the agency wasn't 
supporting or working to advance its own management plan on the 
protection of another Oregon resource.
    So we want to get this worked out. What can you tell us 
this morning in terms of working with me to protect the Oregon 
caves from the threats that your own agency has documented?
    Mr. Jarvis. Thank you, Senator. This is an issue with which 
I am intimately familiar. As you know, Oregon Caves is one of 
the parks in the Pacific West Region. I've been involved in the 
last 7 years in working locally with the United States Forest 
Service in developing the general management plan, which called 
for the protection of the watershed for Oregon caves.
    As you know, sometimes, even though you've worked out all 
the details at the local level, when it comes back here there 
are new challenges presented. I think the key challenge is to 
work that I need to do as Director if confirmed, is to walk 
across the street to the United States Forest Service and sit 
down and talk about these issues at the most senior level, 
about where it makes sense to have lands exchanged or 
transferred, that make just better sense in terms of visitor 
experience or resource protection.
    That's my commitment to you, that we are going to be on top 
of this.
    Senator Wyden. I thank my colleagues for the extra time. Do 
walk across the street. Do it in a hurry, because we have been 
waiting and waiting. Again, the legislation I have is in line 
with your own management plan. We look forward to working with 
you in the days ahead.
    Thank you, Mr. Chairman.
    Senator Udall. Thank you, Senator Wyden.
    Senator Barrasso. Thank you very much, Mr. Chairman.
    Mr. Jarvis, to just kind of continue on the discussion 
about snowmobiles in Yellowstone. When we had a chance to visit 
last week, were you aware that this announcement was 
forthcoming?
    Mr. Jarvis. I sat in on one of the briefings when they were 
talking about it, but obviously at that point I had no role in 
it.
    Senator Barrasso. Did they solicit your input into it?
    Mr. Jarvis. No, they did not.
    Senator Barrasso. Did it seem odd that you were going to be 
the head of the National Park Service and they wouldn't solicit 
your input into something as important to the Nation?
    Mr. Jarvis. It seemed odd they were going to release it 
just prior to my hearing.
    [Laughter.]
    Senator Barrasso. Yes, sir, you got to believe it. Paula's 
moved nine times. I feel sorry for her. But you've been with 
the National Park Service 33 years. You have no doubt conferred 
with your colleagues about park issues across the country. Have 
you ever commented on efforts to limit snowmobiles in 
Yellowstone National Park to your colleagues or anyone else?
    Mr. Jarvis. No, not really, not in any type of official 
capacity. I've had very little involvement in my career with 
Yellowstone.
    But let me just say that I have had plenty of involvement 
with snow machines. I've worked in winter parks most of my 
career and have used snow machines as a means of access in 
Alaska and in Washington State and Idaho and other places.
    Senator Barrasso. So what's your position on the issue? 
Yellowstone Park, number of snowmobiles, the access, the 
communities, the economics, the love of the outdoors, the 
desire to be there?
    Mr. Jarvis. I think that, first of all, my impression of 
the current situation is that we have made significant 
improvements in the quality of the experience. The snow machine 
industry has responded I think very effectively with machines 
that are much quieter and much cleaner. I believe that the 
guiding operations have significantly reduced, if not 
eliminated, effects on wildlife. I believe that the public's 
experience both in the snow coaches and on snow machines is at 
a very high level. I understand we're getting very, very high 
satisfaction measures from the public.
    But as I mentioned, we have a volatile situation, 
particularly between the two dueling courts, that results in an 
unsure future. I think that's something that you certainly have 
my commitment to work with you and other members that are very, 
very concerned about this to find a solution that provides 
great experiences in winter access to Yellowstone.
    Senator Barrasso. Because the New York Times had an 
editorial last weekend that said there shouldn't be any winter 
access by snow machines in Yellowstone Park, period. So you 
support snowmobile access to Grand Teton and Yellowstone 
National Parks; is that what I hear you say?
    Mr. Jarvis. At this point I cannot commit one way or the 
other. I don't know the details of this. But I do commit to 
winter use and winter access and a sustainable decision, one 
that can provide continuity and planning for the gateway 
communities and for the park itself.
    Senator Barrasso. Planning, if you say no, there's no 
snowmobiles, that's an absolute answer, but that's not the one 
that anybody in Wyoming is looking for. So you said that you're 
committed to winter access. I want to know that you're 
committed to winter access for snow machines in Yellowstone 
National Park.
    Mr. Jarvis. We have, as I say, we have litigation in this 
case, two dueling courts. We have to do an interim rule. 
Hopefully we can kick in immediately to do the environmental 
impact statement for the final rule, which will analyze with 
the best available science, the working group that is out 
there, all of the stakeholders, on a range of alternatives.
    But at this point it would be incorrect for me to make a 
commitment to one or the other. We have to go through the 
process. I think that's the key.
    Senator Barrasso. On November 17 of this past year the 
National Park Service released a statement about winter use in 
Yellowstone, and this is the quote: ``Monitoring data from the 
past four winters shows excellent air quality, few wildlife 
disturbances, and reduced sound impacts''--the things that you 
just mentioned. ``All were at fully acceptable levels''--air 
quality, wildlife, sound, all at fully acceptable levels--``and 
below the levels recorded during the historic unregulated use 
of the parks,'' which show that the limited use of guided, as 
you said, and best available technology snowmobiles has worked.
    So the science appears to support current management of the 
snowmobiles in the park. Do you agree with that National Park 
Service statement of November 17?
    Mr. Jarvis. Absolutely. I think all of those indicators 
have been--all of these programs that we've implemented as a 
system, as you mentioned, have significantly improved not only 
the quality of the environment in this case, but also the 
public experience. What we're trying to reach now is something 
that is sustainable into the future, applying all of those 
standards.
    Senator Barrasso. Because when you talk about a sustainable 
decision, those things seem to point to the idea of trying to 
find this in a way, and I don't know whether there are 
additional criteria that you would use beyond air quality, 
wildlife disturbance, sound impact.
    Mr. Jarvis. No, I think at this point we have--I don't 
think we have time left in this process to really add any new 
factors here. I think that those are obviously the key 
environmental factors, but there's also local economy and then 
certainly the public's experience as well.
    Senator Barrasso. Then when we visited we talked about the 
impact of snow machines on the park in the winter versus the 
impact of automobiles in the summer. Do you know if the 
administration has any intentions to cut visitation numbers in 
Yellowstone and Grand Teton Park year-round in terms of 
automobile access, vehicles in the summer?
    Mr. Jarvis. I have heard no indication of that for those 
two parks at all.
    Senator Barrasso. Is that anything that would be on your 
agenda?
    Mr. Jarvis. Certainly not.
    Senator Barrasso. Thank you.
    Thank you, Mr. Chairman.
    Senator Udall. Thank you, Senator Barrasso.
    I think we've, if not exhausted, we've certainly had a 
welcome and substantive discussion here with the Senators that 
have joined us. I'm going to move to adjourn the committee, but 
I want to note for the record that members will have until 5 
p.m. tomorrow to submit additional questions for the record.
    Let me thank all of you gentlemen for your willingness to 
serve the United States of America. If confirmed, we look 
forward to working with you.
    The committee on Energy and Natural Resources is adjourned.
    [Whereupon, at 11:23 a.m., the hearing was adjourned.]
                               APPENDIXES

                              ----------                              


                               Appendix I

                   Responses to Additional Questions

                              ----------                              

  Responses of Jonathan B. Jarvis to Questions From Senator Murkowski
                          maintenance backlog
    Question 1. Recently the Bureau of Reclamation has testified 
against certain legislation because ``it would further add to their 
backlog.'' Despite the fact the National Park Service has a $9 billion 
dollar maintenance backlog, far larger than Reclamation's, the Park 
Service rarely cites this problem as a reason for not supporting 
legislation. At what point will the Park Service be willing to oppose 
legislation because of backlog concerns?
    Answer. Enactment of legislation that expands authorizations or 
authorizes new responsibilities provides new opportunities for the 
National Park Service to address the priorities of the American public 
to protect important historic, cultural and natural resource features. 
The enactment of legislation does not necessarily require that 
additional funding be budgeted or allocated and redirected from 
addressing maintenance needs. If confirmed, I will be committed to 
addressing the maintenance needs of the National Park Service.
    Question 2. Despite record increases in appropriations the last 
eight years, many still claim the Park Service requires even more 
funding. Additionally, even with these increased funds the maintenance 
backlog continues to grow. How would you seek to resolve these 
counterintuitive results?
    Answer. I believe that a key ingredient of good management of the 
National Park Service's facilities is focusing funding on the highest 
priority projects and keeping facilities from falling into disrepair. 
Congress's enactment of the American Recovery and Reinvestment Act is 
helping the Park Service address a significant number of deferred 
maintenance projects.
                                 nietcs
    Question 3. If confirmed, how will you ensure expeditious 
processing of permitting for transmission projects in National Interest 
Electric Transmission Corridors that cross national parks? Do you 
intend to follow the interim guidelines issued by DOE on milestones for 
environmental review?
    Answer. In May 2007, the Department of Energy designated two 
National Interest Electric Transmission Corridors: the Mid-Atlantic 
Area National Corridor and the Southwest Area National Corridor. If 
confirmed, I will ensure that the National Park Service acts as quickly 
as possible within its legal, regulatory, and policy requirements on 
proposals in these corridors, while ensuring that park resources and 
values are protected when it authorizes activities to occur within park 
boundaries. The Park Service has guidance available to aid both park 
resource managers and prospective applicants through the permitting and 
compliance process.
    The Park Service is committed to working collaboratively and 
cooperatively on energy transmission projects.
                       drakes bay oyster company
    Question 4a. Much has been written about your position on the 
Drakes Bay Oyster Company and the reports the Park Service wrote on the 
issue. In May 2009, the National Research Council found ``a lack of 
strong scientific evidence that the present level of oyster farming 
operations by Drakes Bay Oyster Co. has major adverse effects on the 
ecosystem of Drakes Estero, a body of water north of San Francisco 
within Point Reyes National Seashore, which is owned by the National 
Park Service.''
    Even after that document was reworked in response to their initial 
comments, the NRC found that the National Park Service report in some 
instances ``selectively presented, over interpreted, or misrepresented 
the available scientific information on DBOC operations by exaggerating 
the negative and overlooking potentially beneficial effects.''
    Over the past decade there seems to have been a number of instances 
were the National Park Service and other divisions of the Department of 
the Interior have been accused of doctoring data or ignoring important 
but incomplete data when making decisions. In 1998 your sister agency, 
the U.S. Forest Service, mailed a letter to the Oregon Caves National 
Monument director pointing to the failure to fully use both scientific 
data, as well as the national forest plan in the development of the 
study to expand the cave. Then, in 2001, the U.S. Fish and Wildlife 
Service was accused of planting hair for a pet Canadian Lynx as part of 
a population study.
    I am sure there is more to the Point Reyes story, but if confirmed 
are you committed to presenting all science in National Park Service 
reports, not just the science that supports what the agency wants to 
do?
    Answer. Yes, I am committed to ensuring the best available science 
is made available to the public.
    Question 4b. Given the conclusions of that National Research 
Council report, as well as those in the IG report on this situation, in 
your mind what responsibility did you have as Region Director to punish 
the malfeasance illuminated in those reports?
    Answer. As Regional Director for the region that includes Point 
Reyes National Seashore, I was the manager directly responsible for 
oversight of this situation and took corrective actions where 
appropriate.
    Question 4c. Do you believe that sound science and the use of the 
best and most complete scientific information leads to the best land 
management decisions?
    Answer. Yes, I strongly believe sound science is the foundation for 
making good management decisions. I have been a strong advocate of 
developing additional science expertise and capacity in the National 
Park Service to ensure sound science information is available to park 
managers. In the past five years, the Service's Inventory and 
Monitoring Programs have provided us key data to use when considering 
management actions. In turn, we have developed the Cooperative 
Ecosystem Studies Units to build additional scientific opportunities in 
parks for academic institutions.
    Question 4d. If confirmed, will you commit to not tolerate any 
misrepresentation of scientific information and to faithfully report 
all potential effects of development, good or bad, even if that 
development is not supported by the Park Service?
    Answer. Yes, I am committed to considering all available scientific 
information regarding potential effects--both beneficial and adverse--
of development on Park Service lands. I will not tolerate intentional 
misrepresentation of scientific information.
           yukon river/yukon charley river national preserve
    Question 5a. In 1996, over the strong objections of the State of 
Alaska, the National Park Service adopted regulations which extended 
its management and enforcement authorities over state-owned navigable 
waters within units of the National Park System. It has come to my 
attention that the Park Service has issued citations to commercial 
operators, requiring them to get permits to operate on the Yukon River 
within the Yukon Charley River National Preserve, even though they do 
not use the upland areas of the preserve. ANILCA states that only 
public lands are included as a portion of a conservation system unit 
and that state or private lands are not subject to the regulations. 
Furthermore, ANILCA states that public lands do not include state-owned 
lands, including submerged lands beneath navigable waters.
    Do you believe the Park Service should regulate the Yukon River?
    Answer. On the Yukon River, the National Park Service applies its 
regulations, including 36 CFR 1.2, only within the legislated boundary 
of Yukon-Charley Rivers National Preserve. Regulating uses within 
National Park System units to protect natural and cultural resources, 
park values and visitor safety is one of our fundamental 
responsibilities.
    Question 5b. Does the Park Service have the legal authority to 
regulate navigable waters within States?
    Answer. I am told that the National Park Service has the legal 
authority to apply 36 CFR 1.2 within park boundaries.
    Question 5c. If confirmed, what steps will you take to ensure a 
solution to this pressing issue?
    Answer. I understand that the National Park Service has issued 
citations in one case in the past three years, and that compliance with 
permitting requirements for activities such as commercial uses along 
the river is generally high. I also understand that the State of Alaska 
disagrees with our interpretation of our legal authority. If confirmed, 
I will continue to work with the State of Alaska to resolve this 
disagreement, and will ensure that the Park Service works cooperatively 
to provide information to users so that users are not adversely 
affected while disagreements among governments are resolved.
                    cape krusenstern caribou hunting
    Question 6. Recently, there have been a number of issues regarding 
the effects of air taxi operators dropping off over 380 hunters each 
fall on the Noatak River, in Cape Krusenstern National Monument. As a 
result of this large number of non-local hunters, the migration pattern 
of caribou in the region is diverted, resulting in an alternate 
migration pattern. Can you please outline how you would resolve a 
problem like this, if you are confirmed?
    Answer. I understand that the National Park Service has been 
engaged in a public process to address the hunting of caribou in this 
area within Noatak National Preserve, which is open to both subsistence 
and sport hunting. I also understand that the National Park Service has 
reached out to subsistence advisory groups and the local government and 
has launched a public scoping process on a big game transportation 
services plan. If confirmed, I will work with the Park Service's Alaska 
Region to continue the development of a plan that addresses commercial 
hunting interests and subsistence rights, while ensuring protection of 
our resources. In addition, if confirmed, I will support the Service's 
continued participation, with the Alaska Department of Fish and Game, 
other Department of the Interior bureaus, village and regional 
entities, guides, and transporters in a work group dealing with caribou 
management issues in Northwest Alaska.
                            predator control
    Question 7. The Alaska Department of Fish and Game recently 
implemented a new predator control effort east of Fairbanks in hopes of 
boosting caribou numbers in the Fortymile herd that ranges from the 
Steese Highway to the Canadian border. The National Park Service has 
expressed concern over this program, but the State has taken the 
necessary precautions to make sure they do not over-control the wolves. 
The intended outcome of this effort is to increase the caribou 
population in this herd from 40,000 to between 50,000 and 100,000. Will 
you support this policy of the State of Alaska and the agreement that 
was reached between the State of Alaska and the National Park Service?
    Answer. The National Park Service has been working collaboratively 
with the State of Alaska in managing wildlife on park and preserve 
lands. The National Park Service and the Alaska Department of Fish and 
Game have different statutory frameworks, and a cooperative 
relationship is essential to fulfilling their respective mandates. If 
confirmed, I will work to ensure that the National Park Service remains 
supportive of these cooperative efforts.
                               cape wind
    Question 8a. The offshore wind development in Nantucket Sound, 
commonly referred to as the ``Cape Wind'' project, has been under 
development since 2001. After extensive review pursuant to the National 
Environmental Policy Act, MMS issued a Final Environmental Impact 
Statement earlier this year. I understand that the last hurdle to this 
project is the National Park Service's review under the National 
Historic Preservation Act.
    Opponents of the project, led by the Alliance to Protect Nantucket 
Sound, are now advocating that Nantucket Sound be listed on the 
National Register as a Traditional Cultural property. The Commonwealth 
of Massachusetts is on record as opposing such a designation. In 
addition, MMS has stated that extensive testing of the submerged lands 
indicated ``absolutely no evidence of a site or any cultural materials 
whatsoever.''
    Do you believe it is appropriate to designate 560 square miles of 
open water as a Traditional Cultural Property?
    Answer. Decisions as to whether a property is considered to be 
eligible for or listed in the National Register of Historic Places are 
made by the Keeper of the National Register in accordance with federal 
regulation. I understand that the Keeper of the National Register has 
not made such a determination with respect to Nantucket Sound. Without 
review of the appropriate documentation, I have no opinion as to 
whether it is appropriate to designate this property as a Traditional 
Cultural Property.
    Question 8b. What kind of precedent would such a designation set?
    Answer. Without more information on what might be requested and how 
the request might be supported, I do not know the answer to this 
question.
    Question 8c. I understand that your brother, Destry Jarvis, is a 
consultant to the Alliance to Protect Nantucket Sound and is pushing 
for this designation which would halt the development of the Cape Wind 
project. If confirmed, what steps will you take to ensure conflicts of 
interest do not occur when determining the outcome of this issue?
    Answer. I will recuse myself from involvement in the Cape Wind 
project.
        independence national historical park/private management
    Question 9a. In 1999, the Gateway Independence Visitor Center 
Authorization Act authorized the Secretary of the Interior to execute a 
detailed management agreement with the Independence Visitor Center 
Corporation to construct and operate the Independence Visitor Center on 
federal land at Independence National Historical Park in Philadelphia. 
The Independence Visitor Center itself is owned by the federal 
government and administered by NPS, which has contracted with a private 
entity, the Independence Visitor Center Corporation, to operate the 
facility. The Congressional intent is stated as: ``The purpose of this 
Act is to authorize the Secretary of the Interior to enter into a 
cooperative agreement with the Gateway Independence Visitor Center 
Corporation to construct and operate a regional visitor center on 
Independence Mall.''
    However, in the decade since the enactment of the Act, in lieu of a 
long-term and detailed management agreement, the NPS issued a temporary 
Special Use Permit to the Independence Visitor Center Corporation in 
November 2001 and then has extended that Special Use Permit twenty 
separate times over nine years to allow additional time to finalize a 
formal Agreement.
    Would you support getting the detailed and long-term operating 
agreement executed between the National Park Service and Independence 
Visitor Center Corporation? If so, when can we expect that a detailed 
and long-term operating agreement between the National Park Service and 
Independence Visitor Center Corporation will be executed?
    Answer. Yes, I support the effort to reach a conclusion on this 
agreement. I understand that the Park Service has been working 
diligently to bring this complex and unique operating agreement to a 
point that both parties will sign it. I am told that there are only a 
few legal and policy matters where agreement has not been reached, and 
it is expected that a final document will be signed this summer.
    Question 9b. Does the National Park Service delegate responsibility 
for the management of national parks (or any portion thereof) to 
private entities? If so, under what circumstances?
    Answer. The National Park Service delegates management 
responsibility for parks only where specifically authorized by 
Congress. For example, Congress has authorized the Secretary of the 
Interior to enter into cooperative agreements allowing partner 
organizations to operate the First Ladies National Historic Site, the 
James A. Garfield National Historic Site, and the Hawthorn Hill site 
within the Dayton Aviation Heritage National Historical Park. The 
visitor center at Independence National Historical Park is an example 
of where Congress has specifically authorized a private entity to build 
and operate a facility to serve park visitors. Many national parks also 
utilize authority granted by Congress to allow non-profit organizations 
to operate bookstores and conduct educational programs. Other examples 
of the private sector providing program support activities are 
discussed in answer ``c,'' below. Moreover, such agreements do not 
necessarily constitute a delegation of the National Park Service's 
management responsibilities.
    Question 9c. Aside from commercial and vendor contracts, is the 
Department of the Interior or National Park Service empowered to 
provide direct funding to private entities operating in or around 
national parks? If so, under what circumstances?
    Answer. In some circumstances, the Secretary of the Interior has 
received specific authority from Congress for a particular unit, area, 
or site allowing funds to be transferred to private entities ``in and 
around national parks.'' Specific authorities have also been provided 
to carry out programs related to historic resources, national trails, 
heritage areas, cooperation with local and state governments, outdoor 
recreation, and education and training. In addition to specific 
authorities, the National Park Service has general authorities allowing 
the Secretary to transfer funds to partners to assist in carrying out 
the programs of the Park Service, conduct scientific research with 
universities, and provide youth conservation activities. The agreements 
give the Service the ability to monitor these partnerships, and ensure 
that the appropriate activities are being performed as intended by 
Congress.
                                stimulus
    Question 10. In your opinion, how do you believe that National Park 
Service stimulus projects are proceeding? Is the pace of commencing the 
various projects satisfactory?
    Answer. The National Park Service is moving forward in an open and 
transparent fashion with the America's Recovery and Reinvestment Act 
projects. The Park Service has made a commitment that projects will be 
underway at 107 parks by early September. If confirmed, I will ensure 
that the Park Service fulfills its Recovery Act commitments.
                                  npca
    Question 11. The National Park Service and the National Parks 
Conservation Association often work closely together on a number of 
issues. Can you please discuss the role of the NPCA has had in the 
decision making process during your tenure in the (Pacific) West 
Region?
    Answer. The National Parks Conservation Association is one of many 
organizations I have communicated with as Regional Director. It is my 
practice to listen to many points of view in order to be fully informed 
about issues, and that includes viewpoints from interest groups such as 
the NPCA, as well as staff, official partners and associations, 
governmental officials, and others. When making decisions, my primary 
guidance comes from the laws passed by Congress, National Park Service 
Management Policies, and our agency's collective expertise.
                        border issues/organ pipe
    Question 12. Impairments at Organ Pipe are being caused by illegal 
border crossers. The NPS has been unable to stop this, yet the agency 
has hamstrung the operations of the Border Patrol by limiting their 
tactics. Will you work to meet your mandate as articulated by the 
Organic Act or continue the practice of land management by neglect and 
micro-management of the Border Patrol?
    Answer. The National Park Service Southwest Border Strategy 
identifies the need to assist the Department of Homeland Security in 
the performance of their mission, and we work closely with Homeland 
Security as much as possible. In addition to impacts from illegal 
border crossings, Organ Pipe also faces challenges mitigating impacts 
from enforcement tactics that over the years have led to the 
development of unplanned roads, vehicle tracks across miles of desert, 
and associated resource damage from rapidly built surveillance and 
fence infrastructure.
    Through coordinated national and field efforts and ongoing 
collaborative education opportunities between the Organ Pipe staff and 
the Border Patrol assigned at the park, we are working to attain an 
acceptable balance between what often appears to be conflicting 
missions. If confirmed, I will work with all of the involved agencies 
to ensure that the international borders that National Park System 
lands share are secure and that park resources receive the highest 
level of protection possible.
                            advisory boards
    Question 13. How do you plan to use advisory boards in your 
decision-making process? What are the advantages and disadvantages of 
this approach?
    Answer. I have found that Advisory Boards can be useful in helping 
park managers stay current on citizens' views on park-related issues, 
on an ongoing basis, and not only when disputes arise. Advisory boards 
help us establish collaborative relationships with the American 
people--which is key to the preservation of our heritage resources. We 
cannot successfully protect park resources and values without citizen 
support. Advisory boards and committees also provide a mechanism for 
obtaining specialized knowledge and expertise from citizens on a range 
of issues. I am mindful that advisory boards often include citizens 
with strongly-held opinions. Ultimately, the National Park Service 
itself is the final decision maker on any issue raised.
                             new nps units
    Question 14. There has been a proliferation of park units and other 
designations such as heritage areas in recent years. As Director, what 
can you do to urge Congress to show restraint, and allow the Park 
Service to focus on existing priorities?
    Answer. Congress alone has discretion to designate new national 
parks, national heritage areas, and most other units of the National 
Park System. The National Park Service has a formal study process 
through which (at the direction of Congress) we provide the best 
available information on the status of resources and the eligibility of 
areas for inclusion in the National Park System. The Secretary of the 
Interior then transmits our technical study reports to Congress for 
action as appropriate. If confirmed, I assure you that I will carefully 
review the recommendations of these studies and discuss them with the 
Secretary prior to their transmittal to Congress.
                              condemnation
    Question 15. Have you ever recommended use of the National Park 
Service's condemnation authority? If you have, please explain.
    Answer. No. However, prior to my becoming Regional Director, in 
1999 the Pacific West Region's Land Resources Office requested that the 
Field Solicitor file a complaint in condemnation for a 0.50-acre tract, 
at Haleakala National Park, which was lost by The Nature Conservancy at 
a tax sale. The Pacific West Region's Land Resources Office negotiated 
for years with the owner but was unable to acquire the total interest 
in the property. The owner threatened and started work on a structure 
on the tract in which the government owned an undivided interest. As a 
result, the National Park Service moved to acquire the property by 
eminent domain. The Department of Justice accepted the complaint on 06/
15/2000, and the federal court in Honolulu vested full title in the 
United States by Stipulation on 04/02/2003. This final action occurred 
shortly after I became the Regional Director.
    I understand that no other condemnation actions were initiated or 
completed during my tenure as Regional Director of the Pacific West 
Region.
                    condemnation/flight 93 memorial
    Question 16. Recently, there has been quite a bit of attention 
surrounding the Park Service's use of condemnation authority in order 
to acquire land for the Flight 93 memorial. One landowner was even 
subjected to condemnation procedures before negotiations even 
commenced. Can you provide an update on the status of those 
condemnation procedures? Were all alternatives exhausted before 
condemnation proceedings were initiated?
    Answer. Congress provided specific authority to the National Park 
Service at the Flight 93 National Memorial to acquire land through 
condemnation, if necessary. I understand that negotiations have 
successfully concluded with 6 of the 8 property owners located in the 
proposed construction area of the Flight 93 National Memorial. Of the 
6, the Park Service has closed with 3 owners and expects to close with 
the other 3 in the next month. Of the remaining 2 owners, negotiations 
continue with one landowner and the Park Service expects the 
negotiations to be successful. Only one parcel will be acquired, via an 
agreement with the landowner signed January 16, 2009, through 
``friendly'' condemnation, a process by which condemnation is used as a 
means to allow the courts to determine fair compensation.
                                lobbying
    Question 17. Do you believe NPS employees should be allowed to get 
involved in lobbying legislative bodies and land use regulatory bodies? 
What limits would you place on this kind of lobbying and what would you 
do to enforce these limits?
    Answer. Federal government employees, acting in their official 
capacities, are prohibited by law from using appropriated funds to 
promote support or oppose pending legislation, regulation, or certain 
other matters. However, the law authorizes communication through 
official channels for the efficient conduct of public business. Because 
I believe good communication is the foundation for problem-solving, I 
think it is vitally important to encourage the exchange of information, 
consistent with the law, between Park Service employees and the 
different governmental officials and entities that have interests and 
issues related to national parks. If confirmed, I will seek to ensure 
that Park Service employees understand and obey the laws and rules 
governing communications on public policy matters by federal employees.
                      national historic landmarks
    Question 18. There are a small number of National Historic 
Landmarks in the Pacific established to honor Americans who fought in 
the Pacific during WWII. Among those is one on the island of Peleliu in 
Palau, which is about to honor the battle's 65th anniversary. There has 
been a strong desire over the years, from veterans and their families 
to the Palauan government, to protect the Peleliu battlefield as a NHL. 
What in your opinion can the National Park Service do to assist efforts 
to preserve this site, especially given the strong interest here and in 
Palau to do so?
    Answer. I have been personally interested in the preservation of 
Peleliu Battlefield, which was designated a National Historic Landmark 
in 1985. As Regional Director, I looked for various ways to assist 
preservation efforts, such as through National Park Service's American 
Battlefield Protection Program, which provided grants to the Peleliu 
Historical Society in 2006 and 2008, and through historic preservation 
technical assistance. In 2003, the region concluded a special resource 
study that found that although the battlefield site was nationally 
significant and suitable for addition to the National Park System, it 
was not feasible for addition to the System due to local concerns. I am 
interested in further discussions with the local community and would be 
willing, if appropriate, to revisit the study.
                              organic act
    Question 19a. The Park Service's Organic Act says that the National 
Parks are established to: ``conserve the scenery and the natural and 
historic objects and the wildlife therein and to provide for the 
enjoyment of the same in such a manner and by such means as will leave 
them unimpaired for the enjoyment of future generations.'' Over the 
last several decades, there has been a rather protracted and sometimes 
heated debate over which of the dual directions the Park Service should 
be driven to fulfill. You rightly or wrongly have been labeled as a 
person who opposed the last administration in opening more National 
Parks to more visitors.
    If part of the agency's prime directive is to leave the parks 
unimpaired for the enjoyment of future generations, does this not imply 
that the current generations should be able to enjoy the National Parks 
and their visits should be encouraged?
    Answer. Yes, it does imply that current generations should be able 
to enjoy the National Parks and their visits should be encouraged. That 
is how the National Park Service Management Policies interpret the 1916 
Organic Act, and I support the Management Policies' interpretation.
    Question 19b. Where do you personally stand on the issues of 
snowmobiles in National Parks? Do you support having parks open for 
snowmobiles? And if so, how many snowmobiles would you recommend be 
allowed in Yellowstone each day in the winter?
    Answer. As I stated at my confirmation hearing, this is a 
challenging situation with litigation in two Federal Courts, each 
issuing different rulings in the same or related matters. In keeping 
with the mission of the National Park Service, I believe we can find a 
way to protect park resources while providing for visitors to enjoy 
such a magnificent place. I support an open process that involves all 
interested parties in examining the types and numbers of snowmobiles 
and snowcoaches that may be allowed in Yellowstone in winter, and that 
applies the best science and knowledge that we have gained over the 
years.
                      water-cooled solar projects
    Question 20. It has been reported that in your capacity as director 
of the Park Service's Pacific West Region, you wrote to the BLM 
Director in Nevada the following on water-cooled solar projects: ``It 
is not in the public interest for BLM to approve plans of development 
for water-cooled solar energy projects in the arid basins of southern 
Nevada, some of which are already over-appropriated.''
    Given President Obama and Secretary Salazar's desire to develop 
additional solar and wind energy, with many projects likely to be 
located in Nevada, could you describe what you meant by that statement 
and what steps you will take, if confirmed, to help with the 
establishment of additional renewable energy production in the arid 
west?
    Answer. In my letter to the BLM Nevada State Director, I began by 
emphasizing the importance of promoting renewable energy projects and 
the need to meet our nation's energy needs in an innovative and 
environmentally responsible manner. As stewards of this nation's 
premier natural and cultural resources, we have a responsibility to 
ensure that we do not lose sight of protecting our resources while 
pursuing renewable energy. Development of solar thermal projects that 
result in further overdraft of already stressed groundwater systems in 
the desert southwest would be not be in the public interest, in my 
opinion. If confirmed, I will ensure that our staff works actively with 
the BLM and other agencies to site projects in the most environmentally 
responsible locations and to ensure protection of our natural and 
cultural resources.
                         california state parks
    Question 21. On June 8th you sent a letter to Governor 
Schwarzenegger threatening that the parks in California that may close 
due to the financial crisis facing the State must be returned to the 
Federal Government. If they are, in fact, closed to the public. Over 
the years you have been quoted about the need for more funding for the 
National Park Service. What happens to that property, if it is returned 
to the Federal Government. If it is returned to the Park Service, and, 
by your own words the Park Service doesn't now have enough funding to 
manage the lands it is currently entrusted to manage, how would you 
manage the Parks you are threatening to take back from the State of 
California?
    Answer. The National Park Service has compliance responsibilities 
for the Land and Water Conservation Fund State Assistance Program and 
for the Federal Lands-to-Parks Program. My letter to the Governor was 
intended to remind the State of its obligation to enforce the terms of 
the transfers. In this regard, I note that reverted park land does not 
come to the National Park Service. It goes to the federal surplus 
property disposal agency, which is either the General Services 
Administration or, by delegated authority under the Base Realignment 
and Closure Act, the military for re-disposal. More importantly, my 
letter was intended to open discussions with the State regarding the 
measures that could be taken to keep parks open and maintain the 
State's eligibility for future assistance under these programs in light 
of the current budget crisis. Productive conversations are underway.
                         colorado state compact
    Question 22a. In some of your visits to Members' offices you have 
mentioned the Park Service's desire to renegotiate the Colorado River 
Compact to ``balance the values to all resources.''
    At what point in time did the Park Service become the lead agency 
on the Colorado River Compact?
    Question 22b. Have you briefed the Nevada and California 
delegations on your desire to re-negotiate this compact?
    Answer. I understand that the National Park Service has taken no 
position on renegotiating the Colorado River Compact and is not, and 
does not seek to be, the lead agency in implementing its provisions. No 
congressional briefings have been held on the NPS renegotiating this 
Compact. During my member visits, I did discuss Colorado River issues. 
However, these discussions were not intended to indicate that the Park 
Service wants to renegotiate the Compact.
                         san francisco ferries
    Question 23a. In 2006, Alcatraz Cruises was selected to provide 
ferry services from San Francisco to Alcatraz on the following basis: 
Construct a brand-new high tech departure facility at Pier 33 in San 
Francisco and to provide a 600 passenger, state of the art, 
environmentally-friendly, hybrid multi-hulled vessel that was powered 
by wind and solar energy, i.e. a ``Solar Sailor.'' Since signing that 
contract the Park Service has allowed at least two increases in fares 
(a 57% total increase in fares) for that boat trip out to Alcatraz.
    Has the Alcatraz Cruises Company fulfilled the promises it made to 
the Park Service related to facilities and boats?
    Answer. Alcatraz Cruises Company is fulfilling the requirements of 
its contract and is providing quality services which are well-received 
by visitors. Alcatraz Cruises has been providing ferry transportation 
service to Alcatraz since early 2006. In that time, the concessioner 
has contributed improvements to the visitor experience including 
upgraded dockside facilities, better customer service and environmental 
management, as well as improved support of Park Service operations on 
the island. The new departure facility in San Francisco is located 
outside of Golden Gate National Recreation Area, on property leased by 
Alcatraz Cruises from the Port of San Francisco. With respect to these 
facilities, certain modifications have been delayed due to some matters 
that need to be resolved between Alcatraz Cruises and the Port of San 
Francisco and not because of any disagreements with the National Park 
Service. With respect to the ``Solar Sailor'', Alcatraz Cruises has 
provided a 150-passenger, environmentally friendly ``Solar Sailor'' as 
a pilot project. A larger demonstration project is being evaluated for 
technological and financial feasibility.
    Question 23b. What responsibility does the Park Service have to the 
public to ensure that promises made in concessionaire negotiations are 
fulfilled?
    Answer. The National Park Service incorporates appropriate elements 
of the best proposal received for a concession contract into the terms 
and conditions of the concession contract that is awarded. Throughout 
the term of the contract, concessioners are regularly evaluated to 
ensure they are operating satisfactorily and according to contract 
requirements. In 2007 and 2008, the Park Service performed its annual 
review of the services provided, and Alcatraz Cruises was determined to 
be operating within the terms and conditions of its contract and 
providing satisfactory service to visitors.
    Question 23c. Doesn't the Park Service owe the public a fare 
reduction when the new facilities and boats have not been provided?
    Answer. By law concessioners are permitted to set reasonable and 
appropriate rates for the services they provide to the public subject 
to National Park Service approval. In the case of Alcatraz Cruises, 
their rates are approved on the basis of the level of service they are 
currently providing as well as a review of fees charged by others for 
comparable services. Some of the factors considered when approving the 
rates include the costs of transportation, National Park Service 
safety, utility, maintenance, and interpretive services, and the need 
for continual reinvestment in capital improvements on the island in 
support of visitor services. The rate increases for ferry service to 
Alcatraz have been approved based on these factors and an annual review 
of comparable services and we believe these rates are reasonable. As 
mitigation to fee increases to visit Alcatraz Island, the Park Service 
has increased the volume of complimentary community access program 
tickets targeted for underserved groups.
    Question 23d. Have you at least required Alcatraz Cruises to pay an 
increased franchise fee as a penalty for its noncompliance with the 
requirements of the contract? If not, why not?
    Answer. I believe that Alcatraz Cruises is in compliance with the 
requirements of its contract, therefore there is no need to take 
further action.
                            concessionaires
    Question 24. As Director of the National Park Service you will have 
the responsibility to oversee thousands of concessionaire contracts and 
negotiations. I can understand that the San Francisco situation may 
have been an isolated event.
    If confirmed are you willing to commit that the Park Service will 
not increase user fees, entrance fees, or concessionaire fares unless 
and until the commitments made by the Park Service or the 
concessionaire are fully attained?
    Answer. The policy for approving concessioner's rates is based on 
the terms and conditions of the contract, concessions law and 
regulation, and National Park Service guidelines. Generally, the rates 
for concessioner's services are to be comparable to those being charged 
outside the park for similar services. If confirmed, I will commit to 
working with concessioners throughout the National Park Service to 
provide the best possible services for visitors at a range of rates 
that meets the needs of a wide spectrum of the public. I also will 
scrutinize closely any proposals for increases in user fees, entrance 
fees, and any other fees that the public pays when they visit national 
parks.
                              buffer zones
    Question 25a. In the last six months, we have seen a number of Park 
Service sponsored efforts to enlarge National Park Service lands or to 
develop protected buffer zones around existing facilities. The oil and 
gas leases in Utah, the uranium development moratoria in Northern 
Arizona, the Oregon Caves legislation, and the Camp Hale legislation in 
Colorado all come to my mind.
    What is your personal philosophy on buffer zones around National 
Parks, National Monuments or Wilderness Areas?
    Answer. As I stated at my confirmation hearing, I am not a believer 
in buffer zones around the lands that we administer. However, I am 
interested in having the National Park Service participate in the 
discussion about lands and land uses that may affect park resources on 
adjacent or nearby lands, just as any other neighboring landowner would 
be.
    Question 25b. Are buffer zones an appropriate mechanism for the 
Park Service to use in order to expand wilderness areas around National 
Park Units?
    Answer. We do not seek to expand wilderness areas around National 
Park System units through buffer zones. We typically do provide 
comments when there is a proposal under consideration for lands, public 
or private, adjacent to National Park System units.
    Question 25c. Congress determines the boundaries of National Parks, 
but what is the role of the Park Service in enforcing ``buffer zones'' 
around Parks?
    Answer. As stated above, we do not enforce buffer zones around 
units of the National Park System. We do provide comments regarding 
potential impacts that could occur to National Park System units based 
upon actions taking place outside unit boundaries.
    Question 25d. How would you suggest this Congress react if the U.S. 
Forest Service came to Congress demanding that they be allowed to cut 
down trees in a National Park to eradicate an invasive species that 
might threaten the timber resources on a neighboring National Forest?
    Answer. In considering such a request, I would hope that Congress 
would examine all the pertinent existing laws and regulations and seek 
input from the affected land management agencies.
    Question 25e. Do you agree that Congress allocated federal lands to 
a variety of natural resource agencies with the express intent that 
they be managed differently? If you do, why are you and the Park 
Service pursuing your efforts to force other land management agencies 
to stop land management activities that are expressly allowed under 
those agencies' Organic Acts?
    Answer. Yes, each agency has its own organic laws and each agency 
manages lands differently. The National Park Service does not try to 
force other agencies to stop managing lands as the law allows. Rather, 
it tries to make its sister land management agencies aware of any 
impacts on National Park System resources that could result from the 
agencies' plans.
    Question 25f. In the Omnibus Public Land Management Act of 2009, 
Congress directed the Secretary of the Interior to conduct a resource 
study of Estate Grange in St. Croix, U.S. Virgin Islands to evaluate 
the area as a potential future unit of the National Park Service. The 
intent is to consider a land swap of Estate Grange land for Park 
Service land on St. Johns so that the U.S. Virgin Islands can build a 
school on St. Johns for the local population. What is the status of 
that resource study?
    Answer. I understand that the National Park Service started work 
this summer on the special resource study on the Estate Grange, 
Alexander Hamilton's boyhood home in St. Croix. Agency and stakeholder 
scoping meetings were conducted in June, and public scoping meetings 
are scheduled for August. As with all special resource studies, this 
study will evaluate the site for its national significance, 
suitability, and feasibility for addition to the National Park System, 
and whether National Park Service management is appropriate. I am told 
that while there is some interest in the possibility of using this site 
for a future land exchange to address the need for a school on St. 
John, the issues connected to a potential land exchange that would 
include the Estate Grange are not being evaluated as part of this 
study.
                             nps budgeting
    Question 26a. You have been outspoken in your recommendation that 
the Park Service is in need of additional funding. But when I compare 
the National Park System to its sister agencies in the Department of 
the Interior, I wonder how you defend the budgets that the NPS 
receives. For instance, the Park Service receives about $28.73 per acre 
managed, while the Bureau of Land Management receives about $7.76 per 
acre managed and the U.S. Fish and Wildlife Service gets about $8.12 
per acre managed. While the Park Service receives about 5 times as many 
visitors as the BLM, I am not sure that justifies a budget that is 
nearly four times larger on a per-acre basis. The Park Service has 
21,989 employees to manage its 78.8 million acres, while the U.S. Fish 
& Wildlife Service has only 6,944 employees to manage nearly double the 
amount of acres your agency is asked to manage. Compared to the BLM, 
the National Park Service has double the number of employees to manage 
only a third the number of acres that the BLM is expected to manage.
    All of the land management agencies have maintenance backlogs and 
all want more funding. Given that the Park Service is already well 
financed, at least on a comparative basis, why should the agency expect 
increased budgets while the other agencies are struggling?
    Answer. The National Park Service shares with the Bureau of Land 
Management and the Fish and Wildlife Service, a common goal and an 
important responsibility--management of the Nation's precious lands and 
natural and cultural resources. If confirmed, I will continue to 
champion the need to manage these resources well and will be a 
thoughtful steward of the Nation's public lands, which includes 
advocating for budgetary resources that are needed to provide for 
visitors and protect and preserve these resources.
    Question 26b. Shouldn't the Park Service instead focus on tearing 
down its dilapidated facilities to resolve the maintenance backlog or 
stop acquiring new lands that it can't afford to manage under the 
current budget regime?
    Answer. I agree that the removal of facilities is a good strategy 
to reduce maintenance needs in cases when facilities are no longer 
needed or are not functional and are not historically relevant. I also 
agree that we should be prioritizing our acquisition of lands. If 
confirmed, I will work hard to improve the management of facilities and 
ensure that we are focusing on the highest priority needs for 
maintenance and land acquisition.
    Question 27. In the past two weeks the Park Service has testified 
in front of our Parks subcommittee in favor of taking over some 
National Forest Land in Oregon and Colorado. The agency also has been 
on television recently discussing the condition of the National Mall 
and pointing to all the additional funding it needs to properly 
maintain those facilities. Given the supposed $10 billion maintenance 
backlog the agency has, how can the agency justify its efforts to take 
over 40,000 acres in Oregon that would add to its budgetary needs or 
support legislation that would give it responsibility to manage the 
former Camp Hale in Colorado?
    Answer. I share your concern about the costs associated with 
addressing the maintenance backlog and the costs that come with 
assuming additional agency responsibilities. I want to clarify that the 
National Park Service did not propose taking over 40,000 acres in 
Oregon. The General Management Plan for the Oregon Caves National 
Monument recommends expanding the monument's boundary by about 4,000 
acres to protect the monument's water quality and other resources. 
Regarding Camp Hale, the Park Service supports legislation authorizing 
a study of the site. A determination of support for any change in 
responsibility for management of the site would be made only after the 
study is completed and only if the study found a change in management 
was recommended to protect the site's resources. If confirmed, I will 
seek to ensure that costs are scrutinized before recommendations are 
made to support legislation that adds to the responsibilities of the 
Park Service.
                           carbon limitations
    Question 28. As regional director of the Pacific West, you 
instituted a policy which required all parks within the region to 
become ``Carbon Neutral'' by the National Park's centennial of 2016. 
What costs can be associated with the Carbon Neutral Policy? If 
confirmed, will you attempt to institute this policy to all units of 
the Park Service?
    Answer. Costs for achieving carbon neutrality for the Pacific West 
Region by 2016 will depend upon many complex factors and will likely 
vary considerably from one park to another. Carbon neutrality will also 
result in a cost savings for parks. Park managers in the region are 
looking into a range of innovative and creative approaches, and there 
is no one-size-fits-all means for achieving this goal. If confirmed, I 
will consider a carbon neutral policy for as many parks as feasible.
                         park visitation rates
    Question 29a. Informal surveys at a number of National Parks show 
increases in visitor use on the recent fee-free Saturdays. Rocky 
Mountain National Park reported visits were up by 32% on the June fee-
free weekend compared to the same weekend last year, Mammoth Cave 
National Park reported visits were up by 28% for the June fee-free 
weekend and up 61% for the July fee-free weekend versus the same 
weekends last year. Arches National Parked reported visits were up by 
8% and Apostle Island up 5.1% for June 2009 versus June 2008.
    Do you think it would be good for Park visitation to increase, i.e. 
more Americans to visit their Parks?
    Answer: Yes, I believe it would be good for overall park visitation 
to increase. As I stated in my confirmation hearing, I feel it is 
important to engage the people of the United States to encourage them 
to become involved in their national parks. Visitation to National Park 
Service units has slightly decreased or stayed flat for about the last 
ten years, although reports from many parks so far this year are 
showing an increase. There are numerous reasons for the decrease in 
visitation; including economic conditions, weather events, changing 
interests of the American public from outdoor to more indoor-centered 
activities based upon technology, the ups and downs of gas prices, and 
aging baby boomers who have changed the kind of leisure activities they 
engage in. There are 391 units in the National Park System--some of 
them experience higher visitation than others, but they all offer an 
opportunity for visitors to enjoy ``America's Best Idea''.
    Question 29b. It would seem to me that this informal survey data 
reported by your Park units suggests that the increased user fees of 
the last decade that have resulted since the Federal Lands Recreation 
Enhancement Act passed in 2003 are pricing a significant number of 
potential visitors out of coming to the parks.
    Would you consider lowering or eliminating some entrance fees to 
accomplish that?
    Answer. For 2009 and 2010, entrance fee rates were frozen at the 
2008 level. In 2009, one park was allowed to increase its entrance fee 
based on the public support they received. Two parks were allowed to 
move forward this summer with civic engagement to test the possibility 
of increasing their entrance fee for 2010. Since the Recreation Fee 
Demonstration Program was authorized in 1996 and the subsequent Federal 
Lands Recreation Enhancement Act of 2004 (FLREA) was authorized, there 
have been about eight park units that have requested to be removed from 
the fee program, usually because of logistical or cost-effectiveness 
issues.
    Because the parks have shown the value of their fee dollars being 
used to enhance the visitor experience, the public has been supportive 
of parks that engage them about any proposed fee increases. When civic 
engagement shows that the public does not support an increase or 
reflects a need to lower a fee, the park adjusts its rates accordingly. 
Since the civic engagement process has been in place, any increased or 
new fees that have been implemented were supported by the public.
    Question 29c. If not, then how do you feel about using ability to 
pay as the deciding factor as to who gets to visit and who doesn't?
    Answer. It is important to remember that many parks do not charge 
any fees at all. In addition to three fee-free weekends this summer, 
the National Park Service offers free entry on National Public Lands 
Day in September and free entry to military personnel, veterans and 
their families on Veterans Day. Children 15 and under are always 
allowed free entry and educational school groups are not charged 
entrance fees. Some parks lower or eliminate entrance fees during the 
``off season'' months, which can be a great time to visit since it may 
be less crowded. Also, U.S. citizens 62 or older may purchase a 
lifetime pass for $10 and permanently disabled US citizens are eligible 
for a free lifetime pass.
    There are a number of opportunities for visitors to economically 
visit national parks and other public lands. The National Parks and 
Federal Recreational Lands Pass offers frequent park visitors an 
economical way to visit, by purchasing a pass that allows entry to any 
National Park Service, Fish and Wildlife Service, Bureau of Land 
Management, U.S. Forest Service, or Bureau of Reclamation unit that 
charges an entrance or standard amenity fee for one year. Since the 
price of entry where charged varies from $3 to $25, a family traveling 
to several units on a trip could realize substantial savings.
    Question 29d. What are your views on additional fees after an 
entrance fee has already been paid? Would you consider an ability to 
pay system for those, or an in state/out of state approach like most 
states use for fishing and hunting licenses?
    Answer. Any fee charged at a national park should be fair, 
equitable, and subject to the civic engagement process. Park managers 
are mindful of the layering of fees since there should be certain 
amenities or services that justify charging a fee. All user fee rates--
campgrounds, boat launches, equipment rentals, dump stations, etc., are 
based on comparability studies so that they are not unnecessarily high 
nor undercut local businesses that may provide similar services. Since 
our system is national, it would be difficult to justify a lower rate 
based on residency since local individuals use the services the same as 
someone from out of state. We feel that the civic engagement process 
provides a means to work with the public to determine if the proposed 
rates are reasonable.
    Question 29e. In an Oakland Tribune article dated June 22, 2007, 
Paul Rogers reported with regard to a proposed increase of fees at 
Yosemite National Park that both Michael Tollefson and you lobbied 
then-Director of the National Park Service Mary Bomar not to raise fees 
at Yosemite. According to the article, ``Bundock said that Yosemite 
Superintendent Michael Tollefson and regional director Jon Jarvis both 
asked Bomar not to raise fees this year following an outpouring of 
public criticism. . . . . Critics, including state lawmakers in four 
Western states and local tourism leaders around the parks, said a 
growing body of evidence shows that higher fees are driving low-income 
families away from national parks, particularly when combined with 
higher gas, hotel and camping prices. . . . . ``Tourism leaders in the 
towns around Yosemite urged the park service not to raise fees. They 
cited a 20 percent drop in Yosemite visits since 1997, when Yosemite 
last boosted its entrance cost, from $5 to $20 a car.''
    In your mind, is the unfettered growth in park frees that has 
resulted since the passage of the Federal Lands Recreation Enhancement 
Act restricting visitation to our National Parks?
    Answer. I have been told that since the passage of the Federal 
Lands Recreation Enhancement Act, only 25% of parks have increased 
entrance fees. At parks where entrance fees are charged by car, the 
increase has averaged approximately $3.60. Surveys have shown that the 
public supports paying for services and amenities that they use when 
visiting national parks. According to visitor use surveys, fees alone 
do not restrict visitation to national parks. The current economy has 
been a factor in reduced tourism all over the United States. Other 
factors affecting visitation have been surging gas prices, the overall 
cost of travel (food, lodging, travel), reduced interest in camping and 
outdoor activities by the current population. Statistics show that 
Americans are working more and recreating less.
    Question 29f. If Congress were to increase funding for the National 
Park Service, will you commit to reducing or eliminating entrance fees 
at the National Parks commensurate to the increased Congressional 
funding level?
    Answer. If confirmed, I commit to reviewing all available 
information regarding decisions about where and when to reduce or cease 
collecting fees, and look forward to working on these issues with 
Congress.
     Responses of Jonathan B. Jarvis to Questions From Senator Burr
    Question 30. Mr. Jarvis, I enjoyed our meeting last week. I 
especially appreciated our discussion about education and promotion of 
the National Parks for future generations. I believe it is important 
that the National Park Service promote visitation to the park units 
across the country.
    I understand that the National Park Service has approved its first 
Strategic Tourism Plan. Please tell me how you plan to implement that 
plan if you are confirmed as the Director of the National Park Service.
    Answer. The Tourism Strategic Plan was developed by the National 
Park Service with input from superintendents, regional staff, program 
managers and our tourism partners. The plan contains a wide variety of 
practical strategies designed to take advantage of underutilized 
marketing capacity of our tourism partners through proactive 
engagement. We have already begun to work with our gateway communities 
and the tourism community to help convey messages associated with our 
mission to encourage proper use of our parks while promoting economic 
recovery through increased visitation to parks and their surrounding 
communities. The Civil War Sesquicentennial project is a perfect 
example of this type of project. I confirmed, I would continue to 
advocate for the implementation of this plan's strategies through the 
partnership between Park Service staff and the tourism community.
    Question 31. Mr. Jarvis, as you know, I'm following very closely 
the development of an off road vehicle management plan in Cape Hatteras 
National Seashore Recreational Area. The Park Service recently 
concluded a Negotiated Rulemaking process in an attempt to reach a 
consensus on a variety of issues. Unfortunately, they were not able to 
reach consensus on key issues surrounding management of ORVs and 
resource protection. If confirmed, will you work with me to help ensure 
that the community has access to these national treasures?
    Answer. Yes. I am sympathetic to the concerns of communities around 
Cape Hatteras National Seashore about beach access and the impacts on 
tourism from beach closures needed to protect nesting sites. Although 
the stakeholders were not able to reach a consensus through the 
negotiated rulemaking on a ORV management rule, the committee developed 
a considerable amount of useful information and ORV management options 
for the National Park Service to consider in moving forward with a 
long-term ORV management plan. If confirmed, I will work with you to 
complete a plan that protects the resources and provides for enjoyment 
of the Seashore for generations to come.
   Responses of Jonathan B. Jarvis to Questions From Senator Barrasso
    Question 32a. During today's hearing, you and I discussed 
scientific data collected over the past four years in Yellowstone 
National Park that indicate air quality, wildlife disturbance and sound 
impacts have been within acceptable levels. These findings were 
released in November 2008. We agreed these facts indicate that current 
management of winter use in the parks is working well. We also agreed 
that no additional factors need to be considered in evaluating winter 
use for the parks. However, these facts are inconsistent with the 
National Park Service proposal to cut motorized access to the parks.
    Is there new scientific data collected in the parks that would 
require the National Park Service to proceed with the proposed 
reduction in access?
    Question 32b. If new scientific data is not available, please 
explain the specific reasoning behind the reduction in motorized access 
proposed by the National Park Service in direct contradiction to its 
own science.
    Answer. In November 2008, the National Park Service released an 
Environmental Assessment (EA) with a preferred alternative calling for 
318 snowmobiles per day in Yellowstone. The monitoring results and 
scientific analysis from recent winters support the results presented 
by the National Park Service in that EA.
    Clearly, there are strongly held opinions on the issues surrounding 
winter use in Yellowstone. I support an open process that involves all 
interested parties in examining the types and numbers of snowmobiles 
and snowcoaches that may be allowed in Yellowstone in the winter. I 
believe we should apply the best science and knowledge to search for a 
sustainable solution on this issue.
    The facts, as presented in the 2008 EA and the 2008 proposed rule 
that is available for public comment, are consistent with the analysis 
in the EA. Additional scientific monitoring information from the 2008-
2009 winter season is available at: http://www.nps.gov/yell/
planyourvisit/winteruse.htm and will be used and incorporated in the 
final decision regarding the proposed rule. The proposed interim rule 
to guide winter use for a limited time period (the next two winter 
seasons), when finalized, will be based on a complete review of the 
available science and the public comments received in November 2008 as 
well as all those comments received by the close of this public comment 
period.
    Question 33. The United States District Court for Wyoming 
reinstated the 2004 management plan for the parks on November 7, 2008. 
The National Park Service subsequently republished the rule in the 
Federal Register. At this time, both the Wyoming court's ruling and the 
management plan remain in effect. Yet, the Administration put forward a 
redundant interim rule on July 23, 2009, indicating that it is 
necessary to put this rule in place in order to proceed with a two-year 
evaluation and rulemaking process. Promulgation of this interim rule is 
not necessitated by any circumstances on-the-ground in Wyoming. The 
existing legal framework is both sound and scientifically proven to 
yield positive results (see Question 1 above).
    Please explain the legal necessity of promulgating an interim rule, 
when the Wyoming court's decision and subsequent rule are currently in 
effect and monitoring data indicate that the management scheme is 
working.
    Answer. As I stated at my confirmation hearing, as Regional 
Director of the Pacific West Region, I do not have management 
responsibility over decisions regarding the Wyoming parks, which are 
within the Park Service's Intermountain Region. I am told by the Office 
of the Solicitor that the issues you have raised are currently the 
subject of litigation. I also understand that having such an 
administrative rule in place will facilitate keeping the park open to 
motorized use this coming winter.
    If I am confirmed as Director, it is my intention to work with all 
interested persons to prepare a long-term winter use plan for 
Yellowstone that is legally sustainable.
    Question 34a. During our meeting last week, you and I discussed the 
National Park Service role management of the Colorado River. You may be 
aware that some in Congress are promoting changes to the management of 
the river. These proponents often cite the National Park Service as a 
supporter of this cause.
    Do you agree with assertions that Federal responsibilities have 
been neglected and public transparency compromised in management of the 
Colorado River?
    Answer. The National Park Service manages numerous areas on the 
Colorado River, some 1,100 miles from the Headwaters in Rocky Mountain 
National Park to the vast resources of Lake Mead. These National Park 
Service areas conserve and protect the natural and cultural wonders of 
the west, generate substantial revenue from tourism and recreation, and 
create and maintain thousands of jobs. The river also provides water 
and power that are the life blood of many areas in the seven states of 
the Colorado River Basin.
    Federal responsibilities for the management of the Colorado River 
are broad and varied. Among the applicable laws, the National Park 
Service Organic Act, and the Grand Canyon Protection Act as well as the 
enabling authorities for the various park units along the river provide 
significant direction to the National Park Service.
    I believe strongly in public transparency. If confirmed, I look 
forward to working together with my colleagues at the Department of the 
Interior, including the Commissioner of the Bureau of Reclamation, to 
carry out the Secretary's responsibilities for management of the 
Colorado River..
    Question 34b. Do you support efforts to force the Bureau of 
Reclamation, in cooperation and concurrence with the National Park 
Service, to revisit the Operating Criteria for Glen Canyon Dam?
    Answer. I am certain that by working with Secretary Salazar and the 
rest of the leadership team at the Department of the Interior that the 
essential cooperation required to resolve issues can be achieved 
without any need to force working relationships. If confirmed, I look 
forward to a place at the table with the Bureau of Reclamation, the 
Secretary, and the rest of the Department in finding the balance of 
responsible resource stewardship and resource use.
    Question 34c. Would you, if confirmed as Director of the National 
Park Service, promote policies to change management of the Colorado 
River?
    Answer. If confirmed as Director, I would look forward to being 
part of a Departmental team to evaluate the policies related to 
management of the Colorado River and where legal, productive, and 
consistent with the goals of the Department, support changes where 
necessary to meet the varied needs of the region and the river.
    Question 35a. Question: During today's hearing, you explained that 
the National Park Service is effectively ``maxed out'' by duties placed 
upon it by the American Recovery and Reinvestment Act and the many 
expanding responsibilities of the National Park System.
    Do you mean to imply that the Service can not utilize increased 
funding levels?
    Answer. It is my understanding that the Park Service is working 
diligently to implement its Recovery Act projects. Given the 
significant number of projects and the need for expeditious 
implementation, the Park Service has developed a strategy to allocate 
funds and projects both programmatically and geographically to ensure 
adequate capacity is in place. I did not mean to imply that the Service 
cannot effectively utilize funding.
    Question 35b. How does the National Park Service endeavor to meet 
its growing maintenance backlog, if the agency cannot adapt to utilize 
increased resources?
    Answer. I believe the National Park Service can effectively utilize 
increased resources. With enactment of the Recovery Act, the National 
Park Service realized a significant increase in funding--an amount that 
is more than three times the annual construction funding level. This is 
a significant ramp up for the Park Service, however, I believe it is up 
to the challenge.
    Question 35c. How can the National Park Service justify requests 
for increased land acquisition funding to acquire additional acreage 
for the National Park System at a time when the agency is, by its own 
definition, ``maxed out''?
    Answer. Land acquisition is an important tool to protect lands and 
natural and cultural resources that are threatened, for example, by 
imminent development. In some cases lands can be added to a park that 
will protect important historic, cultural and/or natural features 
without significantly adding to budgetary needs.
    Question 35d. If confirmed, will you recommend the National Park 
Service return unobligated funds appropriated by the American Recovery 
and Reinvestment Act to the Treasury to allow the agency to focus on 
day-to-day operations without being ``maxed out''?
    Answer. The Act provides authority to obligate Recovery Act funds 
through September 2010. If confirmed, I will ensure that the National 
Park Service utilizes Recovery Act funding within this timeframe as 
effectively and efficiently as possible.
   Responses of Jonathan B. Jarvis to Questions From Senator Bennett
    Question 36a. The House Appropriations Committee report to H.R. 
3183, the FY2010 Energy and Water Development Appropriations Bill 
included language that would affect the operations of Glen Canyon Dam. 
The report says, ``The Committee strongly encourages the Bureau of 
Reclamation, in cooperation and concurrence with the National Park 
Service, to revisit the Operating Criteria for Glen Canyon Dam.'' a. 
What are your views on the preceding language and does the Department 
of Interior share your views?
    Answer. I understand that the House and Senate are conferencing on 
this legislation and will be producing a conference report. If 
confirmed, I will review the language in the final conference report in 
light of a full understanding of the policies of the Department of the 
Interior on this complicated and important subject.
    Question 36b. Under existing law, does the National Park Service 
have a concurring role in developing the Operating Criteria?
    Answer. The National Park Service does not have a concurring role 
under current law. In 1992, Congress enacted the Grand Canyon 
Protection Act in response to concerns about the operation of Glen 
Canyon dam and its impact on the park resources. That Act requires the 
Secretary to ``operate Glen Canyon Dam in accordance with the 
additional criteria and operating plans specified in section 1804 
[related to operating criteria for the dam] and exercise other 
authorities under existing law in such a manner as to protect, mitigate 
adverse impacts to, and improve the values for which Grand Canyon 
National Park and Glen Canyon National Recreation Area were 
established, including, but not limited to natural and cultural 
resources and visitor use.'' The Act requires this provision to be 
implemented in a manner fully consistent with the law of the river. 
Where appropriate and in consideration of all of the interests, if 
confirmed I hope to work as part of the Department of the Interior team 
to contribute to the evaluation of operations of the Colorado River 
system. I would hope, through cooperation and excellent working 
relationships, that we can work to resolve these issues.
    Question 36c. In your opinion, would the House language, if 
implemented provide veto power over the development of Operating 
Criteria?
    Answer. I do not believe that the House report language could 
provide a veto power over the development of operating criteria. It is 
the responsibility of the Bureau of Reclamation to manage the dams 
within the authorities vested in the Secretary and, if confirmed, I 
look forward to working with the Department of the Interior and other 
interested groups to identify ways to meet all the responsibilities of 
the Secretary.
    Question 37a. In the Senate Energy and Natural Resources Committee 
yesterday, we talked about buffer zones and land management choices 
outside of national park boundaries. I appreciate your candor in your 
answers and I would like to give you an opportunity to reiterate what 
you said yesterday.
    In your opinion, what is the National Park Service's role and 
responsibility on management of matters outside park boundaries?
    Answer. The National Park Service has a role and responsibility to 
comment upon actions outside of park boundaries that could have an 
impact to park resources, and engage just as any good neighbor might 
do. We also strive to be involved in local communities by documenting 
the Service's concerns about actions on adjacent lands and sharing 
those concerns with interested parties as well as listening to the 
concerns of those who might be affected by our actions.
    Question 37b. What are your views on buffer zones?
    Answer. As I stated at my confirmation hearing, I am not a believer 
in buffer zones around the lands that we administer. The National Park 
Service does want to be part of the discussion regarding lands that are 
adjacent to, or nearby, National Park System units, just as any other 
landowner would.
    Question 38a. The visitor center at Timpanogos Cave National 
Monument in American Fork Canyon was destroyed by fire in 1991. 
Temporary trailers were brought in after the fire to serve as the 
visitor center and to provide other visitor services within the park. 
Today, those same temporary facilities remain in use. In 1993, the park 
completed its General Management Plan. The GMP called for the visitor 
center and other support facilities to be re-located outside of the 
canyon to reduce the risk to visitors and employees from falling rocks. 
In 2001, in order to facilitate the re-location of the visitor center 
outside of American Fork Canyon, I sponsored and Congress passed 
legislation (S. 1240) authorizing the NPS to build an interagency 
facility on land owned by the USFS at the mouth of American Fork 
Canyon.
    Is replacing the temporary visitor center at Timpanogos Cave NM 
still a priority for the NPS?
    Answer. I am told that replacing the temporary visitor center 
remains one of the Park Service's priorities. In fact, I understand 
that we recently conducted a public scoping meeting in the Timpanogos 
Cave Visitor Center about planning for facilities. The Park Service is 
proposing to construct a new cave trailhead visitor center, and an 
interagency center outside the mouth of the canyon in cooperation with 
the U.S. Forest Service. Other facility issues will also be examined 
including realignment of Utah Highway 92 and redesign of the parking 
area at the cave trailhead visitor center, removal of a residence and 
the existing visitor center/concessions to allow for additional 
parking, and many others.
    Question 38b. If this project is a priority, when might we see it 
included on the NPS construction priority list?
    Answer. Once the collaborative planning process for this project is 
completed, the Park Service will have more concrete estimates of the 
resources needed as well as estimates regarding the amount of time the 
required compliance and construction will require.
                                 ______
                                 
Responses of Warren F. Miller, Jr., to Questions From Senator Murkowski
                                  gnep
    Question 1. Last month, the Department of Energy formally canceled 
the Global Nuclear Energy Partnership (GNEP) and its attempt to develop 
technologies for spent nuclear fuel recycling. How does the 
cancellation of GNEP impact efforts to move spent fuel recycling 
forward? How does this impact the international portion of the GNEP 
program?
    Answer. I believe that spent nuclear fuel recycling holds great 
promise, and that the Department should continue to invest in it. As I 
understand it, the FY 2010 budget request in this area is focused on 
long-term, science-based research and development. I agree with the 
Secretary that this is the appropriate focus, and if I am confirmed, 
one of my highest priorities will be to advance recycling technologies 
that are superior to current technologies in terms of cost, 
proliferation resistance, and waste management. This is a critical 
component of a comprehensive strategy to address the back end of the 
fuel cycle. The domestic portion of the GNEP program had a different 
focus, on near-term, commercial-scale deployment of existing 
reprocessing technologies. With respect to the international aspect of 
GNEP, it is my understanding that the Department, working within the 
interagency process, is considering options for advancing the 
Administration's nonproliferation and energy priorities through its 
participation in the international activities of GNEP.
                               workforce
    Question 2. What suggestions do you have for Congress and the 
Department of Energy when it comes to the development of our future 
nuclear workforce?
    Answer. As we restart the nuclear industry in the United States, I 
think that the Department must play an active role in encouraging and 
helping young people to pursue educational pathways that will prepare 
them to build and operate the next generation of nuclear reactors. 
While I am not familiar with the details of the DOE's programs, I do 
believe that the President and the Secretary are committed to science 
and education. For example, the Department has proposed an initiative 
in the FY 2010 budget--known as RE-ENERGYSE (REgaining our ENERGY 
Science and Engineering Edge)--that would be jointly funded by the 
Department of Energy and the National Science Foundation. This program 
would include: energy research opportunities for undergraduates; 
educational opportunities for women and underrepresented minorities who 
seek careers in the clean energy sector; partnerships between industry 
and two-year and four-year colleges to strengthen education for 
technicians in the clean energy sector, focusing on curriculum 
development, teacher training, and career pathways from high schools to 
community colleges; interdisciplinary energy graduate programs at the 
master's and Ph.D. level that integrate science, engineering, 
entrepreneurship, and public policy; individual fellowships to graduate 
students and postdoctoral researchers involved in the frontiers of 
clean energy research. This type of program, combined with continued 
support for current initiatives, will be important to developing our 
future nuclear workforce.
                             climate change
    Question 3. Do you believe that nuclear energy must be part of the 
solution in addressing climate change?
    Answer. Yes, I do.
                        future of nuclear power
    Question 4. When looking at nuclear power's contribution to this 
nation's future electricity needs, how much focus should be placed on 
finding ways to extend the life of the current fleet of light water 
reactors, versus the construction of new reactors?
    Answer. It is my understanding that the current fleet of reactors 
is in the process of license extensions with the NRC, and that some 
have already been granted. These existing plants provide lowcost, low-
carbon power, and I think it is in our interest to utilize them to the 
extent that we can do so in a safe manner. There will be some limit to 
the lifetime of these plants, which is one of the reasons that I think 
it is important to move forward with restarting the nuclear industry 
and getting new reactors financed, licensed, and constructed. I know 
that this is a priority for Secretary Chu, and it will be one of my 
highest priorities if I am confirmed.
                            repository sites
    Question 5. The Swedish Nuclear Fuel and Waste Management Company 
recently announced the selection of a permanent geologic repository 
site for spent nuclear fuel, subject to government approval. The site 
selected has the support of 80% of the population in the local 
municipality. When it comes to the disposition of our spent nuclear 
fuel, what lessons can the United States learn from other nation's 
efforts to find a geologic repository and their selection process?
    Answer. As we discussed at the hearing, Secretary Chu has indicated 
that he will convene a blue ribbon panel to make recommendations about 
a path forward on nuclear waste management and disposal. If I am 
confirmed, I plan to work with this panel, and it's my view that both 
the panel and the Department should examine both successes like the 
Swedish experience as well as failures to inform the development of a 
new strategy and process for siting a repository.
                                storage
    Question 6. Do you agree with the Nuclear Regulatory Commission's 
proposed finding that spent nuclear fuel can safely be stored on-site 
for 60 years beyond the licensed life of operation of a nuclear 
reactor? Should spent nuclear fuel be stored at over 100 locations 
across the nation for 60 years beyond a reactor's licensed life?
    Answer. I do believe that spent nuclear fuel can be safely stored 
in dry casks for a long period of time. The question of whether the 
spent fuel should stay on site in dry casks or whether other 
arrangements should be made is an issue that I expect the blue ribbon 
panel will examine when it begins its work. I do not want to prejudge 
the panel's deliberation, but it is certainly an issue that I believe 
deserves careful consideration, and something that I would examine 
closely if I am confirmed.
                           spent nuclear fuel
    Question 7. Do you support the recycling of spent nuclear fuel? 
What role can/should recycled nuclear fuel play in meeting the nuclear 
power industry's future fuel needs?
    Answer. As noted above, I believe that spent nuclear fuel recycling 
holds great promise, and that the Department should continue to invest 
in it. As I understand it, the FY 2010 budget request in this area is 
focused on long-term, science-based research and development. I agree 
with the Secretary that this is the appropriate focus, and if I am 
confirmed, one of my highest priorities will be to advance recycling 
technologies that are superior to current technologies in terms of 
cost, proliferation resistance, and waste management. This is a 
critical component of a comprehensive strategy to address the back end 
of the fuel cycle.
                               budgeting
    Question 8. Is the President's Fiscal Year 2010 budget request for 
the Office of Civilian Radioactive Waste Management (OCRWM) adequate to 
respond to Nuclear Regulatory Commission questions about the Yucca 
Mountain license application? What impact will the President's FY2010 
budget request for ORCWM operations have on Department of Energy 
employees and contract employees compared to FY2009 funding?
    Answer. As I understand it, the Administration's FY 2010 budget 
request expresses an intent to terminate the Yucca Mountain program 
while developing nuclear waste disposal alternatives. All funding for 
development of the Yucca Mountain facility will be eliminated, such as 
further land acquisition, transportation access, and additional 
engineering. With respect to impacts on DOE employees and contract 
employees, I do not have those details, but it is my understanding that 
the budget request includes the minimal funding needed to explore 
alternatives for nuclear waste disposal and to continue participation 
in the Nuclear Regulatory Commission license application process.
                                uranium
    Question 9. On December 16, 2008, the DOE adopted a policy with 
regard to the disposal and sale of excess government uranium 
inventories. The policy was entitled the ``Excess Uranium Inventory 
Plan''. The DOE has uranium inventories in various forms and assays. 
Current law requires that these inventories not be sold if such sales 
would adversely impact the domestic uranium, conversion, and enrichment 
industries. This policy resulted from an effort to address the 
Department's program needs and pursuant to extensive discussions with 
interested stakeholders including the front end fuel cycle suppliers 
and the nuclear utility industry. The stakeholders group, at DOE's 
urging, put together a consensus agreement on how the excess inventory 
should come into the commercial market.
    Are you familiar with this policy and do you believe it represents 
a tenable path forward for the sales of excess government uranium 
inventories?
    Answer. At this point, I am only generally familiar with the 
Department's policy as set out in its U.S. Department of Energy Excess 
Uranium Inventory Management Plan. As I understand it, the plan was 
intended to provide the general public and interested stakeholders 
specific information and transparency with respect to DOE's preliminary 
plans for its excess uranium. I think that a defined and transparent 
program should be the goal. If I am confirmed I will examine this issue 
carefully and work closely with you on this important issue.
  Response of Warren F. Miller, Jr., to Question From Senator Barrasso
    Developing our domestic uranium resources creates good-paying 
American jobs. It also lessens our dependence on foreign sources of 
energy.
    In 2007, a group of Senators wrote to the Secretary of Energy 
expressing concerns with the Department of Energy's plan for selling 
its excess uranium inventories on the open market without consideration 
for domestic uranium producers. The Department of Energy sat down with 
stakeholders to craft a comprehensive, consensus plan for managing the 
disposition of DOE's excess uranium.
    DOE issued its Excess Uranium Inventory Management Plan last year. 
The Plan allows the Department to maximize the return for the U.S. 
Government for sales of its uranium without jeopardizing American 
mining jobs. It also ensures that the Department of Energy is following 
the requirements for government inventory sales set forth in the U.S. 
Enrichment Corporation Privatization Act of 1996.
    Question 1a. Do you believe that the domestic uranium mining 
industry is important for promoting American energy independence and 
providing good-paying American jobs?
    Answer. Yes, the domestic uranium mining industry is important to 
the US economy and the domestic energy sector.
    Question 1b. Do you agree that DOE should follow a clearly defined 
plan for management and disposition of its excess uranium supplies?
    Answer. Yes, I agree the Department's plans for managing and 
disposing of its excess uranium supplies should be well defined and 
transparent.
    Question 1c. If confirmed, will you support the Excess Uranium 
Inventory Management Plan put together by a comprehensive, consensus 
effort over the last couple years?
    Answer. I am only generally familiar with the plan at this time, 
but if I am confirmed I will examine this issue carefully and work 
closely with you on this important issue.
                                 ______
                                 
  Responses of James J. Markowsky to Questions From Senator Murkowski
                      future role for fossil fuels
    Question 1. Fossil fuels currently account for about 85 percent of 
domestic and worldwide energy consumption. What do you think the role 
of fossil fuels will be 25 years from now, domestically and 
internationally, and can you give us your thoughts about a transition?
    Answer. I strongly believe that we need a diversified fuel mix for 
years to come. We should continue to invest in renewable sources of 
energy and nuclear, but fossil fuels are and will continue to be a 
major part of our fuel mix. We have tremendous coal reserves, and as 
Secretary Chu has said, even if we decided to stop using coal, China 
and India will not turn their backs on coal. I agree, and I think we 
need to find a way to use coal and other fossil fuels in a cleaner way. 
If confirmed, one of my top priorities will be to build on the 
investments of the previous Clean Coal Power Initiatives and continue 
to develop and demonstrate technologies that can be installed as 
retrofits on existing plants as well as advanced technologies for new 
coal based power plants, so they will be ready for use as the existing 
coal fleet ages. Additionally, as we develop these technologies, we can 
export them to other countries, aiding both our economic prosperity and 
an international transition to cleaner fuels.
                          arctic energy office
    Question 2. For the past eight years, DOE's fossil energy budget 
has supported an Arctic Energy Office in Alaska based in Fairbanks. The 
office has done great research on heavy oil production, methane hydrate 
production, northern coal development, some CCS work involving coal and 
enhanced oil recovery, and a host of other areas. The budget, which has 
ranged from $7 million to this year's $3.8 million, has never been 
incorporated into the Department's budget plan, but always has been 
funded by Congressional add on. This Senate committee in its proposed 
energy bill has reauthorized the office and actually increased its 
authorized spending levels, but the Administration in its FY 10 budget 
proposed no funding at all for the office's work to continue. The 
future for earmarks, given the President's strong objections to them, 
is that depending on them for funding of programs is unwise. I am very 
interested in your views of the office, whether you will support 
funding reallocations in the DOE budget, if confirmed, to continue the 
office's work in northern climates, and whether you would support 
expanding the scope of the office work product from just fossil energy 
to all types of energy, including all types of renewable energy and 
energy efficiency?
    Answer. I believe that the types of research you mention above are 
valuable and plan to support them going forward. If confirmed, I commit 
to taking a close look at the Arctic Energy Office and hope I can work 
with your office to assess how it may fit into future budget requests.
                   futuregen costs and effectiveness
    Question 3. FutureGen was envisioned as a 275 megawatt, near zero-
emissions power plant. It was cancelled by the Bush Administration 
because its price nearly doubled to $1.8 billion. That cost estimate 
has increased further to $2.4 billion and, despite $1 billion provided 
through the Stimulus, a funding shortage of $700 million remains. 
Furthermore, a plant that was supposed to operate at a 90% capture rate 
will now only achieve 60%.
    You spent almost 30 years at American Electric Power, a company 
that has chosen to drop out of the FutureGen Alliance. With that 
perspective, and understanding the record deficits this country faces, 
do you believe that FutureGen is the most efficient use of taxpayer 
dollars to advance carbon capture and sequestration technologies?
    Answer. In my opinion, the FutureGen project has a high potential 
value as an investment in a large scale demonstration facility with 
fully integrated CCS technology that can provide us with critical 
scientific and commercial knowledge and assurance going forward. There 
been significant uncertainty about the cost of the project. As I 
understand it, the Department is currently proceeding to complete 
project design and engineering work while gathering additional cost 
data, including actual price quotes, to get a more definitive picture 
of what the project will cost. This process will occur over roughly the 
next six months and should reveal what size, if any, funding gap 
exists. Only after all these data have been collected and considered 
will a final determination on whether or not to proceed be made. If 
confirmed, I will be closely involved in the project.
    As for the capture percentage, my understanding is that the 
ultimate goal of capturing 90% has not changed. What has changed is 
that the project would begin with a target of 60% capture to improve 
reliability in the early phases of the project.
                     unconventional oil production
    Question 4. One area where hard-to-find oil has seen improved 
access is in deepwater and ultra-deepwater. In what would be your 
office's ultra-deep oil and gas research program, the mission is to 
``maximize the value of natural gas and other petroleum resources of 
the United States by increasing resource supplies, reducing the cost 
and enhancing the efficiency of exploration and production, improving 
safety, and minimizing environmental impacts.'' Can you tell me how you 
view the future of this program, and whether the current state of 
research is indeed achieving this mission?
    Answer. Deepwater and ultra-deepwater drilling will be an 
increasingly important technology in the coming years as the technology 
improves and as we exhaust more easily reachable supplies of oil and 
natural gas. At this time, I do not have a view on the state of 
research in this area, but if confirmed I will examine the issue 
closely and advocate for any changes in direction or resources that I 
believe are needed to achieve the mission of the program.
                           enhanced recovery
    Question 5. The DOE's CO<INF>2</INF> reinjection programs are 
intended to enable enhanced recovery of the nation's ``stranded'' oil 
resources--in other words, oil that is deep in a reservoir that can't 
be accessed without stimulation from injections of this greenhouse gas. 
Your office will try to scout out possible candidate locations for 
future CO<INF>2</INF> enhanced oil recovery using CO<INF>2</INF> from 
industrial sources as well as geologic sources. There's a great deal of 
interest in whether we can make this kind of operation a win-win for 
efforts to reduce emissions and the upstream oil and gas companies who 
have pioneered the process of re-injecting the CO<INF>2</INF> for EOR. 
Do you think that this activity should qualify as an offset of 
emissions in a cap and trade framework?
    Answer. I agree that EOR is a great opportunity to find a win-win 
for both oil production and sequestering CO<INF>2</INF>. Current 
technology leaves upwards of 50% of oil in drilled wells and, 
considering our energy needs, finding ways to increase oil output is a 
critical goal. While I would need to take a closer look at the offset 
issue before making a policy call on how EOR should be treated, I 
certainly support efforts to make CO<INF>2</INF> a value-added product 
rather than a costly waste.
                             royalty relief
    Question 6. I'd like to explore the motivations behind the 
``reducing the cost of exploration and production'' element of your 
mission. Do you consider the concept of royalty relief to be a useful 
means in reducing costs? In other words, can the profitability of a 
frontier field be achieved when we seem to be entertaining a 
counterproductive system of subsidizing research and technology while 
charging higher royalties and taxes?
    Answer. There is a legitimate question of balancing the need to 
reduce the cost of exploration and production with an appropriate 
assessment of fees for the use of public lands. As I understand it, the 
Department of the Interior has the responsibility for setting royalty 
rates, and I look forward to working with the Minerals Management 
Service on this issue.
              return on coal-fired efficiency investments
    Question 7. A 275 megawatt coal-fired plant with a capacity factor 
of 65% and a 90% carbon capture rate could generate 1,565,850 megawatt 
hours per year and avoid the emission of 1 million metric tons of 
CO<INF>2</INF> per year. Let's assume such a plant costs $2 billion to 
build. If that same $2 billion were spent on efficiency improvements at 
existing coal-fired power plants, you could get an additional 18.5 
billion kilowatt hours per year in generation and a reduction in 
CO<INF>2</INF> emissions of 4 million metric tons per year.
    CO<INF>2</INF> emissions from the existing fleet can be dealt with 
through capture and sequestration retrofits, through efficiency 
improvements, or by shutting them down. The previous Administration 
sought to zero out funding for improvements at existing plants. Based 
on the calculations above, and the urgency of not only reducing 
CO<INF>2</INF> emissions but meeting electric demand growth as well, do 
you believe it was short-sighted from an environmental or economic 
perspective to seek to zero out funding for improvements at existing 
plants?
    Answer. I think that the type of project you describe does have 
merit, in that we're going to need to develop a suite of technologies 
to reduce carbon emissions from coal-fired power plants, both new and 
existing. However, you rightly point out that there are opportunities 
for reducing carbon emissions at existing plants in a cost-effective 
way by improving efficiency of the current fleet. I believe that 
efficiency improvement such as on-line performance monitoring in order 
to maintain the plant closer to design heat rate along with retrofits 
such as installing new high efficiency first stage HPT steam turbine 
blades, on line cleaning main condensers, retrofitting with variable 
speed drive motors ,installing new cooling tower film packs, adding 
extra airhearter surface in the boiler,etc, can improve plant 
efficiency by between 3 to 5 percent can be achieved today. These are 
important actions that plant operators can take now and I plan to look 
hard to other performance enhancement options for the existing fleet of 
plants.
                       domestic energy production
    Question 8a. In the DOE Office of Oil and Natural Gas, the stated 
mission is to ensure clean, reliable, and affordable supplies of oil 
and natural gas for American consumers. I have two important and simple 
questions about this.
    Do you agree that a ``clean'' energy future is compatible with 
ensuring reliable and affordable domestic supplies of oil and gas for 
American consumers?
    Answer. Yes, I believe that we can find ways to use our fossil 
fuels more cleanly, ensuring both a cleaner future and a reliable and 
cost-competitive supply.
    Question 8b. Do you anticipate that America's overall oil 
production will increase or decrease under this Administration's 
current four-year term, and which scenario would you most prefer?
    Answer. I don't have a view at this point about where production is 
headed over the next four years because there are many factors that 
impact that outcome, but I do believe that increased domestic 
production would be preferable, all other things equal.
    Response of James J. Markowsky to Question From Senator Barrasso
    Question 1a. The Fossil Energy office will play a critical role in 
making American energy cleaner and more reliable. Developing and 
deploying clean coal technology is an essential part of this process. 
Folks in Wyoming are leading the way in developing this technology.
    The State of Wyoming has partnered with the private sector and 
academia to make American energy cleaner and more efficient. Just last 
month, the University of Wyoming and GE Energy announced the site for 
the High Plains Gasification-Advanced Technology Center. This facility 
will use $100 million investment from the State and the private sector 
to advance clean coal technology.
    What are your goals for the Fossil Energy Office as it relates to 
clean coal and carbon capture and sequestration technologies?
    Answer. If confirmed, clean coal will be a major priority of mine. 
I believe the projects funded by the Fossil Energy Office in previous 
rounds of the Clean Coal Power Initiative are important investments 
that need to be sustained and built upon in the future. Between CCPI, 
FutureGen, and other projects, my goal is to help create breakthroughs 
in CCS that can lead to commercial deployment so that coal remains a 
competitive option for decades to come.
    Question 1b. Do you believe the U.S. has the responsibility to be a 
global leader in developing this technology?
    Answer. Yes, our leadership can help drive both the development and 
deployment world wide.
   Responses of James J. Markowsky to Questions From Senator Shaheen
    Question 1. Much attention has been focused on the development and 
deployment of carbon capture and storage technologies at new coal-fired 
facilities. I think these technologies are an important part of our 
country's energy future and, as we development them here, it is my hope 
we will be able to export them to other countries who burn a lot of 
coal. However, not much attention is given to the retrofit of existing 
pulverized coal plants here in the U.S. with carbon capture technology. 
Do you have an opinion on the feasibility of retrofitting existing 
coal-fired plants with CCS technologies? Is this an area that you think 
should receive some attention by the Office of Fossil Energy?
    Answer. Yes, I believe that in addition to building new cleaner 
coal plants, we should invest in retrofitting existing plants to 
capture emissions. If confirmed, I do hope to take a close look at how 
we can meet this challenge.
    Question 2. While research is an important component of technology 
development, will you help move the Department to think about 
technology deployment and helping industry execute key administration 
goals rather than focusing on laboratory research?
    Answer. RD&D are all critically important. We need more research 
and development on clean coal and other technologies, and yes, we do 
need to work on deployment as well. I believe that FutureGen can be 
both a research facility to help us find solutions and collect data as 
well as a path forward on deployment of CCS technology.
    Question 3. Fossil Energy has developed significant pollution 
control technologies however their use comes with considerable energy 
penalties, reducing the efficiency of power plants and resulting in 
increased carbon dioxide emissions. Will your leadership also include 
addressing the energy efficiency of pollution control equipment?
    Answer. I am a strong supporter of increased efficiency, with 
respect to both generation and pollution control technologies.
    Question 4. Will you focus research efforts on decreasing pollution 
from fossil fuel use?
    Answer. Yes.
    Question 5. While biomass is an element of the renewable energy 
portfolio, biomass-to-power technologies overlap with fossil fuels and 
in many cases large opportunities come from repowering fossil fuel 
power plants with biomass. Can you address how you will interact with 
EERE to identify and promote biomass-to-power technologies and projects 
and assure us that inter-jurisdictional issues won't be lost in the 
cracks?
    Answer. I know that a number of projects have been proposed 
recently that combined both biomass and coal or coal-to-liquids, and 
these projects can be an important part of using coal more cleanly. If 
confirmed, I plan to work closely with Under Secretary Johnson and with 
Assistant Secretary Zoi to make sure that we have a cohesive strategy 
on interdisciplinary projects.
                                 ______
                                 
   Responses of Anthony M. Babauta to Questions From Senator Bingaman
           interagency policy development and implementation
    Question 1. The current interagency structure for assisting in the 
development, coordination, and implementation of territorial policy 
under Executive Order 13299 has proven to be ineffective because it 
does not provide a specific role for White House officials. As a 
result, in recent years many of the challenges facing the islands have 
not gotten the Federal attention and response they deserve.
    Can you assure the Committee that this Executive Order is under 
review, and that it will be amended to make Executive Branch responses 
to territorial issues more effective by requiring engagement by White 
House officials?
    Answer. The Interagency Group on Insular Areas (IGIA) has been an 
effective forum for raising issues within the Executive branch that are 
important to island leaders. The purpose of the IGIA is to better 
coordinate action on island issues among Federal agencies, and the 
White House is usually represented at meetings of the full IGIA. The 
issue of greater White House involvement in the IGIA is currently under 
review within the Administration.
                            cnmi immigration
    Question 2. In May, 2008, President Bush signed legislation to 
extend U.S. immigration laws to the CNMI. On June 15 of this year, I 
signed a letter with Senate and House colleagues to the Secretaries of 
the Interior and Homeland Security expressing concern regarding 
implementation of this law. The letter requested prompt action in four 
areas.
    When can Congress expect a response to this letter, including a 
progress report on the requested ``action'' items?
    Answer. Because two agencies are involved, additional coordination 
was necessary. It is expected that the response will be sent soon.
                        samoa and cnmi economies
    Question 3. The CNMI economy has contracted by about 40 percent in 
the past few years because of changes in international trade 
agreements. The economy of American Samoa is expected to contract by a 
similar amount in the next few years because of the departure of one of 
the two tuna canneries located there.
    Can you assure the Committee of the Department's, and the 
Administration's commitment to promoting sustainable economies in these 
communities?
    Answer. If confirmed, I can assure you that economic development 
will be at the forefront of Interior's agenda for the insular areas. 
Special attention will be paid to American Samoa and the Commonwealth 
of the Northern Mariana Islands because of the severe economic 
conditions the two territories are currently experiencing.
                             palau compact
    Question 4. The 15-year assistance agreement between the U.S. and 
the Republic of Palau expires on September 31, 2009. Legislation is now 
under consideration that would extend financial assistance to Palau for 
an additional year. This extension would provide time for the U.S. and 
Palau to complete discussions on future assistance, for the 
Administration to transmit legislation on future assistance, and for 
Congress to consider and enact such legislation.
    Can you assure the Committee that such legislation will be 
transmitted to the Congress by the end of 2009, so that there will be 
sufficient time for Congress to enact it before the new, September 31, 
2010 deadline?
    Answer. Under Public Law 99-658, the Department of the Interior is 
responsible for funds appropriated for Palau. The Department of State 
is responsible for government-to-government relations with Palau, and 
is therefore, is the lead agency regarding review of the Compact of 
Free Association. Since Interior is not the lead agency, I am not 
empowered to give the assurance that you request. I will however, if 
confirmed, work with our partners to complete the necessary reviews of 
the Compact in a timely manner.
    Meetings have been held involving the Departments of State and the 
Interior and the Government of Palau. The participants in these 
meetings are working conscientiously to meet your timeline for 
submitting to the Congress any legislation that may result from this 
review effort.
  Responses of Anthony M. Babauta to Questions From Senator Murkowski
                          pending legislation
    Question 5. In the energy bill recently passed out of this 
committee, we included an Island Energy section to establish a team 
within the Department of Energy to provide technical, policy, and 
financial assistance to the affiliated-islands to help reduce their 
reliance on imported fossil fuels. The House included similar language 
in its climate change bill. Should this provision be enacted into law, 
what role can the Office of Insular Affairs play in helping the Island 
Energy team be successful?
    Answer. If confirmed as Assistant Secretary of the Interior for 
Insular Areas, I would seek to have the Office of Insular Affairs work 
collaboratively with the Department of Energy to expedite the 
implementation of promising technology that will help reduce the 
insular areas' reliance on imported fossil fuels. Additionally, the 
Office of Insular Affairs has been engaged with insular government 
leaders and officials at the Department of Energy on how best to apply 
cutting edge green energy technology in the islands. I would expect 
that energy initiatives of the Department of the Interior would 
complement the work of the Department of Energy.
                                  igia
    Question 6. Do you view the current Inter-Agency Group on Insular 
Areas (IGIA) process to be effective? How can it be improved?
    Answer. The current Interagency Group on Insular Areas (IGIA) has 
been an effective forum for raising issues within the Executive branch 
that are important to island leaders.
    The purpose of the IGIA is to better coordinate action on island 
issues among Federal agencies, and the White House is usually 
represented at meetings of the full IGIA. While the IGIA brings agency 
representatives together, active high-level White House participation 
could bring solution to more issues. Administration officials are 
considering more White House participation.
    Additionally, the regular utilization of sub-groups (task forces) 
for the consideration of specific issues would likely yield improved 
results. A task force has been established to address the needs of the 
civilian sector of Guam that are related to the Guam military build-up. 
Additionally, a sub-group called the Interagency Coordinated Assets for 
Insular Health Response was established for health care issues in the 
islands, and at the end of June a subgroup began renewed coordination 
of agency actions with regard to implementation of new Federal law on 
immigration in the Commonwealth of the Northern Mariana Islands.
                                compacts
    Question 7. The Department of the Interior is charged with the 
administration and oversight of federal assistance provided to the 
Marshall Islands, Federated States of Micronesia, and Palau under their 
respective Compacts of Free Association with the United States. 
Congress recently renewed Compact funding for the Marshall Islands and 
the FSM, and a 15-year review is underway of Palau's Compact.
    Can you assure this Committee that U.S. taxpayer dollars are 
being--and will continue to be--spent in accordance with the intent of 
the various provisions of the Compacts?
    Answer. The existing Compact of Free Association between the United 
States and Palau is generally viewed as a success. Palau and the 
Administration are currently conducting the 15-year review of the 
Compact's financial provisions.
    The amended Compacts of Free Association between the United States 
and the Federated States of Micronesia and the Republic of the Marshall 
Islands require that activities be reviewed every five years during the 
life of each Compact. The first of these reviews is underway. With the 
Department of the Interior's responsibility for Compact funding, I can 
assure you that, if confirmed, I will work closely with the island 
leaders and our sister agencies in the Federal government toward 
achieving the goals of the Compacts of Free Association.
                              Appendix II

              Additional Material Submitted for the Record

                              ----------                              

       Statement of the Derrick A. Crandall, President, American 
                          Recreation Coalition
    The American Recreation Coalition wishes to express its strong 
support for the President's nomination of Jon Jarvis to serve as the 
next Director of the National Park Service and to urge the Senate to 
confirm him promptly for this important post.
    America's national parks are special places for fun, for learning 
and for connections--connections to America's history and values and 
traditions. Each year, some 275 million visits are made to the nearly 
400 units of the system and the more than 80 million acres of those 
units. This is a challenge. But we believe, and we know Jon Jarvis also 
believes, that the greater challenge is to expand this connection 
between our park units and all Americans. Today, not all Americans 
fully benefit from this wondrous legacy. Poor Americans, urban 
Americans and Americans of color are less likely to know about and 
experience the glories of the Grand Canyon or lessons of Gettysburg. In 
fact, the percentage of Americans visiting our parks has declined 
substantially over twenty years.
    The National Park Service is fast approaching its 100th 
anniversary. It was given a demanding charge by the Congress in 1916: 
``conserving their scenery, wildlife, and natural and historic objects, 
and providing for their enjoyment in a manner that will leave them 
unimpaired for the enjoyment of future generations.'' This charge has 
not become easier as the population of the United States has grown to 
more than 300 million, and as pressures beyond and within the parks 
have generated new and contentious issues of management.
    The agency needs leadership that can look ahead, and respond to 
changes in technology and the economy and lifestyles proactively. It 
needs leadership like that provided by its first director, Stephen 
Mather, who protected park resources but also took actions which made 
the parks visible and beloved.
    Jon Jarvis possesses the passion, the vision, the intellect and the 
experience to be an extraordinary National Park Service Director. We 
believe that he has the capacity to respond to today's challenges not 
by fighting fires but by changing paradigms. We have watched Jon in his 
career and have admired not only what he has himself led and 
accomplished but what he has nurtured through support of innovation and 
action by superintendents and others he has supervised. We believe that 
partnership-based programs at Golden Gate National Recreation Area, at 
Yosemite National Park, at Santa Monica Mountains National Recreation 
Area and at Lake Mead National Recreation Area are reflective of the 
efforts which can make certain that 100 years from now, as the agency 
approaches its 200th anniversary, the National Park System is as 
beloved and beneficial to the nation as it is today.
    We believe that actions to prepare the national parks for the 
challenges of the next century are overdue and urgent. The agency, and 
the nation, need a leader who understands the resources and the limits 
of the National Park Service and will welcome and empower the agency's 
allies and supporters: non-profits and corporations, individuals and 
state and local governments. Yet operating successfully in the world of 
partnerships and cooperation requires a leader with core values and 
perspective, one who has the respect of those who have worked with him 
in the past and who can recruit and be trusted by those who bring new 
assets to the national parks. We believe that the nation is fortunate 
to have the talent of Jon Jarvis to lead the agency as it nears its 
100th anniversary.
                                 ______
                                 
      Statement of Mike Tollefson, President, The Yosemite Fund, 
                           San Francisco, CA
    I am writing to endorse Jonathan Jarvis for Director of the 
National Park Service. I have worked with him as a champion and steward 
of our National Park resources for the past twenty years.
    Jon is a particularly effective public servant. His command of 
environmental policy, issues and stewardship, and sensitivity to the 
challenge of preservation and use is unparalleled. His professional and 
personal pursuits cover the entire spectrum of environmental concerns, 
with particular focus on resource management. He has extensive 
knowledge and experience in the public, private and non-profit sectors. 
He has worked tirelessly to achieve solutions to perplexing problems 
through collaboration and partnerships as well as through independent 
and task force based methodology.
    Jon Jarvis has tremendous drive, passion for the National Park 
system, and ability to work long and hard in the public interest. I 
heartily endorse his candidacy and look forward to working with him as 
Director of the National Park Service.
                                 ______
                                 
   Statement of Lillian Kawasaki, President and Co-Chair, Friends of 
                       Manzanar, Independence, CA
    On behalf of Friends of Manzanar, I am writing to urge your 
confirmation of Jon Jarvis as the next Director for the National Park 
Service. Mr. Jarvis is an inspirational leader with a long and 
distinguished career and an excellent choice to lead the Park Service 
into its next century.
    Friends of Manzanar works with the National Park Service and other 
interested groups to preserve and restore the Manzanar site, and to 
interpret its stories, resources and lessons, for this and future 
generations. Friends is a publicly supported charity exempt from 
taxation under Internal Revenue Code section 501(c)(3). Mr. Jarvis has 
been a strong supporter of Manzanar and other similar camps and 
facilities, where Japanese Americans were interned during World War II. 
We appreciate not only his dedication, but the passion with which he 
conducts his work.
    We are grateful for the opportunity to express our deep support for 
Jon Jarvis.
    Thank you for your consideration. If you have any questions or 
would like further information, please feel free to contact me at 
562.754.8850.
                                 ______
                                 
Statement of Hon. Madeleine Z. Bordallo, Delegate From Guam, U.S. House 
                           of Representatives
    Good morning, Mr. Chairman and Senator Murkowski, and distinguished 
Senators of this Committee. It is a privilege to appear before you 
today on behalf of our community on Guam to share with you a few words 
of support for Tony Bahauta, a native son of Guam, who has been 
nominated by President Obama as an Assistant Secretary of the Interior 
for Insular Areas.
    Today is a very proud day for our community, and I am joined here 
at this confirmation hearing by many from Guam. I want to recognize 
Senator Tina Muna Barnes and Senator Frank Bias, Junior and I request 
that the Resolution of support from the 30th Guam Legislature be 
included in the record.
    I commend President Obama for elevating this position to an 
Assistant Secretary. Tony is the most capable person to fill this 
elevated position.
    Tony grew up on Guam and the mainland. He is the son of Antonio and 
Mary Babauta, of Agat. His father is a retired United States Navy 
officer. He also carries with him the proud traditions of the Chamorro 
culture.
    I have known Tony for more than 20 years. Our association began 
when he worked for me when I served as a Senator in the 20th Guam 
Legislature. Tony has many years of service on the professional staff 
of the Guam Legislature. During his service at the Guam Legislature. 
Tony earned the respect of Senators in both parties. He subsequently 
went on to work here in the nation's capital as a Legislative Assistant 
to my predecessor, Congressman Robert Underwood. Ten years ago, Tony 
was appointed to serve on the professional staff of the House Committee 
on Natural Resources by then Ranking Member George Miller. Chairman 
Nick Rahall increased Tony's responsibilities and in the 110th Congress 
he was appointed as staff director for the Subcommittee on Insular 
Affairs.
    Tony has a wealth of experience and the knowledge of policy to help 
the Obama Administration with their work in the territories and the 
freely associated states.
    Tony has shown us he is more than capable in fulfilling the 
interests of the country in handling these issues for the 
Administration. I know that he will work well with Secretary Salazar.
    On behalf of the people of Guam, I urge you to favorably report the 
nomination of Tony Babauta to full Senate with the recommendation that 
he been confirmed without hesitation. Lastly, today, here with him, are 
his lovely wife, Barb, and their daughter, Gabriella. As we say on 
Guam, Si Yu'os Ma' ase, meaning thank you, for having me appear before 
you today.
                                 ______
                                 
  Statement of Jenn Dice, Government Affairs Director, International 
                 Mountain Bicycling Association (IMBA)
    On behalf of the International Mountain Bicycling Association 
(IMBA) and its 80,000 supporters and 750 clubs, IMBA is pleased to 
support and recommend the appointment of Jon Jarvis as director of the 
National Park Service.
    Mr. Jarvis has a strong and diverse background in national parks 
management. His commitment to the park service mission is unwavering, 
and he is an inspiring and steady leader. Mr. Jarvis is a dedicated 
protector of park natural and cultural resources while at the same time 
he understands the importance of providing the opportunity for high 
quality outdoor recreation.
    Mr. Jarvis is an ardent supporter of aligning the younger 
generation to the park mission and natural resources and is 
particularly sensitive to the role that parks must play in inspiring 
healthy life styles. Mr. Jarvis will help make national parks more 
relevant to today's youth. He knows the importance of weaning kids away 
from video games and getting them connected to the outdoors.
    Mr. Jarvis has shown a strong commitment to the execution of 
partnerships and has been successful in working with regional and state 
public land agencies in providing a seamless system of park services to 
the public. He knows the importance of citizen participation in park 
decision-making and always strives for the greatest amount of openness 
and disclosure in planning processes.
    IMBA recommends and supports Jon Jarvis without exception to be the 
next director of the National Park Service.
                                 ______
                                 
  Statement of Bruce Bustamante, Vice President Community and Public 
                 Affairs, Princess Tours, Anchorage, AK
    I am pleased to learn that Jon Jarvis has been nominated for the 
position of Director, National Park Service. We understand Mr. Jarvis 
has a solid working history in the National Park system and earlier in 
his career he was the Superintendent at Wrangell-St. Elias National 
Park. Princess Cruises & Tours has a significant investment in Alaska 
and partnering and stewardship of the parks in Alaska is of significant 
interest to our company and our visitors.
    Alaska's public lands and in particular, its National Parks, have 
great interest for visitors to the State. To have a director with 
handS-on experience in Alaska is extremely beneficial since over 60 
percent of National Parks in the United States are within Alaska's 
borders.
    Mr. Jarvis' experience in Alaska will be greatly beneficial to the 
National Park Service since he is familiar with key constituents, 
Alaska National Interest Land Conservation Act (ANILCA) and the 
specific needs of our parks. This level of understanding and knowledge 
of Alaska's parks is extremely beneficial at such a high level.
    Please consider this as letter of support for Mr. Jarvis in the 
very important role of National Parks Director.
                                 ______
                                 
      Statement of Sally Jewell, President & CEO, REI, Sumner, WA
    It is with great pleasure that I write this letter with 
enthusiastic support for the nomination of Jon Jarvis to head the 
National Park Service.
    My relationship with Mr. Jarvis comes from multiple angles. As a 
business executive who is engaged in supporting our national parks, as 
a board member of the National Parks Conservation Association (NPCA), 
as a member of the National Parks Second Century Commission, as a 
mother of a son who volunteered as a ranger in Mt. Rainier National 
Park for three years, and finally as a long-term visitor to national 
park sites across the country.
    Professionally, I serve as president and CEO of REI (Recreational 
Equipment, Incorporated), one of the nation's largest outdoor gear and 
apparel retailers and the country's largest consumer cooperative. Our 
customers and members depend on public lands for recreation, renewal 
and a connection to nature and history. Our national parks represent 
the most critical of these places and their long term stewardship is 
vital to the long-term health of our eco-systems and preservation of 
our history and culture. In serving on the NPCA board for the past four 
years, I have come to better understand the challenges that face our 
national parks, and the priorities that require our attention.
    Over the past year, I have had the pleasure of serving under the 
leadership of retired senators Howard Baker and Bennett Johnston on the 
National Parks Second Century Commission. In this process, we have 
worked closely with a diverse, committed and thoughtful group of 
leaders from across the country to understand the challenges and 
opportunities facing our national parks, crafting recommendations to be 
released this fall to Congress, leaders in the Administration and the 
public. Throughout this process, Jon Jarvis has been at every meeting, 
providing many tangible examples of how the National Park Service (NPS) 
operates today and how we might evolve the service for the future.
    Leading the NPS requires thoughtful, flexible leadership. It is 
very difficult to lead a public lands agency without controversy, and 
the NPS is no exception. In our work on the Second Century Commission, 
I have come to appreciate that the future of our national parks 
requires greater engagement of the public, building partnerships and 
relationships well beyond the boundaries of the parks and their 
traditional supporters. In his time as a park ranger, scientist, 
superintendent and regional leader, Mr. Jarvis has consistently 
demonstrated an ability to listen and engage with partner organizations 
to build understanding and grass-roots support for the long-term 
preservation and enjoyment of the parks. In my own state of Washington, 
Mr. Jarvis, as superintendent of Mt. Rainier National Park, nurtured a 
culture of community partnerships that endures today. It was through 
these relationships that REI, the Student Conservation Association, 
Washington Trails Association, and many other organizations rallied to 
repair devastating damage to the park from storms in 2006--a wonderful 
example of community partnerships in action to support our nation's 
most important resources. Mr. Jarvis understands how to apply the law, 
required processes and diverse partnerships to ensure that our national 
parks fulfill their mission while being a respected part of the 
communities in which they operate.
    Many superintendents and rangers presented in the five full 
meetings of the Second Century Commission, and the NPCA board meets 
regularly in national parks. It is clear from many casual conversations 
with staff of the NPS that Mr. Jarvis is a person they would love to 
work for. He is perceived as a visionary, supportive leader who is 
forward-thinking and understands the core issues of the NPS. My 
personal observations of Mr. Jarvis in action certainly support these 
perceptions, and as a business executive, I know how important it is to 
listen, deeply understand the issues that face an organization and have 
the courage to lead through change.
    If I can be helpful in any way through this nomination process, 
please don't hesitate to call on me. I can be reached via phone at 253-
395.5848 or via e-mail at <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="5d2e37382a3831311d2f3834733e323073">[email&#160;protected]</a>
    Thank you for your commitment to our nation and to the long-term 
support of our national parks and public lands.
                                 ______
                                 
    Statement of Saul Weisberg, Executive Director, North Cascades 
                      Institute, Sedro-Woolley, WA
    I am writing you in strong support of Jon Jarvis' nomination for 
Director of the National Park Service.
    As executive director of North Cascades Institute , a nonprofit 
educational partner of the National Park Service, I have worked with 
Jon Jarvis for over 20 years. I can attest to his intelligence, clear 
thinking, excellent communication, and commitment to the public lands 
of the United States.
    I have personally observed Jon working with many diverse audiences 
and communities. He is committed to collaborative process and reaching 
common understanding, whether the issue is big or small. Nearly twenty 
years ago Jon set the stage for the successful, collaborative 
negotiations between FERC, the City of Seattle, and numerous 
intervenors that resulted in one of the best public-private 
partnerships in the country.
    Jon's leadership in bringing science into the core of NPS decision-
making has led to better park management not only in the Pacific West 
Region, but across the nation. He is dedicated to the National Park 
Service, passionate about its mission and enthusiastic about its 
future. He cares deeply about the people who work for and with the 
agency to serve the American public.
    I believe that Jon Jarvis will provide inspired leadership for the 
National Park Service at a time when it is clearly needed. His 
confirmation will provide the agency with a leader committed to the 
vision and value of public lands, able to speak to and for all 
Americans who enjoy and support the Parks.
    Thank you Senator Bingaman, for all you do to support and enhance 
the Natural Resources of the United States, and for your consideration 
of Jon Jarvis for National Park Service Director.
                                 ______
                                 
  Statement of David J. Simon, Director, New Mexico State Parks, New 
 Mexico Energy, Minerals and Natural Resources Department, Sante Fe, NM
    I write in strong support of the nomination of Jonathan B. Jarvis 
as Director of the National Park Service.
    I have known Jon Jarvis for over 20 years. In an organization 
filled with talented and dedicated public servants, Jon Jarvis is, 
quite simply, one of the best. His unfathomable commitment to the 
National Park System, the breadth and quality of his professional 
experience in the National Park Service, and his leadership skills make 
him perhaps the most qualified individual ever to serve as Director. I 
have been inspired by him and my own professional career has been 
influenced by his values and accomplishments.
    Jon Jarvis will be a great Director of the National Park Service 
and I urge his speedy confirmation by the Senate Energy and Natural 
Resources Committee and the full U.S. Senate.
    Thank you for your consideration.
                                 ______
                                 
Statement of Howard H. Baker, Jr., Co-Chairman and J. Bennett Johnston, 
         Co-Chairman, National Parks Second Century Commission
    Over the past year, we served as co-chairs of the National Parks 
Second Century Commission, a privately-funded commission charged with 
recommending the way forward for the second century of our national 
parks. During this time, we have come to know and admire Jon Jarvis, 
who served as the liaison for the National Park Service with the 
Commission. We believe that Jon's professional skills, leadership, 
vision and dedication to the preservation and protection of the parks 
will ensure his success as Director of the National Park Service, and 
we are pleased to endorse him enthusiastically and without reservation 
for this position.
    It was obvious to us in the Commission meetings held throughout the 
country the high regard that professionals in and associated with the 
National Parks have for Jon. His skill in bringing those from many 
different perspectives together and treating all with dignity and 
respect is sorely needed as our National Park Service works to meet the 
challenges ahead in protecting the parks and keeping them relevant to 
new generations of Americans. His thirty years of experience in the 
parks and solid background in the science, history and administrative 
needs of this varied system will also ensure that he is able to 
understand and develop comprehensive solutions to challenges quickly 
and through knowledge and conciliation.
    Jon is a perfect fit for this very crucial position and we are 
confident he will help guide and facilitate the development and 
implementation of policies that are sorely needed to maintain and 
protect what Ken Burns has called ``America's best idea.''
                                 ______
                                 
Statement of Greg Moore, Executive Director, Golden Gate National Parks 
                     Conservancy, San Francisco, CA
    As Executive Director of the Golden Gate National Parks 
Conservancy, I enthusiastically support the confirmation of Jonathan 
Jarvis as Director of the National Park Service.
    Since Jon became Regional Director of the Pacific West Region in 
2002, we have appreciated his exceptional vision, leadership, and 
managerial skills. He has worked effectively with us as the primary 
nonprofit partner at Golden Gate. He has provided steady leadership and 
management of the national parks in his region and has been a visionary 
and strategic member of the leadership team of the entire National Park 
Service.
    Established in 1981, the Golden Gate National Parks Conservancy is 
the key nonprofit partner of the Golden Gate National Parks. Working 
directly with the National Park Service, the Conservancy strives to 
enhance the experiences of park visitors and build a community 
dedicated to conserving these parks for the future. The Conservancy has 
provided over $150 million in support to the Golden Gate National Parks 
and has served as a national leader in the area of public engagement, 
philanthropy and partnership. We have appreciated Jon's support and 
encouragement as we've worked to foster innovative partnerships, secure 
philanthropic and volunteer support, and engage both young people and a 
broader diversity of Americans in our national parks.
    Each year, millions of people visit the Golden Gate National Parks 
to experience the nature, history, and scenic beauty that truly define 
the character of the San Francisco Bay Area. Jon has been integral to 
these parks, ensuring the engagement of national and international 
visitors at sites such as Alcatraz and Muir Woods, while allowing the 
local community to continue to use these parks as places of learning, 
recreation and sanctuary. He has been an eloquent spokesperson for the 
mission and values of these parks--and inspirational to our Board 
members, volunteers and staff in his vision and commitment.
    Jon's wholehearted support of our community programs has helped 
bring volunteers, young people, and diverse communities into the parks. 
In 2008 alone, 22,000 volunteers gave their time and efforts through 
collaborative programs of the Parks Conservancy, NPS and Presidio 
Trust. Such partnership programs at Golden Gate have flourished under 
Jon's tenure and have been lauded and studied across the United State 
and internationally.
    At the Parks Conservancy we are always expanding the boundaries of 
our work in conservation, environmental awareness and youth leadership. 
Throughout these parks, we are reclaiming and restoring natural 
habitat, encouraging sound environmental stewardship and breathing new 
purpose into former military posts. In this work, Jon and his Regional 
office team have supported the post-to-park transformation of Fort 
Baker and the establishment of the Institute at the Golden Gate. Across 
the Golden Gate Bridge from the Presidio, the former military village 
of Fort Baker is now a national park lodge with a new environmental 
program, moving this landmark site's purpose from military defense to 
the defense of our environment.
    I endorse the confirmation of this remarkably talented individual 
who is so dedicated to the future of our National Parks. If there is 
anything else I can do to express my strong support, please contact me.
                                 ______
                                 
  Statement of Rose Ochi, Esq., Manzanar National Historic Site (MNHS)
    As the pro bono legal counsel for the Manzanar National Historic 
Site (MNHS) designation campaign, I would like to express my 
wholehearted support for the confirmation of Jon Jarvis for the 
position of National Park Service Director. I have known him since his 
appointment to the Pacific Western Region Director. I have had the 
opportunity to observe his leadership efforts on behalf of the wartime 
confinement sites, in particular the development of the Manzanar Site. 
As Director, he can help fully realize the goals of this 
congressionally authorized effort to preserve this tragic episode in 
our nation's history.
    Recently, the National Parks Conservation Association organized a 
panel presentation following a preview of the Ken Burns' film, ``The 
National Parks: America's Best Idea''. I was part of the multi-racial 
panel that identified the challenges facing the national parks 
including diversifying personnel and outreaching to all communities 
towards broader participation. Importantly, as in Ken Burns' ``Untold 
Stories'' film, Jarvis is committed to including the other ``untold 
stories'' involving both the history and the participation of other 
diverse individuals who have help to create our national parks.
    Jarvis is truly well suited to handle the many challenges facing 
the National Park Service. He also can count on many who share his love 
and devotion for its preservation and growth to meet the needs of 
future generations to come. Please let me know if I can of any 
assistance in your deliberations.
                                 ______
                                 
   Statement of John P. deJongh, Jr., Governor, U.S. Virgin Islands, 
                          Charlotte Amalie, VI
    I am writing to give my strongest support for the nomination of 
Wilma A. Lewis to the position of Assistant Secretary of the Interior 
for Land and Minerals Management.
    Ms. Lewis is an outstanding individual who has devoted much of her 
professional legal career to leadership positions in public service. A 
noted lawyer from a distinguished Virgin Islands family, Ms. Lewis was 
valedictorian of her high school class on St. Thomas, a Phi Beta Kappa 
graduate of Swarthmore College, and received her Juris Doctor degree 
from Harvard Law School. Her professional career includes outstanding 
service as Solicitor General in the U.S. Department of the Interior, 
United States Attorney for the District of Columbia, and partner in a 
distinguished law firm in the nation's capital. She has also served as 
adjunct professor at the George Washington University National Law 
Center. Ms. Lewis exemplifies the accomplishments that we hold up to 
our young people as indicative of what a good education, a consistent 
work ethic and contribution in public service can make possible.
    Indeed, through her professional service in the public and private 
sectors, Ms. Lewis has demonstrated the experience, dedication and 
leadership necessary for success as Assistant Secretary of the 
Interior.
    I have personally known Ms. Lewis for many years. She has the 
highest standards of ethics and moral character, and she has my 
unqualified endorsement for this important position in the service of 
our country.
                                 ______
                                 
   Statement of John P. deJongh, Jr., Governor, U.S. Virgin Islands, 
                          Charlotte Amalie, VI
    I am writing to underline my strong support for, and endorse, the 
nomination of Anthony ``Tony'' Babauta to the newly elevated position 
of Assistant Secretary of Interior for Insular Affairs.
    As you know, the Office of the Assistant Secretary has important 
and substantial responsibility for coordinating federal policy for the 
insular areas of the United States. Often relegated in the past to 
secondary status in the development of national policies, it is 
essential that the individual occupying this post have the background, 
experience and temperament to advocate effectively for U.S. citizens in 
the insular areas of the United States who unfortunately still lack 
voting representation and full equality under the law.
    I have known Tony Babauta since becoming Governor of the Virgin 
Islands, particularly in his role as Staff Director for the House 
Subcommittee on Insular Affairs. As a native Guamanian, Tony has 
firsthand knowledge and experience with respect to the unique issues 
confronting the U.S. Territories. He has been particularly helpful in 
supporting a creative land exchange plan involving the acquisition and 
protection of Estate Grange on St. Croix, the boyhood home of Alexander 
Hamilton, and the construction of a long-needed new school on St. John. 
He has also been a vigorous defender of special incentives to develop 
the insular economies, including our rum tax cover-over program and our 
vital Economic Development Program.
    His leadership and demonstrated record of legislative achievement 
prepare him well for this important position at the Department of the 
Interior. I commend him highly and look forward to his early 
confirmation.
                                 ______
                                 
       Statement of Thomas C. Kiernan, President, National Parks 
                        Conservation Association
    On behalf of the National Parks Conservation Association and our 
325,000 members from across the United States, I am writing to express 
our support for the nomination of Jonathan Jarvis to be the Director of 
the National Park Service. After years of observing and working with 
Mr. Jarvis in the many positions of increasing responsibility he has 
held during his long Park Service career, we believe he is highly 
qualified to lead the Park Service as it approaches its second century 
of stewardship of our nation's greatest natural, cultural and historic 
treasures. He can certainly hit the ground running, given the many 
changes the system faces with the maintenance backlog and climate 
change.
    We agree with Secretary Salazar that there is no substitute for 
experience; and with a 30-year record of leadership and achievement 
within the National Park Service, he is a very capable candidate. His 
assignments have included on the ground work in both large and small, 
natural and cultural park units--from Washington's Mount Rainier and 
North Cascades National Parks, Idaho's Craters of the Moon National 
Monument, and Wrangell-St. Elias National Park in Alaska, to Hawaii's 
USS Arizona Memorial. As regional director of the agency's Pacific West 
Region, whose 54 park units include some of the largest and most well-
known parks in the National Park System, he has for the past seven 
years successfully managed some 3,000 employees and an annual budget of 
over $350 million. As a trained biologist, he is uniquely equipped to 
understand and find creative ways to resolve new problems in the 
national parks brought on by air and water pollution and climate 
change. Perhaps the strongest statement that can be made in his behalf 
is that he has earned tremendous respect among his Park Service 
colleagues. In short, he stands to be a very strong and effective 
Director of the National Park Service.
    The dedicated men and women of the National Park Service who care 
for and manage America's national parks and the millions of citizens 
who enjoy them every day need and deserve to have a qualified, 
vigorous, full time director confirmed and on the job. We know you, Mr. 
Chairman, will do what is necessary to move the nomination through your 
committee expeditiously, and we call on the full Senate to confirm 
Jonathan Jarvis as Director of the National Park Service as quickly as 
possible. We believe he will be a valuable addition to the strong team 
at the Interior Department. We respectfully request that this letter be 
made a part of the confirmation hearing record.
                                 ______
                                 
 Statement of Laurie A. Wayburn, President, the Pacific Forest Trust, 
                           San Francisco, CA
    I am writing to urge you to support the confirmation of Jonathan 
Jarvis as the Director of the National Park Service.
    Mr. Jarvis has over 30 years of experience in the management of our 
nation's natural resources. With a formal training in biology, Mr. 
Jarvis' scientific background provides an invaluable complement to his 
considerable firsthand management experience. Starling his career as a 
seasonal ranger and working his way to director of the agency's Pacific 
West Region, Mr. Jarvis brings with him an intimate knowledge of the 
complex management issues facing the National Park Service. In the 
nearly 15 years the Pacific Forest Trust has worked with Mr. Jarvis, he 
has repeatedly demonstrated his ability to balance an unremitting 
commitment to scientific integrity with the pragmatism requisite in 
natural resource management decisions.
    Mr. Jarvis' career has been dedicated to protecting the resources 
managed under the National Park System and ensuring the public's access 
to these national treasures. Not one to let difficult decisions sway 
his convictions, his integrity and courage in the face of controversy 
have won him the admiration of fellow Park Service colleagues. and the 
respect of diverse stakeholders. Recognizing this excellence in. 
leadership, Mr. Jarvis' was elected by his peers as the president of 
the George Wright Society, an association of Park Service managers and 
researchers. The qualities exemplified by Mr. Jarvis will be 
indispensable in navigating the highly contentious issues that will 
face the next director, such as snowmobile use in Yellowstone and the 
regulation of the Colorado River in the Grand Canyon.
    As the National Park Service approaches its centennial in 2016, the 
agency embarks upon a time of both great challenges and great 
opportunities. Dwindling park attendance and an aging workforce will 
demand an innovative new approach to attracting the next generation of 
employees and visitors. A maintenance backlog of nearly $8 billion 
faces the National Park System, but over $750 million in federal 
stimulus funds and an Administration budget request of $2.7 billion 
signal renewed investment in our National Park System and an optimistic 
future. As the agency confronts these and other challenges, Mr. Jarvis' 
experience, scientific knowledge and acute understanding of the 
Management realities facing the agency will be crucial to leading the 
National Park Service into its second century.
    I thank you for your time and consideration and urge you to support 
the confirmation of Jonathan Jarvis as the Director of the National 
Park Service.
                                 ______
                                 
    Statement of Matt Vander Sluis, Global Warming Program Manager, 
                    Planning and Conservation League
    I am writing on behalf of the Planning and Conservation League to 
express our strong support for the appointment of Jonathan Jarvis as 
Director of the National Park Service. For the past 30 years, Mr. 
Jarvis has demonstrated his dedication to the National Park Service, 
his employees, and the American public. His commitment to standing up 
for public resources, combined with his extensive experience, has well 
equipped him to confront the complex challenges facing our National 
Parks.
    Mr. Jarvis will bring an essential science-based perspective to the 
decision making process. As former chief biologist of the North 
Cascades National Park, Mr. Jarvis consistently demonstrated his 
commitment to scientific integrity. He also understands the scientific 
imperative to address environmental challenges including climate 
change, directing the parks in his region to be carbon neutral by 2016.
    Mr. Jarvis's work with diverse constituencies has further prepared 
him for the task of Director. He has cooperated with different land 
management agencies to preserve wildlife corridors, such as in the 
Santa Monica Mountains, and has been receptive to the concerns of 
historical and cultural preservation advocates. In addition, his rise 
through the ranks from seasonal ranger to director of the Pacific West 
Region allows him to identify with all different levels of the Park 
Service.
    In light of these qualifications, we encourage the Senate to 
support the appointment of Jonathan Jarvis as Director of the National 
Park Service.
                                 ______
                                 
Statement of Gregorio Kilili Camacho Sablan, Delegate From the Northern 
             Mariana Islands, U.S. House of Representatives
    I write today to lend my solid support for Mr. Anthony Marion 
Babauta, whom the President has nominated to be Assistant Secretary of 
the Interior for Insular Affairs.
    President Obama chose well. Mr. Babauta is attuned in all respects 
to the needs of the insular and outlying areas of the United States.
    I am personally acquainted with Mr. Babauta, having worked with him 
while he served as the Staff Director for the U.S. House of 
Representatives Natural Resources Subcommittee on Insular Affairs, 
Oceans and Wildlife. As Staff Director, he was instrumental in passage 
of the legislation giving the people of the Northern Marianas a voice 
in Congress, the seat I now hold.
    Mr. Babauta was also deeply involved in legislation extending 
federal immigration to the Northern Marianas and, as Assistant 
Secretary, now will be equally involved in implementing that law.
    I respectfully ask that the Committee on Energy and Natural 
Resources recommend that the Senate confirm Mr. Babauta.
                                 ______
                                 
                        Department of the Interior,
                           Office of the Inspector General,
                                                     July 24, 2009.
Memorandum

To: Renee Stone, Deputy Chief of Staff

From: John E. Dupuy, Assistant Inspector General for Investigations

Subject: Investigative Findings

    On July 15, 2009 the Office of Inspector General received a 
complaint from Dr. Corey S. Goodman, a member of the National Academy 
of Sciences, requesting an investigation of Jonathan Jarvis for 
misconduct and ethics violations. Dr. Goodman alleged that Mr. Jarvis 
deliberately withheld a document ``. . .from the IG investigation of 
Drakes Estero, from the public, and from its elected officials.''
    According to Dr. Goodman, initial documents claimed that ``. . 
.Drakes Bay Oyster Company (DBOC) has caused an 80% decline in harbor 
seals'' but in a ``non-public'' document dated July 27, 2007, this 
language was removed. Dr. Goodman believes this claim to be false and 
that Mr. Jarvis deliberately directed ``. . .a web of deception and a 
cover-up of misconduct. . .'' to keep the information from the public.
    We have completed an inquiry into this allegation and we have found 
no evidence to support this complaint. Should you have any questions or 
concerns please do not hesitate to contact me at (202) 208-5351.
                                 ______
                                 
 Statement of Frank Hugelmeyer, President and Chief Executive Officer, 
                      Outdoor Industry Association
    On behalf of Outdoor Industry Association (OIA), the premiere 
outdoor trade group in the U.S., I am writing to express our support 
for the nomination of Jonathon Jarvis for Director of the National Park 
Service. OIA believes that Mr. Jarvis is an extremely accomplished 
candidate for the job and that he will successfully lead the National 
Park Service into its second century of stewardship of our nation's 
world-renowned natural treasures.
    As the national trade association representing stakeholders in the 
$730 billion outdoor industry, OIA values America's National Parks as 
an unparalled resource that provides outdoor recreation opportunities 
for all generations of Americans. Our National Parks offer a variety of 
outdoor recreation experiences ranging from climbing, biking and 
kayaking to hiking, wildlife viewing and camping. Throughout his thirty 
years of tenure with the National Park Service, Mr. Jarvis has 
demonstrated his commitment to the economic vitality of America's 
pristine natural landscapes.
    Mr. Jarvis has demonstrated his capabilities in the context of 
assignments with both large and small park units including Alaska's 
Wrangell-St. Elias National Park, Washington's Mount Rainier, North 
Cascades National Park, Craters of the Moon National Monument in Idaho, 
and Hawaii's USS Arizona Memorial. Over the past seven years as 
regional director of the agency's Pacific West Region, whose 54 park 
units include some of the largest and most well-known parks in the 
National Park System, he has successfully managed some 3,000 employees 
and an annual budget of more than $350 million.
    As a trained biologist, Mr. Jarvis is aptly qualified to ensure 
that the park system continues to grow and evolve to represent and 
interpret nationally significant landscapes, ecosystems and the full 
range and diversity of American history and culture. OIA hopes that the 
parks will continue to place a priority on engaging Americans, 
including our young people.
    We ask you, Mr. Chairman, to urge your colleagues to promptly 
advance Mr. Jarvis' nomination through the full committee. We 
respectfully ask that you make this letter a part of the confirmation 
hearing record.
                                 ______
                                 
            Statement of Felix P. Camacho, Governor of Guam
    Chairman Jeff Bingaman, Ranking Member Senator, Lisa Murkowski and 
Members of the Committee, thank you for this opportunity to testify in 
support of Anthony Marion Babauta's nomination as the United States 
Assistant Secretary of Interior for Insular Areas.
    As Governor of Guam, I am truly proud of Mr. Babauta's many 
accomplishments that have led him to this prestigious nomination from 
President Barack Obama and Secretary of the Interior, Ken Salazar. His 
recent appointment as Senior Advisor to Secretary Salazar has enabled 
him to assist President Obama's Administration and Secretary Salazar in 
achieving the Department of the Interior's goals.
    His ten years of service in the U.S. House of Representatives' 
Natural Resources Committee have helped to improve U.S. policies 
governing U.S. territories and other U.S. affiliated island nations. He 
has also served on the House Natural Resources Committee as the staff 
director for the subcommittee on Insular Affairs. His expertise, work 
ethic, and exposure to various issues affecting the insular areas 
helped to strengthen the federal government's relationship with these 
communities. Mr. Babauta was actively involved in addressing critical 
issues including the renegotiated Compact with the Republic of the 
Marshall Islands and the Federated States of Micronesia, the Guam War 
Claims, and the political advancement of Puerto Rico.
    Mr. Babauta's experience in matters pertaining to national defense, 
international relations, political status, economic development, 
healthcare, and the environment, has garnered him the respect of 
leaders in the Insular Areas.
    The Micronesian Chief Executives Summit, an organization comprised 
of Presidents from the Republic of Palau, Republic of the Marshall 
Islands, the Federated States of Micronesia and Governors from Guam, 
the Commonwealth of the Northern Mariana Islands, Yap, Kosrae and 
Phonpei, support Mr. Babauta's nomination and believe that if 
confirmed, Mr. Babauta will broaden the Department of Interior's 
understanding of issues affecting Micronesia.
    I believe President Obama understands that the issues of Micronesia 
and other insular areas must be advanced. Through the President's 
reestablishment of the Assistant Secretary position to the Department 
of the Interior; shared ideas, goals, and plans to effectively address 
long-standing and current concerns of the insular areas will be well 
represented through the leadership of Mr. Babauta.
    I believe Mr. Babauta's history of public service to our nation and 
our region is proof that he has the willingness and professionalism to 
effectively serve as the next U.S. Assistant Secretary of Interior for 
Insular Areas. His deep understanding and vast work experience in the 
House of Representatives regarding the growing complexity of current 
and emerging issues in the Insular Areas, the Micronesian Islands and 
other Pacific Islands, are invaluable qualities essential to building 
stronger political, cultural, and economic ties between the United 
States and the insular areas.
    The people of Guam offer their full support for the confirmation of 
Mr. Babauta as the next U.S. Assistant Secretary of Interior for 
Insular Areas. Never before has there been a native of Guam or 
Micronesia considered for a position such as this. Mr. Babauta is 
undoubtedly the person best suited to represent the interests of these 
communities. His work and commitment in strengthening policies and 
relations in the insular areas is unquestionable. The community of Guam 
acknowledge Mr. Babauta as a well-respected leader for the work he has 
done while serving on the Subcommittee on Insular Affairs, Oceans, and 
Wildlife.
    Mr. Chairman and members of the Committee, I am proud to testify in 
support of the confirmation of Anthony Marion Babauta to be confirmed 
as the next U.S. Assistant Secretary of the Interior for Insular Areas. 
On behalf of Lieutenant Governor Michael W. Cruz, M.D. and the people 
of Guam, I ask for your swift and positive consideration of his 
confirmation.
                                 ______
                                 
 Statement of Nancy Schamu, Executive Director, National Conference of 
             State Historic Preservation Officers (NCSHPO)
    On behalf of the 57 State Historic Preservation Offices, I write in 
support of Jon Jarvis's nomination to be Director of the National Park 
Service (NPS). State Historic Preservation Offices (SHPOs) look forward 
to continuing their relationship with the NPS and expanding the reach 
of the Department of Interior into historic sites and main streets 
across the country.
    As Director of the NPS, Mr. Jarvis will be in charge of preserving 
our nation's most precious and non-renewable cultural and historic 
resources both on-and off-federal lands. Acting on behalf of the 
Secretary of Interior and the NPS, SHPOs partner with local and state 
governments, individuals, developers, federal agencies and many others 
to provide a mired of preservation activities such as survey and 
inventory, National Register nominations, preservation education, 
community preservation plans and review of federal undertakings.
    Mr. Jarvis will also be responsible for leading a historic 
preservation division whose economic impact measures in the billions 
and job creation in the thousands. In FY08, the Federal Historic 
Rehabilitation Tax Credit Program created over $5.64 billion in private 
investment and created an estimated 67,705 jobs. The program also has 
many social benefits including producing over 187,000 low and moderate 
income housing units to date.
    We understand that Mr. Jarvis is a strong supporter of cultural and 
historic resources. SHPOs look forward to supporting and working with 
him to preserve America's heritage.
                                 ______
                                 
Statement of Arthur E. Eck, Executive Director, Santa Monica Mountains 
                        Fund, Thousand Oaks, CA
    On behalf of the Santa Monica Mountains Fund, I write in full 
support of the nomination of Jon Jarvis to be Director of the National 
Park Service. His appointment will be among the finest that any 
Administration has made in naming a NPS Director. I believe I am more 
qualified than most to make that statement, having worked under every 
Director in the National Park Service since Gary Everhardt in 1977, and 
having had the privilege from 2002 to 2004 to serve as Jon's Deputy 
while he was Regional Director of the Pacific West Region.
    And while I consider all of those who have gone before him to 
include some very wonderful and capable Directors, none has been so 
thoroughly and broadly grounded in the various facets of operations and 
policy applied to the National Park Service. Jon Jarvis has worked at 
all levels of the NPS organization from the bottom up, and understands 
not only the issues, but the people who are the forces behind them. His 
career alone is testament to his commitment to high purposes and 
principles that Congress has vested in the National Park System and the 
agency that administers it. But as importantly, I can attest as a 
firsthand witness to Jon Jarvis' personal commitment to the highest 
standards of conduct and professionalism. He supported me without 
reservation in holding park superintendents accountable for their 
actions. He inspired all of us on his management team with a 
reorganization of the Pacific West Regional Office that resulted in 
cost-savings and a reduction in staffing; showing us it could be 
accomplished rationally and peaceably by working through it openly with 
the employees of the Regional Office. As he repeatedly reminded us, how 
we do things can be as important as what we do.
    Truly, there is no finer person within the ranks of the National 
Park Service for this position than Jon Jarvis. I am confident the 
Committee and the full Senate will concur in that conclusion upon a 
full examination of the facts.
                                 ______
                                 
Statement of Stephen H. Lockhart, MD, Ph.D., Chair, Board of Directors, 
  NatureBridge, Commissioner, National Parks Second Century Commission
    I am writing to support the confirmation of Jon Jarvis as Director 
of the National Park Service.
    I have worked with Jon Jarvis over the last several years both in 
my capacity as Chairman of the Board of NatureBridge, which provides 
residential environmental science programs in four National Parks in 
the Pacific West Region, and as a member of the National Parks Second 
Century Commission, an independent commission designed to develop a 
vision and recommendations for the second century of the National 
Parks. I would like to comment on Mr. Jarvis' nomination from both 
perspectives.
    NatureBridge is a partner organization which has 40 years 
experience providing education to 40,000 students per year in Yosemite, 
Golden Gate NRA, Olympic National Park, and Santa Monica NRA. As a 
result, we have an extensive history of working with senior Park 
Service leadership. In my opinion, Jon has been one of the most 
visionary leaders that we have encountered. He clearly supports the 
engagement of youth and diverse communities with the National Parks. He 
understands both the value of partners, and the need to make 
partnerships work within the context of the Park Service mission. He 
has garnered the respect of the Park Service staff within the region, 
who universally view him as a leader of great integrity. I could not 
agree more. I believe that from a regional perspective, his leadership 
has made the Pacific West Region a leader in education, natural and 
cultural resource protection, and in engaging youth and diverse 
communities. Certainly from our perspective, NatureBridge's ability to 
develop a next generation of Park visitors and stewards has been 
accomplished through the collaborative leadership provided by Jon 
Jarvis.
    Jon served as NPS liaison to the National Parks Second Century 
Commission, an independent group of nationally recognized leaders 
tasked with developing a vision and recommendations for the second 
century of the National Parks. The Commission worked for a year 
studying and discussing the full spectrum of issues related to the 
National Park system. Our interactions with Jon demonstrated that he 
has a depth of knowledge, understanding and commitment to the Parks and 
the Park Service that is unparalleled. Ensuring a future for the Parks 
requires not only a vision but visionary leadership. My interactions 
with Jon as liaison to the Commission has clearly demonstrated that he 
is such a visionary leader.
    Jon will do an outstanding job as Director of the National Park 
Service and I strongly support his confirmation.
    Thank you for your time and consideration in this matter.




</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
